<html>
<title> - PENDING HEALTH LEGISLATION, INCLUDING THE HEATHER FRENCH HENRY HOMELESS VETERANS ASSISTANCE ACT</title>
<body><pre>[Senate Hearing 107-635]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-635
 
PENDING HEALTH LEGISLATION, INCLUDING THE HEATHER FRENCH HENRY HOMELESS 
                        VETERANS ASSISTANCE ACT
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION




                               __________

                             JULY 19, 2001

                               __________

      Printed for the use of the Committee on Veterans' Affairs 





                       U. S. GOVERNMENT PRINTING OFFICE
81-470                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON VETERANS' AFFAIRS

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman

BOB GRAHAM, Florida                  ARLEN SPECTER, Pennsylvania
JAMES M. JEFFORDS (I), Vermont       STROM THURMOND, South Carolina
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
PAUL WELLSTONE, Minnesota            BEN NIGHTHORSE CAMPBELL, Colorado
PATTY MURRAY, Washington             LARRY E. CRAIG, Idaho
ZELL MILLER, Georgia                 TIM HUTCHINSON, Arkansas
E. BENJAMIN NELSON, Nebraska         KAY BAILEY HUTCHISON, Texas

                     William E. Brew, Chief Counsel

      William F. Tuerk, Minority Chief Counsel and Staff Director

                                  (ii)

  







                            C O N T E N T S

                              ----------                              

                             July 19, 2001

                                SENATORS

                                                                   Page
Rockefeller, Hon. John D. IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    48
Specter, Hon. Arlen, U.S. Senator from Pennsylvania, prepared 
  statement......................................................     4

                               WITNESSES

Boone, Linda, Executive Director, National Coalition for Homeless 
  Veterans, Washington, DC.......................................    49
    Prepared statement...........................................    50
Coulthard, Jimmie L., President and CEO, Minnesota Assistance 
  Council for Veterans, Minneapolis, MN..........................    56
    Prepared statement...........................................    58
Evans, Hon. Lane, a Representative in Congress from the State of 
  Illinois.......................................................     1
Garthwaite, Thomas L., M.D., Under Secretary for Health, 
  Department of Veterans Affairs, accompanied by Peter H. 
  Dougherty, Director, Homeless Veterans Programs, Office of 
  Public and Intergovernmental Affairs, Department of Veterans 
  Affairs; Ron Henke, Director, Veterans Benefits Administration, 
  Compensation and Pension Services, Department of Veterans 
  Affairs; and Walter Hall, Assistant General Counsel, 
  Professional Staff Group III, Department of Veterans Affairs...     6
    Prepared statement...........................................    15
    Response to written questions submitted by:
        Hon. John D. Rockefeller IV..............................    26
        Hon. Paul Wellstone......................................    27
        Hon. Arlen Specter.......................................    33
Schneider, Richard C., Director of Veterans and State Affairs, 
  Non Commissioned Officers Association of the United States of 
  America, and Chairman, Veterans Organizations Homeless Council, 
  Alexandria, VA.................................................    61
    Prepared statement...........................................    64
Shaughnessy, Daniel, member, Local 495, American Federation of 
  Government Employees, AFL-CIO, and Addiction Therapist, Tucson 
  VA Medical Center, Southern Arizona VA Health Care System, 
  Tucson, AZ.....................................................    69
    Prepared statement...........................................    71

                                APPENDIX

Akaka, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    81
American Association of Physician Specialists, Inc., prepared 
  statement......................................................    84
American Psychiatric Association, prepared statement.............    92
Filner, Bob, a Representative in Congress from the State of 
  California, prepared statement.................................    83
Ganio, Patrick G., Sr., National President, American Coalition 
  for Filipino Veterans, prepared statement......................    88
Garrick, Jacqueline, ACSW, CSW, CTS, Deputy Director, Health 
  Care, National Veterans Affairs and Rehabilitation Commission, 
  The American Legion, prepared statement........................    89
Gilman, Benjamin A., a Representative in Congress from the State 
  of New York, prepared statement................................    83

                                 (iii)

Hutchinson, Hon. Tim, U.S. Senator from Arkansas, prepared 
  statement......................................................    81
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    82
Lachica, Eric, Executive Director, American Coalition for 
  Filipino Veterans, prepared statement..........................    85
Paralyzed Veterans of America, prepared statement................    95
Pendleton, David A., Minority Floor Leader, Hawai'i House of 
  Representatives, prepared statement............................    94
  



PENDING HEALTH LEGISLATION, INCLUDING THE HEATHER FRENCH HENRY HOMELESS 
                        VETERANS ASSISTANCE ACT

                              ----------                              


                        THURSDAY, JULY 19, 2001

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:12 p.m., in 
room SR-418, Russell Senate Office Building, Hon. Paul 
Wellstone presiding.
    Present: Senators Rockefeller, Jeffords, Wellstone, 
Specter, and Campbell.
    Senator Wellstone. We are going to bring the hearing to 
order, and I wonder--first of all, I know that Senator 
Rockefeller is on his way, and my understanding is that Senator 
Specter is on his way as well. So they both will be here.
    I wanted to ask you, Ben, whether--and I guess I want to 
ask Congressman Evans. What we could do is I actually--rarely 
do I have a statement, but I do have something that I would 
like to lay out. But if you are--and, Ben, the same for you. 
But, Lane, if you are under a time constraint, I would be just 
as pleased, if it would be OK with the panelists, to have you 
make an opening statement. You have been the leader on this 
legislation in the Congress, and then maybe Ben and I and 
whoever else comes could make brief statements, and then we 
would go to the panelists. Is that all right with everybody?
    I would like to thank everyone who is here. We have got 
some great panelists, and we have got some other supporters. 
But I would like to just proceed with Congressman Evans, if 
that is all right with everyone. And thank you for your--not 
good work but great work for veterans, not this year but every 
year for a long time.

STATEMENT OF HON. LANE EVANS, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF ILLINOIS

    Mr. Evans. Thank you, Mr. Chairman. Twenty years now, which 
is hard to believe. But I appreciate your holding the hearing 
today.
    This is the first time, as it turns out, that I have ever 
testified before the Senate, as well, for some reason. So you 
are so friendly, I have to come back and ask for more help from 
time to time, and I appreciate it very much.
    According to another great Minnesota Senator, Hubert 
Humphrey:

    It was once said that the moral test of government is how 
that government treats those who are in the dawn of life--the 
children; those who are in the twilight of life--the elderly; 
and those who are in the shadows of life--the sick, the needy 
and the handicapped.

    I know that Senator Humphrey, like you today, Senator, 
would also champion programs for homeless veterans and be fully 
committed to ending homelessness among our veterans. With your 
leadership in the Senate, I am confident that this Congress 
will enact significant legislation like that which you and I 
have introduced.
    The Heather French Henry Homeless Veterans Assistance Act 
takes an important step forward. It states, in law, that 
Congress has a goal to end homelessness among veterans in a 
decade. I know that no Members of Congress who would oppose 
this goal.
    As you know, our bill has received the support of the 
National Coalition of Homelessness Veterans, which has hundreds 
of provider members, and the Veterans Homeless Organizations 
Council, which has the representation of many of the major 
military and veterans organizations. In addition, many of the 
major mental health and homeless consumer and provider groups 
have written letters of support. In the House, 128 cosponsors 
from both sides of the aisle support this legislation.
    There is no quick fix to this problem. Homeless veterans 
are more likely to have serious chronic mental illnesses, to 
have substance use disorders, to have significant chronic 
illnesses or disease, to lack the social networks that help 
most of them through their difficulties, and to lack jobs and 
even basic living skills. The programs that you and I want to 
provide through this bill work to address these problems with 
comprehensive solutions.
    I believe we can achieve the goal of ending homelessness 
among our veterans by using programs that have demonstrated 
their effectiveness, by better coordinating the services 
offered by the DVA with other Federal, State, and local 
agencies, and by enhancing relationships with private sector 
entities.
    I also believe that we must have the experts bringing their 
thoughts to the table to enrich this dialog about service to 
homeless veterans and about program effectiveness and needed 
innovations. That is why stiffer regulations from the Federal 
Government and a new statutory VA Advisory Committee on 
Homeless Veterans reporting directly to the Congress and the 
Secretary are needed.
    Some programs provided for or funded by the VA have 
demonstrated their effectiveness and progress. We have proposed 
creating incentives for VA to provide Mental Health Intensive 
Community Management programs, supportive, therapeutic housing 
for veterans recovering from substance abuse, and more care in 
VA community hospitals and domiciliaries to help us meet the 
needs for transitional housing.
    Entire major metropolitan areas lack adequate resources for 
homeless veterans. Here in the Nation's capital, for example, 
veterans have neither a VA domiciliary nor a comprehensive 
homeless veterans service. We want community-based 
organizations to have the opportunity to be even more effective 
by giving them a rate that is slightly higher and more 
predictable for the daily care of veterans.
    We will also invite them to participate in programs to 
assist certain veterans with special needs and to provide 
therapeutic residences for veterans participating in 
compensated work therapy. I believe this bill offers these 
providers additional opportunities to continue their 
innovations on behalf of our veterans.
    Mr. Chairman, earlier this year, one of my staff members 
visited a program in Las Vegas where she was told that the VA 
can ``usually'' find a bed for a dying homeless veteran within 
his or her last week of life. As a Nation, we should be 
outraged by this situation. I know you agree that we need to do 
more for our veterans.
    Thank you, Paul. You have been a great friend and a solid 
advocate for veterans across this country. I could spend a 
little bit longer, but we have a bill coming up soon. I thank 
the Senate for allowing me to say a few words.
    Senator Wellstone. Well, thank you. I want to say for 
Senator Specter and Senator Jeffords that I knew that 
Congressman Evans had a vote coming up and that I asked him to 
make an opening statement. He has really been the leader in 
this area, and I thought that was more than appropriate.
    We have distinguished panelists. I thought maybe all of us 
could make a brief statement if we want to, and then we will go 
right to the panelists.
    I want to thank Senator Rockefeller for letting us have 
this hearing on the Heather French Henry Homeless Veterans 
Assistance Act that Congressman Evans has introduced in the 
House and that I have introduced in the Senate. I, however, 
don't think the topic or the legislation is owned by two 
people. Everybody in this hearing today, including all members 
of this committee, Democrats and Republicans alike, I think 
care fiercely about the issue. And I think this is something we 
can and should get done.
    I also want to mention that Secretary Principi came out to 
Minnesota after we originally had introduced this legislation, 
Lane, and I am absolutely convinced that he is very committed 
to this legislation and very committed to our doing better as a 
country.
    We heard from Congressman Lane Evans, who I can't say 
enough about. We are going to also hear from Tom Garthwaite, 
who is Under Secretary of Health, and I think you have got with 
you Peter Dougherty, who is Director of Homeless Veterans 
Programs; Ron Henke, who I have mixed feelings about, who did 
such great work in Minnesota, who is the Director of Veterans 
Benefits Administration, Compensation and Pension Service; and 
Walter Hall, Assistant General Counsel.
    In our second panel, we are going to have Linda Boone, who 
is executive director of the National Coalition for Homeless 
Veterans, who I know well, and thank you for your work; Richard 
Schneider, MA, Director of Veterans and State Affairs, Non 
Commissioned Officers Association; Daniel Shaughnessy, MSW, 
member, Local 495, American Federation of Government Employees; 
and then Jimmie Lee Coulthard. And I have got to say this for 
other members of the committee. He is president and CEO of the 
Minnesota Assistance Council for Veterans, but he has been my 
teacher. He has been the teacher for so many people in 
Minnesota, absolutely unbelievable person.
    I want to thank--and I am speaking quickly because I want 
to let other people speak and let you speak--Heather French 
Henry. We should really name the legislation after her. She 
richly deserves it. While Miss America and now, she has just 
been never-ending in her commitment. You know, we could be 
talking about 300,000 of our Nation's veterans. And as many of 
you may know, Ms. Henry and her husband just had a little girl, 
Harper, on July 6th. So we wish her and her family well.
    The legislation has the goal of ending homelessness in 10 
years, and we all say we are committed to that. I think it is 
time to get down to work and put some pieces together that we 
think will make the difference.
    The independent budget pointed out that we have got 275,000 
veterans that are homeless on any given night. I would guess--
and I think their budget goes like this: If you were to put 
women and children in parenthesis--which you should never do, 
but just for a moment look at adult men, I would bet about a 
third are veterans. A good many of them are Vietnam vets. A 
good many of them struggle from post-traumatic stress syndrome. 
A good many of them are struggling with substance abuse. And 
for all of them, we can do better.
    I think we are building up a good head of steam, and I am, 
again, very, very excited about this hearing and hope we can--
and I have no doubt that we can move this piece of legislation, 
with other good legislation, forward.
    I now would turn to Senator Specter.
    Senator Specter. Well, thank you very much, Mr. Chairman. I 
will submit an opening statement for the record.
    I am glad to see activity moving ahead to tackle the 
problem of homelessness for veterans. I can recall the first 
time I saw someone sleeping on a grate in Philadelphia in 1982, 
shortly after a Federal judge in Philadelphia handed down a 
landmark decision releasing many people who had been 
institutionalized. And that was really the beginning of the 
very intense homeless problem which we have had in America. 
Perhaps we have always had a homeless problem, but that is when 
it really started to burgeon. And I can recollect in 1982 
Senator Pryor and I sponsored the first appropriations, $50 
million, for the homeless. At that time, we had seen quite a 
national effort on this important subject, and veterans ought 
to come first.
    There is a big debt which America owes to veterans; we 
haven't even made an adequate down payment. So I am glad to see 
this important matter moving forward.
    [The prepared statement of Senator Specter follows:]

      Prepared Statement of Hon. Arlen Specter, U.S. Senator From 
                              Pennsylvania

    Thank you, Mr. Chairman. I join you in welcoming our 
witnesses to this important hearing. We have an ambitious 
agenda today, so my remarks will be brief. But I would like to 
say a few words about a couple of important items on today's 
agenda--namely, proposals to attack the seemingly intractable 
problem of homelessness; and a bill on VA nurse pay that you 
introduced yesterday, Mr. Chairman, and which I am pleased to 
have cosponsored.
    Obviously, the fact that many of our citizens are homeless 
is a national scandal. That those who have served the country 
in uniform are among the homeless is worse than a scandal--it 
is a source of national shame. I will support legislation that 
aims to attack this problem; the only source of controversy--if 
any--will be issues of approach. I will seek the expert views, 
for example, on the question of whether it would be fair--and, 
more importantly, whether it would be therapeutically 
advisable--to make cash payments to homeless persons who have 
histories of drug and/or alcohol abuse. But apart from such 
issues, I join the Senator from Minnesota in expressing outrage 
that this problem persists. I will work with him to solve it.
    I also wish to comment briefly on S. 1188, the ``VA Nurse 
Recruitment and Retention Enhancement Act,'' introduced just 
yesterday--with my cosponsorship--by Chairman Rockefeller. This 
bill would respond to many of the concerns we heard during our 
oversight hearing on June 14, 2001. I commend the Chairman and 
his staff for drafting a bill on these issues so quickly. S. 
1188 would modify and improve VA's Nurse Scholarship and Debt 
Reduction Programs; it would mandate that Licensed Practical 
Nurses, and others, receive premium pay when they have to work 
on Saturdays; it would require VA to tackle, in a serious way, 
nurse to patient staff ratio issues; and it would improve nurse 
retirement benefits. While perfecting amendments to the bill 
may be in order--we are here, after all, to learn from VA how 
the bill might be improved--I intend to support this 
legislation. And I look forward to marking it up later this 
month.
    Mr. Chairman, that concludes my opening remarks. I look 
forward to an informative hearing.

    Senator Wellstone. Thank you very much, Senator Specter.
    Senator Campbell?
    Senator Campbell. Thanks, Mr. Chairman. Thanks for 
convening this hearing to focus on legislation affecting 
homeless veterans and veterans health care issue. I don't think 
we would serve on this committee if we weren't all interested 
in it.
    I was particularly pleased that the name of Heather French 
Henry was given to S. 739. Many of us know Heather very well, 
and, in fact, Memorial Day, she was here in Washington with 
300,000 veterans when she was 8 months' pregnant. I think that 
says something about her strength of character and her 
commitment to helping veterans. During the year she was Miss 
America, she traveled endlessly making appearances for 
veterans. And, I think right from the beginning she made it 
known that she was really concerned because her dad had been a 
veteran and had been injured in battle. I think he raised her 
with a commitment to trying to help veterans. She is the first 
one I have known, frankly, that has ever run for Miss America 
that has made a priority of helping homeless veterans, and I 
thought that was very unusual.
    But, certainly, having a quarter million homeless veterans 
is unacceptable. We can do better than that. We look at the 
news every day, and we see that we are in space now dealing 
with Russians on the Space Station, and we have all these 
marvelous things going on in the technical world. Yet in the 
shadows of many of the institutions that developed these 
marvelous things that go into space, there are veterans 
sleeping in cardboard boxes. And I just know that we can do 
better.
    It seems like whenever we are in a war, there is an awful 
lot of publicity about how important our military is. Then, 
when it subsides, somehow our soldiers sort of disappear into 
the ranks of the nameless and faceless, and that is not good 
enough for you and it is not good enough for me or this 
committee.
    So I want to commend you on that. I think, as you do, that 
Secretary Principi is doing a really good job. He has made also 
a big commitment, done a lot of traveling, made a lot of 
appearances, and made some personal commitments that he is 
going to try to make it better. And I certainly look forward to 
that.
    When we were dealing with the veterans health care budget 
this year, I know that there has been $1 billion more put in 
than last year. But many of our veterans groups, like the VFW, 
the American Legion, and others, are saying that is not enough 
because the problems have increased. Certainly we have to 
revisit that, too, and I am looking forward to working with you 
on that issue.
    Senator Wellstone. Absolutely.
    Senator Campbell. Thank you.
    Senator Jeffords?
    Senator Jeffords. Well, thank you, Mr. Chairman, certainly 
for holding these hearings, and I can only echo what has 
already been heard. And I thank the Under Secretary of Health 
for being with us today, also.
    I have been very concerned about the plight of homeless 
veterans for much of my career in the Congress. In Vermont, 
this is a serious problem that defies the usual solutions to 
homelessness. In Vermont, we also suffer the same difficulties 
as other veterans, veterans hospitals and problem in 
recruitment and retention of nurses, and so I am pleased to see 
these issues being raised here today.
    On the positive side, I would like to say that I recently 
visited a homeless program in Long Beach, California, which is 
an incredibly good program. It is the finest one I have seen. 
And I came away very positive after visiting there to know what 
can be done.
    Thank you, Mr. Chairman.
    Senator Wellstone. Dr. Garthwaite?

 STATEMENT OF THOMAS L. GARTHWAITE, M.D., UNDER SECRETARY FOR 
HEALTH, DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY PETER H. 
  DOUGHERTY, DIRECTOR, HOMELESS VETERANS PROGRAMS, OFFICE OF 
 PUBLIC AND INTERGOVERNMENTAL AFFAIRS, DEPARTMENT OF VETERANS 
AFFAIRS; RON HENKE, DIRECTOR, VETERANS BENEFITS ADMINISTRATION, 
   COMPENSATION AND PENSION SERVICES, DEPARTMENT OF VETERANS 
     AFFAIRS; AND WALTER HALL, ASSISTANT GENERAL COUNSEL, 
  PROFESSIONAL STAFF GROUP III, DEPARTMENT OF VETERANS AFFAIRS

    Dr. Garthwaite. Mr. Chairman and members of the committee, 
I am pleased to be here to present VA's views on several bills 
under consideration by the committee and have limited my oral 
remarks to Senate 739, as requested, and my full statement has 
been presented for the record.
    VA is the only Federal agency that provides substantial 
hands-on assistance directly to homeless persons. Our major 
homeless programs constitute the largest integrated network of 
homeless assistance programs in the country, offering a wide 
variety of services and initiatives to help veterans recover 
from homelessness and live as self-sufficiently and 
independently as possible.
    With additional funding made available in the fiscal year 
2000 budget, we significantly expanded these programs and have 
initiated new program evaluation efforts, as required by the 
Millennium Act.
    VA expects to expend $142 million on specialized programs 
for homeless veterans this year and is projecting a budget of 
$148 million for these programs in fiscal year 2002.
    Using our resources and in partnership with others, VA has 
helped to secure more than 10,000 transitional and permanent 
beds for homeless veterans throughout the Nation. Programs 
unique to homeless veterans are integrated with extensive other 
VA health care and benefits services. In addition, VA relies 
heavily on its Federal, State, and community-based partners to 
assure a full range of services for homeless veterans.
    I have a summary of VA's current homeless veterans 
assistance programs and would like to submit that for the 
record.
    Senator Wellstone. It will be in the record.
    Dr. Garthwaite. Thank you.
    [The information referred to follows:]
          Homeless Veterans Treatment and Assistance Programs
    VA has developed a wide range of programs and services to address 
homeless veterans needs. These programs operate in partnership with 
community-based organizations and service providers and other federally 
funded programs. With the additional funding made available in the FY 
2000 budget we have significantly expanded our homeless programs this 
year and we have initiated new program evaluation efforts as required 
by the Millennium Act. While many special programs have been designed 
to address the special needs of homeless veterans, they do not function 
in isolation. These programs are integrated with other VA healthcare 
and benefits services. In addition, VA relies heavily on its federal, 
state and community based partners to assure a full range of services 
for homeless veterans.
    Secretary Principi recently announced his decision to establish a 
VA Advisory Council on Homelessness Among Veterans with the mission of 
providing advice and making recommendations on the nature and scope of 
programs and services within VA. The advisory committee will consist of 
not more than 15 members, including a Chairperson. Committee member 
appointments will be made from knowledgeable VA- and non-VA experts, 
and will include representatives from community service providers with 
qualifications and competence to deal effectively with care and 
treatment services for homeless veterans. The overall makeup of the 
membership will ensure that perspectives on health, benefits, education 
and training, and housing for homeless veterans are addressed. Close 
attention will be given to equitable geographic distribution and to 
ethnic and gender representation.
    The Council is expected to meet two to four times annually. This 
committee will greatly assist VA in improving the effectiveness of our 
programs and will allow a strong voice to be heard within the 
Department from those who work closely with us in providing service to 
these veterans. We hope to have the Advisory Council members selected 
and the Council ready to function by the end of July.
                      homeless veteran population
    In 1996 the Federal Interagency Council on the Homeless (ICH) 
designed and the Census Bureau conducted the ``National Survey of 
Homeless Assistance Providers and Clients.'' The survey was conducted 
in the 28 largest metropolitan areas, 24 randomly selected small and 
medium sized areas and 24 randomly selected groups of rural counties. 
Approximately 12,000 service providers were contacted and 4,200 
consumers of homeless services were interviewed. Survey findings and a 
technical report written by the Urban Institute were released in 
December 1999. Survey findings related to homeless veterans were as 
follows:
    <bullet> 33 percent of homeless males are veterans;
    <bullet> 33 percent of homeless veterans report being stationed in 
a war zone;
    <bullet> 28 percent of homeless veterans report being exposed to 
combat;
    <bullet> 67 percent of homeless veterans reported serving 3 or more 
years in the military;
    <bullet> 32 percent of veterans compared to 17 percent of non-
veterans reported that their last episode of homelessness lasted more 
than 13 months; and
    <bullet> 57 percent of homeless veterans reported using VA health 
care services at least once.
    The Urban Institute issued a press release in February 2000, 
estimating that between 2.3 million to 3.5 million Americans may have 
experienced an episode of homelessness during 1996. Extrapolation from 
this estimate would suggest that between 322,000-491,000 veterans might 
have experienced homelessness during that time period.
                     homeless veterans served by va
    In FY 2000, staff in VA's Health Care for Homeless Veterans (HCHV) 
Program had contacts with over 43,000 homeless veterans. Approximately 
32,000 homeless veterans were given formal intake assessments to 
determine their clinical, housing and income status. Data from these 
intake assessments provides VA with detailed information about the 
demographic and clinical characteristics of the homeless veterans 
served by VA. We would like to share some of these findings with you 
today:
    <bullet> Approximately 97 percent of homeless veterans contacted by 
program staff are men and 3 percent are women.
    <bullet> The mean age of these veterans was 47.
    <bullet> Approximately 49 percent of the veterans served in the 
military during the Vietnam Era while nearly 5 percent served during 
the Persian Gulf era.
    <bullet> Approximately 47 percent of these veterans were African 
Americans and 6 percent were Hispanic.
    <bullet> 60 percent of homeless veterans report part-time, 
irregular employment or no employment during the past 3 years; 72 
percent of homeless veterans report not having worked at all during the 
30 days prior to the intake assessment.
    <bullet> 68 percent of homeless veterans reported living in 
emergency shelters or outdoors at the time of the intake assessment.
    82 percent of homeless veterans were determined by HCHV clinicians 
to have a serious psychiatric or substance abuse problem--
          44 percent had a serious psychiatric problem,
          69 percent were dependent on alcohol and/or drugs,
          32 percent were dually diagnosed with psychiatric and 
        substance abuse disorders.
                  programs and services provided by va
    VA is the only federal agency that provides substantial hands-on 
assistance directly to homeless persons. Although limited to veterans, 
VA's major homeless programs constitute the largest integrated network 
of homeless assistance programs in the country, offering a wide array 
of services and initiatives to help veterans recover from homelessness 
and live as self-sufficiently and independently as possible.
    VA, using its resources or in partnerships with others, has helped 
to secure more than 10,000 transitional and permanent beds for homeless 
veterans throughout the nation. These include:
    <bullet> beds in VA's Domiciliary Care for Homeless Veterans (DCHV) 
program;
    <bullet> beds in VA's Compensated Work Therapy/Transitional 
Residence (CWT/TR) program;
    <bullet> beds supported through contracts under the Health Care for 
Homeless Veterans (HCHV) program;
    <bullet> the VA Supported Housing (VASH) program;
    <bullet> the joint HUD-VA Supported Housing (HUD-VASH) program; and
    <bullet> the Homeless Providers Grant and Per Diem Program.
    With the new Loan Guarantee for Multifamily Transitional Housing 
for Homeless Veterans Program and additional grant awards under the 
Grant and Per Diem Program, VA expects to help community service 
providers develop approximately 6,000 more transitional beds for 
homeless veterans over the next 4 years.
    In addition to these special initiatives, VA provides a wide range 
of services to homeless veterans through its mainstream health care and 
benefit assistance programs. To increase this assistance, VA has 
initiated outreach efforts to connect more homeless veterans to both 
mainstream and homeless-specific VA programs and benefits. These 
programs strive to offer a continuum of services including:
    <bullet> aggressive outreach to veterans living on streets and in 
shelters who otherwise would not seek assistance;
    <bullet> clinical assessment and referral to needed medical 
treatment for physical and psychiatric disorders including substance 
abuse;
    <bullet> long-term sheltered transitional assistance, case 
management and rehabilitation;
    <bullet> linkage and referrals for employment assistance, linkage 
with available income supports; and assistance in obtaining housing.
                  homeless veterans-specific programs
    VA's FY 2000 budget increased funding for specialized services for 
homeless veterans by $50 million. Of this increase, $39.6 million was 
included in the medical care appropriation and the remainder is 
available to guarantee loans made under the Multifamily Transitional 
Housing for Homeless Veterans Program. VA expects to spend $142.2 
million on specialized programs for homeless veterans this year and is 
projecting a budget of $148.1 million for these programs in FY 2002. 
The following provides an overview of the types of programs VA has 
developed to meet the multiple and varied needs of homeless veterans:
    VA's Health Care for Homeless Veterans Program (HCHV) operates at 
127 sites where extensive outreach, physical and psychiatric health 
exams, treatment, referrals, and ongoing case management are provided 
to homeless veterans with mental health problems, including substance 
abuse. As appropriate, the HCHV program places homeless veterans 
needing longer-term treatment into one of its 250 contract community-
based facilities. During the last reporting year, this program assessed 
more than 32,000 veterans, with 4,800 receiving residential treatment 
in community-based treatment facilities. The average length of stay in 
community-based residential care is about 60 days and the average cost 
per day is approximately $38.00. VA committed $18.8 million to the 
expansion of the HCHV program in FY 2000 and funds were distributed in 
mid year. This included the activation of new sites and expansion of 
existing programs. When all new staff and new programs are fully 
operational, it is expected that 12,000 additional homeless veterans 
will be treated. Approximately one fourth of these veterans will be 
provided contract residential treatment. In FY 2000, VHA also committed 
an additional $3 million to establish 11 programs that are dedicated to 
homeless women veterans. These programs are expected to serve 1,500 
homeless women veterans per year, when they are fully operational.
    VA's Domiciliary Care for Homeless Veterans (DCHV) Program provides 
medical care and rehabilitation in a residential setting on VA medical 
center grounds to eligible ambulatory veterans disabled by medical or 
psychiatric disorders, injury or age and who do not need 
hospitalization or nursing home care. There are 1,781 operational beds 
available through the program at 35 VA medical centers in 26 states. 
The program provided residential treatment to some 5,500 homeless 
veterans in FY 2000. The domiciliaries conduct outreach and referral; 
admission screening and assessment; medical and psychiatric evaluation; 
treatment, vocational counseling and rehabilitation; and post-discharge 
community support.
    Special Outreach and Benefits Assistance is provided through 
funding from VA's Veterans Health Administration to support 10 
veterans' benefits counselors from the Veterans Benefits Administration 
(VBA) as members of VA's Health Care for Homeless Veterans Program and 
DCHV programs.
    Acquired Property Sales for Homeless Providers Program makes 
available properties VA obtains through foreclosures on VA-insured 
mortgages. These properties are offered for sale to homeless provider 
organizations at a discount of 20 to 50 percent. To date, 173 
properties have been sold, and 9 properties are currently leased to 
nonprofit organizations to provide housing for the homeless.
    Drop-in Centers provide homeless veterans who sleep in shelters or 
on the streets at night with safe, daytime environments. Eleven centers 
offer therapeutic activities and programs to improve daily living 
skills, meals, and a place to shower and wash clothes. At these VA-run 
centers, veterans also participate in other VA programs that provide 
more extensive assistance, including a variety of therapeutic and 
rehabilitative activities. Drop-In Center staff also coordinates with 
other programs to provide veterans with long-term care services.
    Compensated Work Therapy (CWT) and CWT/Transitional Residence 
Programs have had dramatic increases in activity during the past few 
years. Through its CWT/TR program, VA offers structured therapeutic 
work opportunities and supervised therapeutic housing for at risk and 
homeless veterans with physical, psychiatric and substance abuse 
disorders. VA contracts with private industry and the public sector for 
work to be done by these veterans, who learn new job skills, re-learn 
successful work habits and regain a sense of self-esteem and self-
worth. The veterans are paid for their work and, in turn, make a 
monthly payment toward maintenance and upkeep of the residence.
    The CWT/TR program includes 53 community-based group home 
transitional residences with more than 400 beds. Ten program sites with 
18 residences exclusively serve homeless veterans. The average length 
of stay is approximately six months. There currently are more than 110 
individual CWT operations connected to VA medical centers nationwide. 
Nearly 14,000 veterans participated in the programs in FY 2000. CWT 
programs developed contracts with companies and agencies of government 
valued at a national total of $43.2 million. Increased competitive 
therapeutic work opportunities are occurring each year. At discharge 
from the CWT/TR program 42 percent of the veterans were placed in 
competitive employment and 20 percent were in training programs. VA has 
committed $2.3 million to the activation of new CWT programs and other 
therapeutic work initiatives for homeless veterans. When these programs 
are fully operational, it is expected that they will be able to serve 
an additional 1,600 veterans annually.
    Intradepartmental programs also support the CWT programs for 
homeless veterans. VA's National Cemetery Administration and Veterans 
Health Administration have formed partnerships at 20 national 
cemeteries, where more than 120 formerly homeless veterans from the CWT 
program have received therapeutic work opportunities while providing VA 
cemeteries with a supplemental work force.
    HUD-VA Supported Housing (HUD-VASH) Program, a joint program with 
the Department of Housing and Urban Development (HUD), provides 
permanent housing and ongoing treatment services to the harder-to-serve 
homeless mentally ill veterans and those suffering from substance abuse 
disorders. HUD's Section 8 Voucher Program continues to renew 1,780 
vouchers for $44.5 million, designated over a ten-year period, for 
homeless chronically mentally ill veterans, and VA staff at 35 sites 
provide outreach, clinical care and case management services. Rigorous 
evaluation of this program indicates that this approach significantly 
reduces days of homelessness for veterans who suffer from serious 
mental illness and substance abuse disorders.
    VA's Supported Housing Program is like the HUD-VASH program in that 
VA staff provides therapeutic support and assistance to help homeless 
veterans secure low-cost, long-term transitional or permanent housing 
and provide ongoing clinical case management services to help them 
remain in housing. It differs from HUD-VASH in that dedicated Section 8 
housing vouchers are not available to homeless veterans in the program. 
As part of VA's clinical case management services, staff work with 
private landlords, public housing authorities and nonprofit 
organizations to find therapeutically appropriate housing arrangements. 
Veterans service organizations have been instrumental in helping VA 
establish these housing alternatives nationwide. In 2000, VA staff at 
26 Supported Housing Program sites helped 1,800 homeless veterans find 
transitional or permanent housing in the community.
    Comprehensive Homeless Centers place a variety of VA's homeless 
programs into an integrated organizational framework to promote 
coordination of VA resources and non-VA homeless programs. VA currently 
has seven comprehensive homeless centers connected to medical centers 
in Brooklyn, Cleveland, Dallas, Little Rock, Pittsburgh, San Francisco, 
and Los Angeles.
    Stand Downs are 1-3 day safe havens for homeless veterans that 
provide a variety of services to veterans and opportunity for VA and 
community-based homeless providers to reach more homeless veterans. 
Stand downs provide homeless veterans a temporary place of safety and 
security where they can obtain food, shelter, clothing and a range of 
community and VA-specific assistance. In many locations, VA provides 
health screenings, referral and access to long-term treatment, benefits 
counseling, ID cards and linkage with other programs to meet their 
immediate needs. VA participated in 179 stand downs run by local 
coalitions in various cities during CY 2000. Surveys showed that more 
than 35,000 veterans and family members attended these events. More 
than 20,000 volunteers contributed to this effort.
    VA Excess Property for Homeless Veterans Initiative provides for 
the distribution of federal excess personal property, such as clothing, 
footwear, socks, sleeping bags, blankets and other items to homeless 
veterans through VA domiciliaries and other outreach activities. In 
less than seven years, this initiative has been responsible for the 
distribution of more than $90 million worth of materiel and currently 
has more than $6 million in inventory. A CWT program providing a 
therapeutic work experience for formerly homeless veterans has been 
established at the VA Medical Center in Lyons campus of the VA New 
Jersey Health Care System, to receive, warehouse and ship these goods 
to VA homeless programs across the country.
    The Homeless Providers Grant and Per Diem Program is a dynamic 
component of VA's homeless-specific programs. It provides grants and 
per them payments to assist public and nonprofit organizations to 
establish and operate new supportive housing and service centers for 
homeless veterans. Grant funds may also be used to assist organizations 
in purchasing vans to conduct outreach or provide transportation for 
homeless veterans. Since the first year of funding in FY 94, VA has 
awarded 243 grants to nonprofit organizations, units of state or local 
governments and Native American tribes in 44 states and the District of 
Columbia.
    Total VA funding for grants has exceeded $53 million. When these 
projects are completed, approximately 5,000 new community-based beds 
will be available for homeless veterans. Nearly 3,500 unique homeless 
veterans were cared for through these programs in IFY 2000 and their 
care was supported by VA per them payments to service providers.
    VA announced a new round of grants in April 2001, and has committed 
$10 million for the eighth round of funding.
    Project CHALENG (Community Homelessness Assessment, Local Education 
and Networking Groups) for Veterans is a nationwide initiative. VA 
medical center and regional office directors work with other federal, 
state and local agencies and nonprofit organizations. They assess the 
needs of homeless veterans, develop action plans to meet identified 
needs, and develop directories that contain local community resources 
to be used by homeless veterans.
    More than 10,000 representatives from non-VA organizations have 
participated in Project CHALENG initiatives, which include holding 
conferences at VA medical centers to raise awareness of the needs of 
homeless veterans, creating new partnerships in the fight against 
homelessness and developing new strategies for future action.
    Loan Guarantee for Multifamily Transitional Housing for Homeless 
Veterans is currently being implemented as authorized by P. L. 105-368. 
This program will allow VA to guarantee loans made by lenders to help 
non-VA organizations develop transitional housing for homeless 
veterans. VA awarded a contract to Birch and Davis Associates, Inc., 
and their subcontractors, Century Housing Corporation, to assist with 
the development of this pilot program. VA plans to guarantee 5 loans in 
the next two years, with a total of 15 loans guaranteed over the next 4 
years. It is hoped that up to 5,000 new transitional beds for homeless 
veterans will be created through this program.
           mainstream va programs assisting homeless veterans
    The Veterans Benefits Administration (VBA) administers a number of 
compensation and pension programs: disability compensation, dependency 
and indemnity compensation, death compensation, death pension and 
disability pension. Vocational rehabilitation and counseling assist 
veterans with service-connected disabilities to achieve independence in 
daily living and to the extent possible become employable and maintain 
employment. In the Fiduciary or Guardianship Program, the benefits of 
veterans who are determined to be incapable of managing their funds are 
managed by fiduciary.
    VBA regional offices at 57 locations have designated staffs that 
serve as coordinators and points of contact for homeless veterans 
through outreach activities. In FY 2000, VBA staff assisted over 21,000 
homeless veterans and had contacts with over 6,500 community 
organizations.
    The Readjustment Counseling Service's Vet Centers have homeless 
coordinators who provide outreach, psychological counseling, supportive 
social services and referrals to other VA and community programs. Each 
year approximately 140,000 veterans make more than 800,000 visits to 
VA's 206 Vet Centers. During the winter months, approximately 10 
percent of Vet Center clients report being homeless.
    A substantial number of homeless veterans are served by VHA's 
general inpatient and outpatient mental health programs. For the past 
six years VA's at its Northeast Program Evaluation Center (NEPEC), has 
conducted an End-of-Year Survey of hospitalized homeless veterans in VA 
health care facilities. On September 30, 2000, 17,023 veterans were 
being treated in acute medical surgical and psychiatric beds, acute 
substance abuse beds, psychosocial residential rehabilitation and 
treatment program (PRRTP) beds and domiciliary beds. A total of 4,774 
veterans (28 percent) were homeless at admission. Nearly 20 percent 
were living on the streets or in shelters before admission and 8 
percent had no residence and were temporarily residing with family or 
friends.
    A total of 4,148 veterans were being treated in VA mental health 
beds. Approximately one-third of these veterans were homeless at 
admission and another 6 percent, while not homeless when admitted, were 
at high risk for homelessness if discharged on the day of the survey. 
The following is a break out of the type of mental health bed section 
veterans occupied:
    <bullet> 23.7 percent of 2,692 veterans in Acute Psychiatry beds 
were homeless at admission.
    <bullet> 41.2 percent of 226 veterans in Acute Substance Abuse beds 
were homeless at admission.
    <bullet> 47.3 percent of 1,230 veterans in PRRTP beds were homeless 
at admission.
    VA has also collected information on homeless veterans seen in 
outpatient mental health programs. In FY 2000, approximately 104,000 
veterans were identified as homeless on VA encounter forms. About 
50,000 homeless veterans were treated in VA's specialized programs for 
homeless veterans; the remainder were treated exclusively in general 
mental health outpatient programs.
          homeless veterans program monitoring and evaluation
    VA has the Nation's most extensive and long-standing program of 
monitoring and evaluating data concerning homeless individuals and the 
programs that serve them. In 1987, we initiated a three-fold evaluation 
strategy for what was then an unprecedented VA community collaborative 
program--the original HCMI veterans program.
    Under this evaluation plan: (1) all veterans evaluated by the 
program were systematically assessed to assure that program resources 
were directed to the intended target population (now almost 30,000 
under-served homeless veterans per year); (2) housing, employment, and 
clinical outcomes were documented for all veterans admitted to 
community-based residential treatment, the most expensive component of 
the program; and (3) a detailed outcome study documented housing and 
employment outcomes after program termination was initiated.
    The VA study showed 30 percent to 40 percent improvement in 
psychiatric and substance abuse outcomes, employment rates doubled, and 
64 percent exited from homelessness at the time of program completion. 
When these veterans were re-interviewed 7.2 months after program 
completion, they showed even GREATER improvement. A similar effort was 
mounted for the Domiciliary Care for Homeless Veterans program with 
similar long-term post-treatment results. These data have been 
published by NEPEC in leading medical journals.
    After establishing the effectiveness of these standard programs 
with extensive follow-up studies, VA developed several enhancements to 
the core program in several areas. These areas include compensated work 
therapy (CWT), outreach to assure access to Social Security 
Administration (SSA) benefits, and a collaborative program with HUD 
that joins VA case management with HUD section 8 housing vouchers. 
Outcome studies demonstrated the long-term effectiveness of the CWT/TR 
program at reducing substance abuse and increasing employment. The 
Joint VA-SSA outreach effort conducted in New York City, Brooklyn, 
Dallas, and Los Angeles almost doubled the percentage of SSI awards 
made to veterans from 7.19 percent to 12.4 percent of the veterans 
contacted during the outreach effort.
    An outcome study showed that, compared to a control group that did 
not receive benefits, SSA beneficiaries had improved housing and 
overall satisfaction with life as a result of their receipt of 
benefits. The outcome of the study also showed no increase in substance 
abuse, with the exception of tobacco use for SSA recipients. A follow-
up study of the HUD-VA supported housing program shows that the 
benefits of this program, especially housing stability were sustained 
three years after program entry. This is one of the longest follow-up 
studies conducted on any homeless population anywhere.
    All of our homeless initiatives and programs receive rigorous 
evaluation. VA uses a consistent set of clinical measures for the 
Homeless Providers Grant and Per Diem Program as with all other VA 
homeless veterans programs to assure that valid comparisons can be 
made. VA performance measures provide consistency in evaluating 
homeless programs.
    In FY 2000, VA expanded its evaluation of homeless veterans 
programs to more thoroughly determine the effectiveness of these 
programs. Sec. 904 of the Veterans Millennium Health Care and Benefits 
Act (P. L. 106-117) requires VA to conduct evaluations of its homeless 
veterans programs. This is to include measures to show whether veterans 
for whom housing or employment is secured through one or more of VA's 
programs continue to be housed or employed after six months. The 
General Accounting Office (GAO) made a similar recommendation in its 
April 1999 Report entitled, Homeless Veterans: VA Expands Partnerships, 
but Homeless Program Effectiveness is Unclear. GAO's single 
recommendation to VA was to conduct . . . ``a series of program 
evaluation studies to clarify the effectiveness of VA's core homeless 
programs and provide information about how to improve those programs.''
    Through these ongoing and new program evaluation efforts, we expect 
to increase our knowledge about the effectiveness of services that are 
provided to assist homeless veterans. Information will be used to 
modify and improve our programs for homeless veterans.
                               conclusion
    VA health care services and other benefits programs form the core 
elements for the wide range of medical, work therapy, rehabilitation, 
transitional housing and benefits programs that VA offers to homeless 
veterans. With assistance from community-based service providers and 
veterans service organizations, we are bringing thousands of veterans 
off the streets and into a continuum of care that offers them the 
health care and support services they need to resolve their health, 
housing and vocational problems.

    Dr. Garthwaite. VA strongly supports the objectives and 
supports many of the provisions of the Heather French Henry 
Homeless Veterans Assistance Act. The full text of my statement 
provides an analysis of each provision of the bill. Where we 
are unable to support some of the provisions, it is largely 
because we believe they duplicate activities and programs 
conducted by the Department. At this time, I will comment 
briefly on areas where we have particular concerns.
    Section 7 of the bill would require that VA designate 
specific veterans as ``complex'' for the purposes of VERA. This 
proposal could add more than 200,000 additional veterans into 
the complex reimbursement category based solely on diagnosis of 
the programs serving them and not on the complexity and cost of 
the care being provided. Placing veterans in the complex 
category should be based on the cost of their care, not on a 
designation of homelessness, a designation that is not readily 
verified.
    Section 9 would require that we carry out a new grant 
program for VA facilities and grantees that would target sub-
groups of homeless veterans. We believe this section is 
unnecessary, as VA has funded programs addressing these special 
populations already, and the current Homeless Provider Grants 
and Per Diem Program already gives weight to programs described 
in this section.
    Section 11 would require that we conduct two treatment 
trials in integrated mental health services delivery. We have 
recently decided to carry out the project contemplated by 
Section 11 using our Health Services Research and Development 
Service and our MIRECC's. We welcome the opportunity to work 
with committee staff to assure the study design will yield 
results that address your questions. We also believe this 
particular research study will require more than the amount of 
time permitted under Section 11.
    Section 12 would effectively extend eligibility for 
outpatient dental services to certain enrolled veterans who are 
receiving care in an array of VA settings. We recognize the 
importance of dental care to restoring self-esteem and the 
potential of making veterans more easily employable, but cannot 
support this provision because it would result in a disparity 
in access to dental care among equally deserving veterans.
    Section 13 would require VA to have mental health treatment 
capacity in every VA primary health care site. We strongly 
believe in equitable availability of mental health services, 
and such services are included in our basic benefits package. 
We are working currently to assure that all sites of care can 
either directly provide for care, contract for it, or refer 
patients to other VA facilities for mental health care. We 
would prefer not to have one method prescribed for all 
facilities across the Nation.
    Another provision in Section 13 would require that we 
expend not less than $55 million from medical care funds for 
our Grants and Per Diem Program. We cannot support this 
provision. Of the $32 million identified this year, 
approximately $10 million is available for our eighth round of 
grants, and we expect that these funds will allow us to develop 
an additional 1,000 community-based beds. However, since fewer 
than 50 applications received in any given year satisfy scoring 
criteria, we believe this provision would force us to fund 
providers who have a low likelihood of establishing viable 
programs. Steady and reasonable growth in the Homeless Provider 
Grant and Per Diem Program appears to be one of the keys to the 
success of this important program.
    Another provision of Section 13 would require us to ensure 
that opioid substitution therapy is available at each VA 
medical center. We do not support this provision, but we do 
believe that the size and location of medical programs should 
be determined by the veterans' needs and have already 
established 36 opioid substitution programs in VA medical 
centers across the country. We are in the process of assessing 
the need for additional such programs and will not hesitate to 
establish more programs where needed.
    Finally, Section 16 would establish a 3-year pilot program 
to provide transitional assistance grants to up to 600 homeless 
veterans at regional offices. This provision lacks safeguards 
or limitations on the receipt and use of the grant funds, 
despite the strong likelihood that many recipients would be 
suffering from mental illness or substance abuse disorders. 
Awarding funds to veterans without requiring them to 
participate in simultaneous clinical intervention or oversight 
would likely result in many of them not seeking the care and 
treatment necessary to overcome the disorders and become self-
sufficient.
    Mr. Chairman, certain provisions of this bill seek to 
address broader issues of the adequacy of VA's specialized 
mental health programs. In this regard, we have initiated the 
National Mental Health Improvement Program that will be 
dedicated to the development and implementation of performance 
and outcome measures to ensure that VA becomes a national 
leader in evidence-based care for the mentally ill. While we 
believe that VA mental health services remain strong and 
effective, no system is without its challenges. It is 
imperative that access to mental health services and best 
clinical practices be provided in a uniform manner across the 
VA health care system. To the extent that there are 
unacceptable levels of variance in these parameters, 
corrections must and will be made.
    Next year's performance contracts with our network 
directors will include volume and variance measures for mental 
health services and will emphasize the expansion of substance 
abuse programs. The National Mental Health Improvement Program 
will develop measures of adequacy of access in addition to 
measures of quality and effectiveness. If additional resources 
are required to provide needed care, a plan to provide these 
resources will be developed and implemented.
    Two months ago, I ask for an analysis of the current state-
of-the-art in measuring patient need in mental health and last 
month asked for the specific review of the role of case mix in 
mental health funding under VERA be undertaken. It is my 
commitment and we all agree that we must assure that there is 
an incentive rather than a disincentive to provide needed and 
effective care to this very vulnerable population.
    Mr. Chairman, this completes my remarks, and we will be 
pleased to respond to any questions you might have.
    [The prepared statement of Dr. Garthwaite follows:]
 Prepared Statement of Thomas L. Garthwaite, M.D., Under Secretary for 
                 Health, Department of Veterans Affairs
    Mr. Chairman and Members of the Committee:
    I am pleased to be here to present the Department's views on six 
different bills being considered by the Committee. They cover a wide 
range of subjects related to personnel matters and VA's provision of 
health care services to veterans. We support many provisions in the 
bills before the Committee, however there are some on which we 
recommend modifications, and others which we cannot support at this 
time.
                                 s. 739
    Mr. Chairman, I will begin by offering comments on S. 739, a bill 
entitled the Heather French Henry Homeless Veterans Assistance Act. The 
bill is an ambitious and comprehensive piece of legislation that seeks 
to improve the services and benefits furnished to homeless veterans. We 
strongly support the objectives of the bill and generally support many 
of its provisions. However, we are unable to support some of the 
provisions largely because they duplicate long-standing activities and 
programs conducted by the Department for homeless veterans or more 
recent initiatives begun in Fiscal Year 2000. Today I will briefly 
comment on each of the sections of the bill.
    Section 2 articulates Congress' findings regarding the magnitude 
and scope of homelessness among veterans, the inadequacy of current 
programs to provide them needed services, the levels of funding needed 
to provide beds to homeless veterans, and the commitment of the 
Congress to end homelessness among the Nation's veterans. Other 
findings articulate statistical information /obtained from VA's report 
on activities conducted under the Community Homelessness Assessment, 
Local Education and Networking Groups (CHALENG) program for veterans. 
Section 2 also defines various terms used in the bill.
    It is important to note that in light of more recent information 
from our CHALENG program the number of homeless veterans, as well as 
the number of additional beds needed for homeless veterans, are likely 
to be somewhat lower than the numbers cited in section 2.
    Section 3 would declare a national goal of ending homelessness 
among veterans within a decade and encourage all governmental 
components, quasi-governmental departments, agencies, and private and 
public sector entities to work cooperatively in reaching this goal. We 
strongly support section 3.
    Section 4 would establish a 15-member Advisory Committee on 
Homeless Veterans within the Department of Veterans Affairs, articulate 
the functions and responsibility of the committee, and establish the 
pay, allowances and terms for members. It would also establish various 
reporting requirements. We share the view that an advisory committee 
would be beneficial, but a statutorily-created Committee is not needed. 
The Secretary has already announced his intention to establish an 
Advisory Committee on Homeless Veterans with many of the same functions 
and objectives.
    Section 5 would amend the McKinney-Vento Homeless Assistance Act to 
require that the Interagency Council on Homeless (ICH) meet at the call 
of its Chairperson or a majority of its members and that the ICH meet 
at least annually. We support this provision.
    Section 6 is concerned with evaluation of our programs for homeless 
veterans and calls for reporting to Congress on those programs. It 
would require the Secretary to support the continuation of at least one 
Department center for evaluation to monitor the structure, process, and 
outcome of VA's programs for homeless veterans. It would further 
require the Secretary to annually provide Congress with a detailed 
report on the health care needs of homeless veterans including 
information on our Health Care for Homeless Veterans Program (HCHV) and 
Homeless Providers Grant and Per Diem Program. Section 6 would also 
require that we carry out our CHALENG assessment program on an annual 
basis and report to Congress on the findings and conclusions of the 
CHALENG report.
    We support the objective of the requirement for maintenance of an 
evaluation center, as called for in section 6, but we believe the 
objective can be achieved without legislation by expanding the mission 
of our Northeast Program Evaluation Center (NEPEC). We currently rely 
on NEPEC to monitor and evaluate the services provided to homeless 
veterans. Its current efforts are comprehensive with respect to the 
health care related services that are available and furnished to 
homeless veterans. However, we capture limited information on outreach 
activities and monetary benefits administered by the Veterans Benefits 
Administration (VBA) in connection with homeless veterans. Recognizing 
that our current efforts in this area are fragmented and incomplete, we 
plan to take steps to improve and strengthen the reporting of all 
programs and benefits to fully and effectively monitor and evaluate all 
of the Department's programs for homeless veterans.
    We do not support the requirements of section 6 that would 
statutorily require additional reporting and assessment activities. We 
are essentially already performing these assessment activities and 
reporting on them. Through the NEPEC, we provide ongoing monitoring and 
evaluation of our health care programs for homeless veterans. NEPEC 
provides detailed reports on structure, process, and outcomes for all 
specially funded homeless veterans programs as well as evaluation 
support for a wide range of other mental health programs that are not 
exclusively targeted to homeless veterans but are utilized by homeless 
veterans such as the Compensated Work Therapy (CWT) Program, and the 
Compensated Work Therapy/Transitional Residence (CWT/TR) Program. In 
addition, the CHALENG program achieves the objectives of the proposed 
requirements.
    Section 7 would require the Secretary to designate care and 
services provided to certain specified veterans as ``complex care'' for 
purposes of the Veterans Equitable Resource Allocation system (VERA). 
Veterans receiving the following types of care would be covered: (1) 
veterans enrolled in the Mental Health Intensive Community Case 
Management program; (2) continuous care in homeless chronically 
mentally ill veterans programs; (3) continuous care within specialized 
programs provided to veterans who have been diagnosed with both serious 
chronic mental illness and substance abuse disorders; (4) continuous 
therapy combined with sheltered housing provided to veterans in 
specialized treatment for substance use disorders; and (5) specialized 
therapies provided to veterans with post-traumatic stress disorders 
(PTSD), including specialized outpatient PTSD programs; PTSD clinical 
teams; women veterans stress disorder treatment teams; and substance 
abuse disorder PTSD teams. Finally, section 7 would require that we 
ensure that funds for any new program for homeless veterans carried out 
through a Department health care facility are designated as special 
purpose program funds (not VERA funds) for the first three years of the 
program's operation.
    We do not support section 7 of the bill. The complex reimbursement 
rate under the VERA system is currently reserved for reimbursing VISNs 
for providing the most complex and expensive care, and should not be 
based on diagnosis or type of disorder being treated. Section 7 directs 
complex reimbursement based on broad and general diagnosis and does not 
consider whether the care is costly. For example, VA now treats some 
2,800 veterans in its Mental Health Intensive Community Case management 
(MHICM) Program. If a veteran in that program receives at least 41 
visits per year, the VERA model will reimburse at the complex rate 
because that veteran is receiving costly care. Many others in the 
program have far fewer visits and are far less costly to treat. Section 
7 of this bill would require complex reimbursement for all of 2,800 
veterans in the program regardless of how many visits they have.
    The proposal could add more than 200,000 additional veterans into 
the category of patients for whom Veterans Integrated Service Networks 
(VISNs) receive complex reimbursement. This would require VHA to either 
set aside a greater percentage of the medical care appropriation for 
the care of veterans identified in this section, or significantly 
reduce the complex reimbursement rate per veteran treated. Neither 
option is acceptable. The first reduces funding for the standard care 
of veterans, and the second dilutes the reimbursement for complex care 
so that there is little incentive to provide services to these 
veterans. In addition, this approach provides a perverse incentive for 
clinicians to provide more treatment than is needed in order to qualify 
for the complex reimbursement rate. The effect of this provision would 
be to reduce the availability to veterans, including many who are 
homeless, of care not identified in the complex reimbursement category.
    Section 8 would require that per diem payments paid to grantees of 
our Homeless Providers Grant and Per Diem Program be calculated at the 
same rate that currently applies to VA per diem payments to State homes 
providing domiciliary care to veterans. Under current law, the homeless 
provider per diem rates are based on each grant recipient's costs. In 
short, we pay per diem that amounts to not more than 50% of the 
recipient's total costs up to a cap. To calculate the per diem rate for 
each grantee, we must document each recipient's costs. This is an 
extremely labor intensive and complex process.
    We support simplification of program management in the manner 
proposed. However, since domiciliary care and care under the Homeless 
Providers Grant and Per Diem Program vary in types of services and 
intensity, we support a per diem rate of 85 percent of the domiciliary 
care per diem rate. That would equate more closely with the actual cost 
of services provided under the Homeless Providers Grant and Per Diem 
Program.
    Section 9 would require that we carry out a new grant program for 
VA health care facilities and grantees of VA's Homeless Grant and Per 
Diem Payment Program. The new program would encourage the development 
of programs targeted at meeting special needs of homeless veterans, 
including those who are women, who are age 50 or older, who are 
substance abusers, who suffer from PTSD, a terminal illness, or a 
chronic mental illness; or who have care of minor dependents or other 
family members. The measure would also require a report that includes a 
detailed comparison of the results of the new grant program with those 
obtained for similar veterans in VA programs or in programs operated by 
grantees of VA's Homeless Providers Grant and Per Diem Program.
    We appreciate the intent of this provision, but we do not support 
the section because it appears to be unnecessary. We currently operate 
and/or support successful programs that are specifically targeted at 
meeting the special needs of these particularly vulnerable groups of 
homeless veterans. We undertook several special program initiatives in 
2000 that were specifically targeted at the special needs of homeless 
veterans, including women veterans. A study of the effectiveness of the 
initiative related to homeless programs for women veterans is underway. 
Finally, we have been successful in establishing and cultivating 
relations with non-profits in the community to ensure a continuum of 
services for homeless veterans. We are concerned that this proposal may 
have a disruptive effect on those relationships by requiring our 
community partners to compete with VA facilities for these limited 
grant funds.
    Section 10 would require that appropriate officials of our Mental 
Health Service and Readjustment Counseling Service initiate a 
coordinated plan for joint outreach on behalf of veterans at risk of 
homelessness, expressly including those who are being discharged from 
institutions such as inpatient psychiatric care units, substance abuse 
treatment programs, and penal institutions. The section sets out a 
detailed list of items and factors to be included or provided for in 
the plan.
    We support this provision in concept but suggest that it may be 
duplicative of our current outreach authority and statutory requirement 
to coordinate with other governmental and non-governmental agencies and 
organizations. However, we recognize the need for continuing to expand 
and improve our coordination efforts on behalf of homeless veterans and 
those at risk for homelessness and the concomitant need to report 
adequately on these efforts. We will work towards these ends.
    As to the issue of coordination between VHA and Vet Centers, our 
Health Care for Homeless Veterans (HCHV) Programs staff, who primarily 
serve under mental health service lines at VA medical centers, 
currently collaborate with Vet Centers staff regarding the needs of 
homeless veterans. (Vet Centers estimate that approximately 10% of 
veterans served in Vet Centers are homeless.) Referrals are regularly 
made between VA's specialized homeless programs and Vet Centers for 
appropriate services for veterans who are homeless or at risk for 
homelessness. In addition, Vet Centers staff are invited to attend and 
participate in CHALENG meetings. Further, HCHV staff and Vet Centers 
staff already collaborate with non-VA community-based service providers 
and with other government sponsored programs.
    Section 11 would require that we conduct two treatment trials in 
integrated mental health services delivery. The bill defines 
``integrated mental health services delivery'' as ``a coordinated and 
standardized approach to evaluation for enrollment, treatment, and 
follow-up with patients who have both mental health disorders (to 
include substance use disorders) and medical conditions between mental 
health and primary health care professionals.'' One of the treatment 
trials would have to use a model incorporating mental health primary 
care teams and the other would have to use a model using patient 
assignment to a mental health primary care team that is linked with the 
patient's medical primary care team. We would also have to compare 
treatment outcomes obtained from the two treatment trials with those 
for similar chronically mentally ill veterans who receive treatment 
through traditionally consultative relationships. The VA Inspector 
General would have to review the medical records of participants and 
controls for both trials to ensure that the results are accurate.
    We share an interest in this area of clinical research and have 
decided to carry out the project contemplated by section 11 using 
mechanisms and special programs already in place, i.e. VA's Health 
Services Research and Development Service and the Department's MIRECCs 
program. In pursuing this endeavor, we welcome the opportunity to work 
with Committee staff to ensure the language of the request for research 
proposals satisfies the objectives of section 11. However, this 
particular research study (including the final analysis and report to 
Congress) would likely require more than the amount of time permitted 
under section 11. Additionally, VA program officials and evaluators 
will be expected to manage and report on the results of a project of 
this size without immediate and direct oversight from the Office of the 
Inspector General (OIG). If there is a need for human subject 
protection review, the Office of Research and Compliance Assurance 
(ORCA) should conduct it and OIG involvement should consist only of 
their current oversight of the activities of ORCA.
    Section 12 would effectively extend eligibility for outpatient 
dental services, treatment, and appliances to certain veterans when 
such services, treatment, and appliances are needed to successfully 
gain or regain employment, to alleviate pain, or to treat moderate, 
severe, or severe and complicated gingival and periodontal pathology. 
The new authority would extend benefits to enrolled veterans who are 
receiving care in an array of VA settings, and community programs 
supported by VA.
    Although we recognize that these veterans need dental care and 
services, we do not support this provision because it would result in a 
disparity in access to needed outpatient dental care and services among 
equally deserving veterans. As an alternative, we will heighten and 
expand our current efforts to obtain dental care and services for 
homeless veterans through pro bono providers, dental schools and 
related teaching programs, and service providers receiving grants under 
VA's Homeless Providers Grant and Per Diem Program.
    Section 13 contains several varied provisions. The first would 
require the Secretary to develop standards to ensure that mental health 
services are available to veterans in a manner similar to that in which 
primary care is made available to veterans by requiring every VA 
primary care health care facility to have mental health treatment 
capacity. We certainly believe in equitable availability of mental 
health services and we have included such services in our basic 
benefits package. We are also already working to assure that all sites 
of care can either directly provide, contract for, or refer patients to 
other VA facilities for mental health care.
    Another provision in section 13 would require that we expend not 
less than $55 million from Medical Care funds for our Homeless 
Providers Grant and Per Diem Program. The amounts to be expended would 
also have to be increased for any fiscal year by the overall percentage 
increase in the Medical Care account for that fiscal year from the 
preceding fiscal year. We don't concur with this provision. We have 
offered grant funds each year for the past seven years. Grant fund 
availability has ranged from a low of $3.3 million in FY 1996 to a high 
of $15.3 million in FY 1998. Of the $32.4 million identified for the 
Grant and Per Diem Program in FY 2001, approximately $22 million is 
expected to be spent on per diem payments, leaving $10 million 
available for the eighth round of grants. We believe that making $10 
million available for grants is a reasonable funding level for any 
given year. Grant awards of $10 million assist with the development of 
approximately 1,000 community-based beds. It often takes grant 
recipients two years or longer to complete construction or renovation 
and to bring the program to full operation. During the development 
phase, VA staff at the national, VISN and VAMC level are available to 
assist grant recipients with any problems they might encounter. We 
believe this personal attention and assistance are partially 
responsible for the relatively high success rate of grant program 
implementation. Steady and reasonable growth in the Homeless Providers 
Grant and Per Diem Program appears to be one of the keys to the success 
of this program. It is likely that the Grant and Per Diem Program will 
reach a spending level of $55 million in the next five years.
    Moreover, a requirement to spend not less than $55 million next 
year and in future years may actually be counter-productive to 
achieving the goals of this program because it would require VA to fund 
programs that would otherwise not merit grant assistance based on 
competitive scoring criteria. Past experience has shown VA that not all 
grant applicants are able to propose viable projects. Indeed, less than 
50 applications received in any given year satisfy scoring criteria. 
This is not indicative of a program weakness; rather, it reflects the 
requirement that we award grants under the program only to those 
providers that demonstrate their viability and ability to succeed in 
meeting their grant applications' stated purpose(s).
    A third part of section 13 would require that we establish centers 
to provide comprehensive services to homeless veterans in at least each 
of the 20 largest metropolitan statistical areas. Currently, we must 
have eight such centers.
    We support this provision, but defining what services would 
constitute a comprehensive homeless services program for each of the 20 
largest metropolitan statistical areas is a particularly complex task, 
which depends on the specific demographics of, and the services 
available in, each particular area. We would like to work with the 
Congress in defining what specific programs and services are envisioned 
by this provision.
    A fourth aspect of Section 13 would require us to ensure that 
opioid substitution therapy is available at each VA medical center. We 
don't support this provision on the basis that a determination to 
provide opioid substitution therapy is medical in nature (not 
legislative) and, as such, is dependent on the individual clinical 
facts of each case. The size and location of medical programs should be 
determined by veterans' medical needs. However, we recognize the 
clinical value of this particular treatment. Indeed, we have 
established 36 opioid substitution programs in VA medical centers 
across the country and we are evaluating our substance abuse treatment 
needs to determine whether additional programs may be needed. If deemed 
to be medically necessary and appropriate, we will not hesitate to 
establish more programs where needed.
    Finally, the last part of section 13 would extend, through December 
31, 2006, both our authority to treat veterans who are suffering from 
serious mental illness, including veterans who are homeless and VA's 
authority to provide benefits and services to homeless veterans through 
VA's Comprehensive Homeless Centers. The authority for each of those 
programs will expire on December 31, 2001 and we support both 
extensions.
    Section 14 would permit homeless veterans receiving care through 
vocational rehabilitation programs to participate in the Compensated 
Work Therapy program. It would also allow homeless veterans in VHA's 
Compensated Work Therapy program to receive housing through the 
therapeutic residence program or through grantees of VA's Homeless 
Providers Grant and Per Diem Program. We support both of those 
provisions.
    Section 14 would also require that we ensure that each Regional 
Office assign at least one employee to oversee and coordinate homeless 
veterans programs in that region, and that any regional office with at 
least 140 employees have at least one full-time employee assigned to 
the above-stated functions.
    We support the need for continued effective outreach to homeless 
veterans, but we have concerns about the proposed staffing 
requirements. Homeless Veterans Outreach Coordinators are already 
assigned at each VBA regional office. In most instances, this 
assignment is a collateral duty and not a full-time assignment. There 
are, however, some regional offices at which a full-time coordinator is 
assigned as necessitated by the size of the homeless veteran population 
and homeless support programs within its jurisdictional area. In 
addition, we have eight full-time homeless outreach coordinators 
assigned as members of our Health Care for Homeless Veterans Program 
and DCHV programs. We also have two offices that have a part-time 
employee on the homeless program. These positions are reimbursed by 
VHA. The staffing requirement in this measure would therefore be an 
unfunded mandate for which employees would have to be re-assigned from 
other key duties such as claims processing, rating functions, etc. In 
addition, we believe the veteran population and its particular needs, 
not the organizational structure of an office, should determine the 
number and type of outreach coordinators assigned.
    Finally, the last part of section 14 would require disabled 
veterans' outreach program specialists and local veterans' employment 
representatives where available to also coordinate training assistance 
benefits provided to veterans by entities receiving financial 
assistance under section 738 of the McKinney-Vento Homeless Assistance 
Act. We support this provision.
    Section 15 would require that, with a limited exception, real 
property of grantees under our Homeless Providers Grant and Per Diem 
Program meet fire and safety requirements applicable under the Life 
Safety Code of the NFPA.
    We strongly support this requirement. The fire and safety 
requirements under the Life Safety Code of the National Fire Protection 
Association (NFPA) have been developed through consensus of experts 
across the country. They assure a consistent level of safety for 
homeless veterans living in transitional housing or receiving services 
in supportive service centers developed under the Grant and Per Diem 
Program. Entities that have received grants in recent years have been 
aware of VA's preference for structures to meet the fire and safety 
requirements under the Life Safety Code of NFPA and have developed 
their grant applications to cover the costs associated with meeting 
those requirements. There are, however, some organizations that 
received grant awards and their buildings do not meet the fire and 
safety requirements under the Life Safety Code of NFPA. It is therefore 
particularly valuable that this measure would permit VA to award grant 
assistance to these entities to enable them to upgrade their facilities 
to meet the Life Safety Code of NFPA.
    Section 16 would establish a three-year pilot program to provide 
transitional assistance grants to up to 600 eligible homeless veterans 
at not less than three but not more than six regional offices. The 
sites for the pilot must include at least one regional office located 
in a large urban area and at least one serving primarily rural 
veterans. To be eligible, a veteran would have to live in the area of 
the regional office, be a war veteran or meet minimum service 
requirements, be recently released, or in the process of being released 
from an institution, be homeless and have less then marginal income.
    Grants under the program would be limited to three months with an 
exception for any veteran who, while receiving such transitional 
assistance, has a claim pending for service-connected disability 
compensation or non-service-connected pension. Such veterans could 
continue to receive transitional assistance under this section until 
the earlier of (A) the date on which a decision on the claim is made by 
the regional office, or (B) the end of the six-month period beginning 
on the date of expiration of eligibility under subsection (c). The 
measure would also require the Department to expedite its consideration 
of pending claims of veterans. VA would have to pay the grants monthly 
and in the same amount as that which VA would be obligated to pay under 
chapter 15 of title 38, United States Code, if the veteran had a 
permanent and total non-service-connected disability. VA would have to 
determine the amount of the grant without regard to the income of the 
veteran, once it is determined the veteran meets the eligibility 
criteria. Finally it would require the Department to offset the amount 
of retroactive disability or pension benefits paid to a veteran by the 
amount of transitional assistance provided to the veteran for the same 
monthly period.
    We cannot support section 16, as it appears to be at odds with the 
inherent interest of our attempts at rehabilitation. The provision 
lacks safeguards or limitations on the receipt and use of the grant 
funds, notwithstanding the strong likelihood that many of the grant 
recipients would be veterans suffering from mental illnesses and/or 
substance abuse disorders. Awarding funds to these veterans without 
also requiring them to participate in simultaneous clinical 
intervention or oversight would result in many of them not seeking the 
care and treatment necessary to overcome their disorders. This, in 
turn, could keep those veterans in a condition of homelessness. Simply 
awarding grant funds, as proposed, is not, in our view, an appropriate 
means for making these vulnerable veterans self-sufficient.
    Section 17 would require that we conduct a technical assistance 
grants program to assist non-profit groups, which are experienced in 
providing services to homeless veterans, to apply for grants related to 
addressing problems of homeless veterans. The measure would authorize 
$750,000 to be appropriated for each of fiscal years 2001 through 2005 
to carry out the program. We do not support this section as we already 
provide extensive information about the Homeless Providers Grant and 
Per Diem Program through the Internet, participation in national, state 
and some local conferences and one-on-one discussions between 
interested applicants and VA program managers.
    Section 18 would authorize the Secretary to waive any requirement 
that a veteran purchasing a manufactured home with the assistance of a 
VA guaranteed loan own or purchase a lot to which the manufactured home 
is permanently affixed.
    We do not favor this provision. Rather than address the specifics 
of this section of the bill, we have concluded the manufactured home 
loan program no longer provides a viable benefit to veterans, homeless 
or otherwise. Accordingly, VA recommends that the manufactured home 
loan program, which for all intents and purposes is dormant, be 
terminated.
    The number of veterans obtaining manufactured housing loans has 
significantly declined over the years since Fiscal Year 1983 when VA 
guaranteed 15,725 such loans. No manufactured housing loans have been 
guaranteed since Fiscal Year 1996.
    The cumulative foreclosure rate on VA manufactured home loans is 
39.2 percent, which is significantly higher than the 5.6 percent rate 
for loans for conventionally-built homes. This foreclosure rate has 
greatly increased the cost to the taxpayers of the VA housing loan 
program and resulted in substantial debts being established against 
veterans.
    Therefore, VA does not believe the manufactured home loan program 
has any role in the effort to assist homeless veterans.
    Section 19 would increase from $20 million to $50 million the 
amount authorized to be appropriated for the Homeless Veterans' 
Reintegration Programs for Fiscal Year 2002 and Fiscal Year 2003. It 
would also authorize that same amount to be appropriated for purposes 
of this program for Fiscal Years 2004, 2005, and 2006. VA defers to the 
Secretary of Labor, who administers the Homeless Veterans' 
Reintegration Programs.
    Section 20 would require the Secretary, before disposing of real 
property as excess, to determine that the property is not suitable for 
use for the provision of services to homeless veterans by the 
Department or by another entity under an enhanced-use lease. Although 
we agree with the purpose of section 20, this provision appears to be 
redundant with existing authorities. Under the Department's enhanced-
use leasing authority, we now have the ability to lease available lands 
and facilities for compatible uses including those that provide 
services to homeless veterans. We have, in fact, recently used this 
authority to obtain a 120-unit ``Single Room Occupancy'' (SRO) housing 
complex in Vancouver, Washington, and a 63-unit SRO in Roseburg, 
Oregon. We are examining similar initiatives nationwide. In addition, 
pursuant to the Stewart B. McKinney Act, the Department surveys its 
property holdings and provides quarterly reports to the Department of 
Housing and Urban Development on the availability of excess or 
underutilized properties for housing for the homeless. In general 
terms, the provisions of the McKinney Act related to surplus federal 
property require each Department, in deeming property under its 
jurisdiction to be unutilized, under-utilized, or excess, to state that 
the property cannot be made available for use to assist the homeless. 
Before ultimately disposing of such property, the McKinney Act requires 
the Government to again give priority of consideration to uses to 
assist the homeless. Given that VA has active programs in place that 
strive to achieve the objective reflected in section 20, establishing a 
duplicate requirement would only lend confusion to the process.
                                s. 1188
    Mr. Chairman I will next present our views on S. 1188, a bill 
designed to improve the recruitment and retention of VA nurses. Our 
nurses are critical front-line components of the VA health care team. 
Our health care providers are our most important resource in delivering 
high-quality, compassionate care to our Nation's veterans. We must 
maintain the ability to recruit and retain well-qualified nurses in 
order to continue that care. Compensation, employment benefits and 
workplace factors affect that ability, particularly in highly 
competitive labor markets and for hard-to-fill specialty assignments. 
Thanks to the efforts of this Committee and the House Veterans' Affairs 
Committee, we have been able to offer generally competitive pay in most 
markets. We continuously monitor the recruitment and retention of 
health care providers, particularly nurses, and trends in private 
sector employment and workforce projections. As we noted in testimony 
before this committee last month, VA nurse staffing is generally stable 
overall, but there are increasing difficulties in filling positions in 
some locations, and filling some specialty assignments is extremely 
difficult. However, I am not prepared to give the Administration's 
views on this bill without further study. We will provide our views on 
this measure as soon as possible.
                                s. 1160
    Mr. Chairman, I now turn to S. 1160, a bill that would authorize us 
to furnish a ``service dog'' to any veteran with a compensable service-
connected disability who is hearing impaired or who has a spinal cord 
injury or dysfunction. Service dogs can assist a disabled person in his 
or her daily life and can assist that person during medical 
emergencies. They can be trained in many tasks, including, but not 
limited to, pulling a wheelchair, carrying a back-pack, opening and 
closing doors, helping with dressing and undressing, picking up things 
one drops, picking up the phone, and hitting a distress button on the 
phone. Such dogs can also notice when the disabled individual is in 
distress and can find help. Dogs can also assist the hearing impaired 
by alerting them to doorbells, ringing phones, smoke detectors, crying 
babies, and emergency sirens on vehicles.
    We support this bill, and any new costs will be handled under 
existing resources within the FY 2002 President's Budget. Having said 
that, however if it were to become law, we would promulgate 
prescription criteria and guidelines for provision of such dogs to 
insure that we provide animals only to those veterans who can most 
benefit from them.
                    draft bill--means test threshold
    Mr. Chairman, also on the agenda is a draft bill that would 
establish new geographically based income thresholds for VA to use in 
determining a nonservice-connected veteran's priority for receiving VA 
care and whether the veteran must agree to pay copayments in order to 
receive that care. As you know, Mr. Chairman, the law now requires that 
most veterans enroll in our health care system in order to receive 
care. Enrollees are placed in an enrollment priority group that is 
based, in many instances, on their level of income and net worth. 
Although we currently provide care to veterans in all enrollment 
priority groups, if there were funding shortages in the future, it 
might be necessary to determine that those with relatively higher 
incomes must be disenrolled, meaning they could no longer receive VA 
care. Current law establishes, on a National basis, the specific income 
thresholds that we must use to determine the priority group of any 
given enrollee with no service-connected disability or other special 
status. We place higher income veterans in priority group 7 and lower 
income veterans in priority group 5. This draft bill would establish 
new geographically based income thresholds that VA could use for 
placing veterans in those priority groups.
    The draft bill would use a specific statutorily based poverty index 
used by the Department of Housing and Urban Development that is 
established for Metropolitan Statistical Areas (MSA's), Primary 
Metropolitan Statistical Areas (PMSA's) and counties. The index defines 
a family as low income if family income does not exceed 80% of the 
median family income for the area in which the family resides. If we 
determined that a veteran's income was below the threshold for the 
specific area where the veteran lived, and his net worth was below our 
threshold, we would place that veteran in enrollment priority category 
5. In many instances, particularly in urban areas, this new income 
threshold is greater then the current statutory income threshold that 
we use for determining whether a veteran should be placed in priority 
group 5. The draft bill would provide that if the new geographically 
based income threshold is lower then the current threshold, VA would 
use the old threshold as that would benefit the veteran. We in VA are 
very interested in examining the use of geographically based income 
thresholds for placing nonservice-connected veterans in different 
enrollment priority groups. We recognize that the cost of living in 
large urban areas is much greater then in many more rural parts of the 
country. What might be considered a reasonably high income in some 
locations may be totally inadequate in other higher cost locations. 
However, at this time we cannot support the methodology proposed in the 
draft bill. There are many poverty indexes that are established in 
various ways. However, there are serious issues about what these 
indexes really measure. We believe further study is needed to determine 
the most appropriate method for tackling this problem.
                                s. 1042
    Mr. Chairman, I next turn to S. 1042, a bill introduced by Senator 
Inouye aimed at improving benefits for Filipino veteran of World War 
II. Entitled the ``Filipino Veterans' Benefits Improvements Act of 
2001'' the bill contains provisions affecting both monetary and health 
care benefits.
    While many U.S. and foreign groups have sought wartime benefits 
over the years, Filipino veterans are a unique group. During World War 
II (WWII), the Philippine Islands was a U.S. territory, and its troops 
fought under the U.S. command. There has been no other similar 
arrangement in recent American history.
    The special circumstances of Filipino veterans have been recognized 
in law. Soon after World War II, legislation was enacted making 
disabled Filipino veterans and their survivors eligible for 
compensation--at half the rate paid to U.S. veterans and survivors. 
More recently, the Veterans Benefits and Health Care Improvement Act of 
2000 (P.L. 106-419) and the Veterans Affairs, Housing and Urban 
Development and Other Independent Agency Appropriations Act for FY 2001 
(P.L. 106-377) increased the rate of compensation for certain Filipino 
veterans, and expanded access to health care and burial services.
    Any expansion of benefits to Filipino veterans brings with it 
scrutiny and invites comparison from other Pacific Island groups and 
many U.S. groups who have regularly petitioned the government for 
veterans benefits because as civilians they were working next to and 
exposed to the same hazards as military members. Given the far-reaching 
implications of expanding benefits to Filipino veterans, I am not 
prepared to give the Administration's views on the bill without further 
study. We will provide our views on this measure as soon as possible.
    [The information referred to follows:]

Hon. John D. Rockefeller,
Chairman, Committee on Veterans' Affairs,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman:
    As requested in connection with a hearing before your Committee on 
July 19, 2001, I am pleased to provide the views of the Department of 
Veterans Affairs (VA) on S. 1042, 107th Congress, the ``Filipino 
Veterans' Benefits Improvements Act of 2001,'' a bill, ``[t]o amend 
title 38, United States Code, to improve benefits for Filipino veterans 
of World War II.'' We support this bill, in part, and oppose this bill, 
in part, for the reasons discussed below.
Compensation and Dependency and Indemnity Compensation
    Sections 2(b) and 3(a) of S. 1042 would, in the case of 
compensation and dependency and indemnity compensation (DIC) paid by 
reason of service in the New Philippine Scouts, and in the case of DIC 
paid by reason of service in the organized military forces of the 
Government of the Commonwealth of the Philippines, including organized 
guerilla forces, remove the $0.50 on-the-dollar limitation if the 
individual to whom the benefits are payable resides in the United 
States and is either a citizen of the United States or an alien 
lawfully admitted for permanent residence in the United States.
    Section 107(a) of title 38, United States Code, generally provides 
that service before July 1, 1946, in the organized military forces of 
the Government of the Commonwealth of the Philippines, including 
organized guerilla forces, may in some circumstances be a basis for 
entitlement to disability compensation, DIC, monetary burial benefits, 
and certain other benefits under title 38, United States Code, but that 
payment of such benefits will be at the rate of $0.50 for each dollar 
authorized. Similarly, section 107(b) of title 38, United States Code, 
generally provides that service in the Philippine Scouts under section 
14 of the Armed Forces Voluntary Recruitment Act of 1945, i.e., service 
in the New Philippine Scouts, may be a basis for entitlement to 
disability compensation, DIC, and certain other benefits under title 
38, United States Code, but that payment of such benefits will be at 
the rate of $0.50 for each dollar authorized.
    These limitations on benefit payments to certain Filipino 
beneficiaries were intended to reflect the differing economic 
conditions in the Philippines and the United States. These limitations 
were not made contingent, in any respect, on the place of residence of 
the beneficiary, although, at the time the limitations were 
established, the great majority of affected individuals resided in the 
Philippines. Through the years, numerous Filipino veterans and their 
dependents and survivors have immigrated to this country, and many have 
become permanent residents or citizens. It became evident that the 
policy considerations underlying the restrictions on payment of 
compensation and DIC to the affected individuals are no longer relevant 
in the case of those who reside in the United States. VA realized that 
Filipino beneficiaries residing in the United States face living 
expenses comparable to United States veterans and imposition of 
limitations on the payment of these subsistence benefits to these 
individuals based on policy considerations applicable to Philippine 
residents was not only inequitable, but may result in undue hardships 
to this group of beneficiaries.
    In 1998 and 1999, VA proposed elimination of the $0.50 on-the-
dollar limitation in section 107 in the case of affected Filipino 
compensation and DIC beneficiaries who reside in the United States. 
Section 501(a) of Public Law 106-377, enacted in October 2000, added 
subsection (c) to section 107, providing that, in the case of 
disability compensation paid by reason of service in the organized 
military forces of the Government of the Commonwealth of the 
Philippines, including organized guerilla forces, the $0.50 on-the-
dollar limitation would not apply if the individual to whom the 
benefits are payable resides in the United States and is either a 
citizen of the United States or an alien lawfully admitted for 
permanent residence. However, that statute left unchanged the $0.50 on-
the-dollar limitation on the payment of DIC regardless of the 
recipient's place of residence.
    VA continues to believe that in the case of those Filipino veterans 
and their dependents and survivors who reside in the United States and 
therefore face living expenses comparable to United States veterans and 
their dependents and survivors, imposition of limitations on the 
payment of subsistence benefits based on policy considerations 
applicable to Philippine residents is inequitable and may result in 
undue hardships to this group of beneficiaries. Thus, we believe a 
change in law such as that provided in Public Law 106-377 is justified 
in the case of compensation and DIC benefits payable to United States 
residents based on service in the New Philippine Scouts and DIC 
benefits payable to United States residents based on service in the 
Philippine Commonwealth Army, including organized guerilla forces. 
Thus, we support sections 2 and 3 of the draft bill.
    We note that technical changes contemplated by section 2(a) of the 
draft bill have already been accomplished by Public Law 107-14, 
Sec. 8(a), enacted June 5, 2001.
    Sections 2 and 3 of H.R. 1042 are subject to PAYGO requirements of 
the Omnibus Budget Reconciliation Act of 1990 (OBRA). VA projects that 
120 former members of the New Philippine Scouts residing in the United 
States who have established service connection and currently receive 
compensation benefits at half-rates would become eligible for increased 
compensation benefits, under section 2 of the bill. VA estimates that 
section 2, if enacted, would increase direct spending by $568,000 in 
the first year of the program, and $2.5 million cumulatively for five 
years. VA also estimates that approximately 438 survivors of Filipino 
veterans reside in the United States and would become eligible for DIC 
benefits at full-dollar rates in FY 2002 pursuant to section 3. VA 
estimates that section 3, if enacted, would increase direct spending by 
$2.5 million in FY 2002, and $14.8 million in FYs 2002 through 2006.
Pension
    Section 4 of S. 1042 would render service in both the organized 
military forces of the Government of the Commonwealth of the 
Philippines, including organized guerilla forces, and the New 
Philippine Scouts a basis for entitlement to pension under chapter 15 
of title 38, United States Code. This section would allow for the 
payment of such benefits under chapter 15 to be made at the full-dollar 
rate authorized if the individual to whom the benefits are payable 
resides in the United States and is either a citizen of the United 
States or an alien lawfully admitted for permanent residence in the 
United States. This section would further provide for such benefits to 
be paid at the rate of $100 per month if the individual to whom the 
benefits are payable resides in the Republic of the Philippines.
    The limitations on eligibility for United States veterans' benefits 
based on service in the Philippine military forces were established 
many years ago in a carefully considered determination of the United 
States and Philippine governments' respective responsibilities with 
regard to veterans of these forces. The current limitations on United 
States veterans' benefits for veterans of the Philippine forces stemmed 
from a comprehensive economic and political plan for allocating 
financial assistance to the Philippines. We understand that the array 
of benefits offered under current Philippine law for veterans of the 
Philippine armed forces is nearly as comprehensive as that authorized 
by United States law for veterans of service in our own Armed Forces. 
In our view, current law appropriately recognizes our two nations' 
shared responsibility for the well being of members of the Philippine 
forces, and the longstanding allocation of those responsibilities 
should not be disturbed. Thus, VA opposes section 4.
    We also note, with regard to section 4(b) of S. 1042, that VA's 
pension program is a needs-based program under which the amount of 
benefits awarded is based on the income of the recipient. The award of 
a flat pension rate to individuals who reside in the Republic of the 
Philippines would differ markedly from any award to which an individual 
who resides in the United States would be entitled. Under the proposed 
provision, an individual who resides in the Philippines could receive 
benefits, while an otherwise eligible resident of the United States 
subject to income limitations would receive none, even though the 
Philippine resident's income is equal to or greater than that of the 
United States resident. We can perceive of no basis for this 
inequitable treatment.
    Section 4 of S. 1042 is subject to PAYGO requirements of the OBRA. 
VA estimates that there are approximately 11,000 Filipino veterans 
residing in the United States, and approximately 34,000 Filipino 
veterans residing in the Philippines, who would become eligible for 
pension awards under section 4. VA estimates that section 4, if 
enacted, would increase direct spending by $59.5 million in the first 
year of the program, and $251 million over five years, for Filipino 
veterans residing in the United States, and $40.7 million in the first 
year of the program, and $161.4 million over five years, in additional 
benefit costs for Filipino veterans residing in the Philippines.
Administrative Costs of Proposed Benefits Programs for Filipino 
        Veterans
    VA has determined that implementing the benefits programs for 
Filipino veterans proposed under section 2, 3 and 4 of H.R. 1042 would 
generate approximately 44,923 new claims, and would require 91 
additional FTE. Administrative costs associated with these FTE would 
total $5.3 million.
Health Care in the United States
    Section 5 of S. 1042 would broaden eligibility for VA health care 
within the United States for Filipino veterans who served in the 
Commonwealth Army, including organized guerilla forces, and the New 
Philippine Scouts. Under current law, only Commonwealth Army veterans 
with compensable service-connected disabilities, who lawfully reside in 
the United States, can receive such comprehensive care. New Philippine 
Scouts can receive care only on a discretionary basis and only for a 
service-connected disability. Section 5 of the bill would make 
Commonwealth Army veterans, including organized guerilla forces, and 
New Philippine Scouts eligible for hospital, nursing home and 
outpatient care, in VA facilities within the United States, in the same 
manner as United States veterans. Section 5 would, for the first time, 
allow VA to provide comprehensive care to veterans of the Commonwealth 
Army, including organized guerilla forces, and New Philippine Scouts 
who have no service-connected disability. We note, however, that 
section 5, as drafted, would extend VA health benefits to Filipino 
veterans in the United States regardless of immigration status. We urge 
that section 5 be amended to limit eligibility to Filipino veterans who 
are residing in the United States and are either citizens of, or aliens 
lawfully admitted for permanent residence in, the United States.
    VA estimates that there are approximately 11,000 nonservice-
connected Filipino veterans residing in the United States and that 
extending eligibility as section 5 would do would result in 
approximately 2,300 new users of the health care system. VA estimates 
the cost of this use would be approximately $11.6 million in the first 
year and $52.6 million over five years. The Administration supports 
enactment if Congress provides funding necessary for implementation and 
total discretionary spending does not exceed the overall levels in the 
President's FY 2003 budget.
Outpatient Health Care in the Philippines
    Section 6 of the bill would require that VA provide comprehensive 
outpatient care at the Manila VA Outpatient Clinic to United States 
veterans of World War II, Commonwealth Army veterans, including 
organized guerilla forces, and New Philippine Scouts who reside in the 
Republic of the Philippines. However, section 6 would limit 
expenditures for such care to $500,000 per year. Section 6 also 
provides that the authority would be effective in any fiscal year only 
to the extent that appropriations are available. Section 6 would not 
change our current authority to furnish comprehensive outpatient care 
in the Manila Clinic to United States veterans with a service-connected 
disability, and the $500,000 cap would not apply to the existing 
authority.
    VA opposes the expansion of authority contained in section 6. Last 
year Congress enacted legislation revising VA's authority to furnish 
care in the outpatient clinic in Manila, permitting the Department to 
furnish U.S. veterans and Old Philippine Scouts who have a service-
connected disability with care for nonservice-connected disabilities. 
Old Philippine Scouts are considered to be U.S. veterans. Previously, 
the clinic was authorized to provide care only for the service-
connected conditions of these veterans. Congress elected not to open 
the clinic to non-U.S. veterans. Congress made these changes because 
these veterans were already eligible for and receiving care for 
service-connected disabilities in a VA-operated clinic. It makes sense 
to treat all conditions of a patient when treating the patient for a 
service-connected disability. In all other foreign countries, VA is 
authorized only to provide reimbursement for the cost of care for 
veterans' service-connected disabilities.
    The $500,000 per year limitation on VA's authority to provide care 
would necessitate that VA establish some basis for rationing the care 
in the clinic. The cost of caring for those who would be made eligible 
would far exceed that amount. Were VA to provide care on a first come 
first served basis, many veterans needing care would not receive it 
simply because they did not need the care soon enough.
    The Office of Management and Budget advises that there is no 
objection to the submission of this report from the standpoint of the 
Administration's program.
            Sincerely yours,
                                       Anthony J. Principi.
                               s. res. 61
    The last provision I will address today is S. Res. 61. S. Res. 61 
would express the Sense of the Senate that the Secretary of Veterans 
Affairs recognizes American Association of Physician Specialists (AAPS) 
board certifications for the purpose of VHA payment of special pay.
    VA does not support this provision. VHA currently provides board 
certification special pay only to physicians who are board certified by 
either American Board of Medical Specialties (ABMS) or the Bureau of 
Osteopathic Specialists (BOS), the certifying body of the American 
Osteopathic Association.
    In accordance with quality assurance standards and prudent business 
practices, every healthcare organization must ensure appropriate 
credentialing of its healthcare providers. The purpose of board 
certification is to assure the public that a physician has completed an 
approved education program and an evaluation process to assess 
knowledge, skills, and experience required to provide quality of care. 
ABMS and BOS are considered to be the official certifying approval 
entities for MD and DO specialties. VA does not set the qualifications 
standards for the ever-expanding number of certifying organizations for 
the numerous medical professions employed in VA healthcare facilities. 
Nor do we seek that role, since we have neither the expertise nor the 
resources to do so. We recognize the certifications of the leading 
recognized healthcare organizations.
    Today there are an estimated 165 to 180 board-certifying 
organizations in the United States. These vary from organizations 
requiring substantive credentials and comprehensive examinations to 
others who require few, if any, prerequisite qualifications.
    As specialty certification developed during the 1960's and 1970's, 
many specialty boards had ``grandfather'' clauses permitting 
established practitioners in a field to become certified by that 
specialty. Some practitioners either were ineligible for 
``grandfathering'' or chose not to apply. Later, specialty 
certification became more important for getting hospital privileges and 
managed care contracts, and practitioners wanted to become certified. 
When the window to grandfather had passed, the only options available 
were to retrain, or to create a new specialty board and hope that it 
would succeed. In addition, there were physicians who were either 
ineligible to take or unable to pass the ABMS and BOS recognized boards 
and wanted another option. Other sources of new specialties included 
areas such as cosmetic surgery. Physicians who become certified by a 
non-ABMS or non-BOS organization are doing so with full knowledge that 
this certification might not be recognized by mainstream medical 
organizations.
    ABMS started in 1933. ABMS board certification is recognized 
throughout the United States as the ``gold standard'' in board 
certification. This recognition is based on ABMS' rigorous criteria for 
approval of new specialty boards and its high standards in developing 
questions and criteria for qualifying examinations.
    All ABMS primary board certifications require educational 
preparation in approved medical schools and in Accreditation Counsel 
for Graduate Medical Education (ACGME)-accredited residency programs. 
ACGME sets requirements that institutions must meet in order to sponsor 
graduate medical education (GME). The ABMS uses educational and 
physician researchers to validate examination procedures and the 
content of the examinations. Peer validation also provides recognition 
of ABMS' ``gold standard'' status. Of the 630,000 board-certified 
physicians in the United States, ABMS certifies more than 99 percent 
while AAPS certifies less than 1 percent.
    Many of the Residency Review Boards that recommend residency 
program accreditation to the Accreditation Council for Graduate Medical 
Education use percent of physicians obtaining ABMS board certification 
as an important criterion for program evaluation. The Joint Commission 
on Accreditation of Healthcare Organizations (JCAHO) and the National 
Committee for Quality Assurance (NCQA) also use ABMS data as a measure 
of quality. The American Hospital Association, Association of American 
Medical Colleges, Federation of State Medical Boards, National Board of 
Medical Examiners, Council of Medical Specialty Societies, and the 
American Medical Association are associate members of ABMS. These 
premier medical organizations in the United States are concerned with 
goals, standards, and the quality of graduate medical education.
    ABMS is integrated into the structures of organized medicine. While 
any organization can self-proclaim a specialty certification and any 
organization can claim to recognize and/or approve specialties, these 
organizations lack the validation from and acceptance by the 
established medical education structures of this country.
    The BOS processes for specialty recognition are analogous to those 
of ABMS.
    In order for VHA to recognize specialties through other than 
adherence to the American ``Gold Standard'', a complex review process 
would be needed whereby VA would itself become a specialty recognition 
body. This is a role VHA has historically chosen to defer to private 
sector, established organizations with the requisite expertise. VHA 
does not believe that such deference is either arbitrary or capricious. 
The staffing and commitment needed to maintain a genuine certification 
process would be onerous.
    AAPS, in comparison to ABMS and BOS, has not achieved an equivalent 
level of recognition within the American medical community. VHA does 
not recognize AAPS due to its lack of endorsement and acceptance by the 
general medical community, the AAMC, the AHA, the ACGME, JCAHO, etc., 
which VHA requires and which is the basis of its recognition of ABMS 
and BOS.
    Mr. Chairman, this concludes my testimony.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Thomas L. Garthwaite, M.D.
    Question 1. I understand that a project in Florida--Volunteers of 
America--has a close relationship with the VBA and has been able to 
secure benefits for hundreds of homeless veterans. If the active 
involvement of a single veterans benefits counselor can help hundreds 
of homeless veterans, wouldn't it follow that tens of thousands of 
homeless veterans would receive benefits they've earned if more VBA 
counselors were deployed?
    Answer. As stated in the testimony, we support the need for 
continued effective outreach to homeless veterans. We do not believe 
that demographics of the homeless veteran population support assigning 
a full-time homeless veteran coordinator at each regional office. As 
also noted, where such populations indicate that the need for a full-
time coordinator exists, as is the situation in Florida, one is 
assigned. It should be noted that a homeless veteran coordinator is 
assigned at least as a co-lateral duty at each regional office. During 
FY 2001, VBA homeless coordinators have contacted almost 2,000 shelters 
and over 3,700 Federal, local and other agencies/organizations to 
assist homeless veterans. Just under 21,000 homeless veterans contacted 
VBA homeless coordinators during that same period.
    Question 2. Does VBA expedite claims for homeless veterans? If yes, 
how is this tracked? Can you provide the Committee with that 
information? If no, wouldn't having at least one employee in each 
regional office who primarily works with the homeless be a good plan?
    Answer. Directives are in place for expeditious processing of all 
claims initiated by homeless veterans. However, results are not 
tracked. As stated in the testimony, we plan to take steps to improve 
and strengthen the reporting of all programs and benefits to fully and 
effectively monitor and evaluate all of the Department's programs for 
homeless veterans.
    See response to question one concerning staffing for the homeless 
veteran program.
    Question 3. Have there been any leases under VA's enhanced-use 
lease authority that have been granted to create emergency shelters or 
transitional housing for the homeless?
    Answer. We have used this authority to obtain two leases: (1) a 
120-unit ``Single Room Occupancy'' (SRO) housing complex in Vancouver, 
Washington (awarded in July 1998), and (2) a 63-unit SRO in Roseburg, 
Oregon (awarded August 2000).
    In addition, we have two enhanced-use lease projects approaching 
lease execution: (1) a 96 unit SRO in Barbers Point, Honolulu Hawaii, 
and (2) a 59 unit SRO in Batavia New York. The enhanced-use lease 
authority is scheduled for May 2002.
    Question 4. How does VHA justify the decrease of inpatient 
detoxification beds, beyond the restructuring of the health care 
industry in general with regard to the transition from inpatient to 
outpatient care, when there is clearly a need for these beds 
specifically for treating homeless veterans?
    Answer. In the past, VA provided detoxification and short-term 
acute inpatient treatment in specialized substance abuse treatment 
units. Following an episode of acute inpatient care, veterans were 
provided residential services and post-acute care rehabilitation in VA 
domiciliaries and community-based halfway house programs under VA 
contract.
    With the shift from inpatient to outpatient care, VA developed 
various approaches to providing detoxification and support services for 
veterans with substance abuse disorders, including homeless veterans. 
VA continues to provide inpatient detoxification in general medical 
beds for veterans who need those services. An inpatient stay for detox 
usually lasts for 3-5 days. Veterans with substance abuse disorders may 
also be admitted to a VA domiciliary or a Substance Abuse Residential 
Rehabilitation and Treatment Program (SARRTP) and receive outpatient 
substance abuse treatment. However, domiciliaries, SARRTPs, and some 
per them funded programs may require a period of sobriety prior to 
admission. Some homeless veterans remain in emergency shelters while 
attending VA outpatient substance abuse treatment programs.
    Each VA medical center and VISN has attempted to construct a 
continuum of care to address the needs of veterans with substance abuse 
disorders. The degree of success has been dependent on VA's ability to 
secure adequate residential services and, at the same time, provide 
appropriate outpatient substance abuse treatment services.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Paul Wellstone to 
                       Thomas L. Garthwaite, M.D.
    Question 1. Does it make some sense for Congress to 
institutionalize some of VA's current or planned programs and 
activities, such as the Advisory Committee on Homeless Veterans or 
Northeastern Program Evaluation Center and its reports which may be 
supported by the current leadership, but which may not enjoy such 
support in the future?
    Answer. There does not appear to be a compelling reason to 
institutionalize either the Advisory Committee on Homeless Veterans or 
the Northeast Program Evaluation Center (NEPEC).
    The Advisory Committee membership includes knowledgeable VA- and 
non-VA experts and representatives from community service providers 
with qualifications and competence to deal effectively with care and 
treatment services for homeless veterans. This committee will greatly 
assist VA in improving the effectiveness of our programs and will allow 
a strong voice to be heard within the Department from those who work 
closely with us in providing these services.
    The value of NEPEC is well recognized throughout VA. NEPEC has 
existed for fourteen years and currently monitors the performance of 
over 900 VA programs with budgetary costs of over $250 million. Its 
monitoring and evaluation procedures are fully incorporated into the 
day-to-day operations of VA's specialized mental health programs. Among 
the programs NEPEC monitors and evaluates are the Health Care for 
Homeless Veterans (HCHV) Programs, the Domiciliary Care for Homeless 
Veterans (DCHV) Programs, and the Homeless Providers Grant and Per Diem 
Program. VA relies on community-based organizations to provide 
contracted residential treatment and per them supported housing for 
homeless veterans under the HCHV Program and the Grant and Per Diem 
Program. VA pays approximately $40 million per year for these services, 
and NEPEC has developed VA's only systematic reporting and evaluation 
of contracted program performance. The information from NEPEC's 
monitoring and evaluation system allows VA officials and program 
managers to assess the effectiveness of services and identify areas for 
improvement.
    Question 2. Your testimony states that VA is now reimbursing care 
in the Mental Health Intensive Case Management (MHICM) Program at the 
complex care rate under the VERA methodology. Can you tell me the 
status of this policy? Has guidance been issued to the field and, if 
so, when was that guidance issued?
    Answer. On May 24, 2001, the Under Secretary for Health (USH) 
approved an April 19, 2001, recommendation of the VHA Policy Board to 
establish a new Complex Care class for patients actively participating 
in the Mental Health Intensive Case Management Program (MHICM), with a 
minimum of 41 visits. Such patients would be considered as chronic 
mental illness (CMI) patients for future recording and reporting. The 
April 19 Policy Board Minutes were distributed shortly after approval 
by the USH and are published on the VHA web site. Because this 
recommendation was a policy change for the FY 2002 VERA methodology, a 
description of this change is in the FY 2002 VERA Book. VHA will also 
assure that mental health managers and MHICM staff are fully briefed on 
this issue during their regularly scheduled conference calls.
    Question 3. My bill requires VA to change its financial incentives 
for treating mentally ill veterans using various VA-provided or funded 
programs. VA stresses its objection to this language in Section 7 of 
the bill. The Agency's views seem to indicate that there is some 
Hobbesian choice VA will have to make--that to implement the 
recommendation VA will have to forsake other veterans in need of care. 
Does VA always spend the entire complex care rate allocated for a 
veteran on the care of the veteran for whom it is allocated?
    Answer. The Complex Care Rate is a national average price for all 
Complex Care patients. The actual costs for a specific Complex Care 
patient could be above or below the average price. There is no 
requirement that the amounts allocated for Complex Care patients or 
Basic Care patients be spent only on those patients. On the average, 
VHA is currently allocating to the networks 6 percent more for the care 
of Complex Care patients than it actually costs to treat them and 6 
percent less than it costs to treat Basic Care patients. Therefore, 
some of the funds allocated for Complex Care patients are spent on 
Basic Care patients.
    Question 4. If there is a remainder of high-cost funds it is used 
for the care of other veterans, is it not?
    Answer. Because VHA is allocating 6 percent more for the care of 
Complex Care patients than it actually costs to treat them and 6 
percent less than it costs to treat Basic Care patients, some of the 
funds allocated for Complex Care patients are spent on Basic Care 
patients.
    Question 5. Doesn't the VA's own Committee on Severely Chronically 
Mentally Ill Veterans indicate that chronically mentally ill people are 
in fact currently underserved?
    Answer. The Fifth Annual Report to the Under Secretary for Health 
submitted by the Committee on Care of Severely Chronically Mentally III 
Veterans, dated February 23, 2001, makes several points regarding this 
issue, as briefly stated below.
    <bullet> Veterans with a serious mental illness (SMI) should 
receive a high priority due to a high preponderance of service 
connection and/or low-income status in their ranks.
    <bullet> The number of patients with a psychosis treated as 
inpatients in VHA dropped from 58,000 in FY 1994 to 44,290 in FY 1998.
    <bullet> In spite of a dramatic increase in the number of Community 
Based Outpatient Clinics (CBOCs) in VHA over the last five years, the 
percent of CBOCs that offer mental health has remained in the 45--60 
percent range (depending upon the size of the clinic).
    <bullet> The proportion of mental health visits in CBOCs dropped 
from 24.5 percent in FY 1998 to 20.1 percent in FY 2000.
    <bullet> Many of a selected subset of the most severely impaired 
mentally ill who require intensive community-based case management in 
order to function are not receiving such care.
    <bullet> The number of individual patients receiving care for 
substance abuse in VHA actually dropped by 11.2 percent from 1995 to 
the current year.
    The actual number of SMI Veterans treated has increased by 8 
percent since 1996. Because we have identified specific problem areas, 
VHA has worked with VISN planners to identify 1) local areas where 
mental health care should be added to CBOCs, 2) local areas where 
intensive community-based case management teams should be located, and 
3) specific sites where opioid substitution programs should be 
initiated. Furthermore, VHA has begun to address financial incentives 
to increase mental health care by including patients receiving highly 
intensive outpatient care in the special (high) reimbursement group 
category in the VERA system (see response to Question 2, above).
    VHA approved all VISN plans for mental health in CBOC development, 
including placement of mental health provider staff in CBOCs and 
innovative use of tele-mental health approaches. Each VISN is required 
to establish milestones in implementing their plans and report them to 
VACO quarterly. A similar procedure has been carried for the 
development of MHICM programs. As of March 31, 2002, 65 MHICM teams are 
operational treating 3,298 veterans. This is an increase from the 49 
Teams serving 2,637 veterans that existed in the fourth quarter of FY 
2000. Funds authorized by the Veterans Millennium Health Care Act 
(Public Law 106-117) helped establish 3 new Opioid Substitution 
programs and to expand 6 others. In August 2001, each VISN was 
requested to conduct a detailed analysis of unmet needs of veterans for 
opioid agonist therapy, including information on availability, cost and 
quality of any community opioid treatment programs. Updates on VISN 
plans to enhance opioid substitution services have been submitted and 
are under review.
    Question 6. A section of the bill requires ``start up'' programs to 
receive special purpose funds for the first three years they are 
operated. I included this section to ensure that programs receive a 
fair review from VA's VISN and facility directors who are not 
necessarily always friendly to proposals from Congress or the 
Administration. It's easy to say that a program that hasn't yet been up 
and running is ``not working'' to dismiss the expense before the 
program even has a chance of proving itself. We have heard from some 
field people that this may be the case with the special programs funded 
under the Clinton Administration for the homeless women's programs. Are 
you still providing special funds for these 11 programs and can you 
tell me the status of each to date?
    Answer. All 11 specialized homeless women veterans programs are 
staffed and operational and are carefully monitored and evaluated to 
determine their effectiveness. There will be no closure of these 
programs before they have a chance to demonstrate their value. This is 
likely to take more time than the initially expected three-year period. 
To date, these programs have contacted 1,000 female veterans, and 396 
have entered the follow up study. While there are no special funds for 
these programs, VHA is fully committed to completing an evaluation of 
them.
    In FY 2000, special funding was provided to VA medical centers to 
activate other programs for homeless veterans. At the beginning of FY 
2001, funding for these programs was made available through general 
medical care funds allocated to each VISN through the VERA methodology. 
I have informed the VISN Directors that I expect these programs to be 
supported at the initial funding level for a three-year period.
    Question 7. VA seems to suggest that the Homeless Providers Grant 
and Per Diem Programs are less intensive and provide more services than 
the state home domiciliary programs and thus do not merit the same per 
them payment. Do you believe that is generally the case? Please 
describe some of the differences between these two programs to justify 
this assertion.
    Answer. Although there may be some exceptions, the community-based 
programs currently receiving funds under VA's Grant and Per Diem 
Program generally provide services that are less intensive than the 
services of state home domiciliary programs.
    Currently there are 137 community-based programs receiving per them 
under the Grant and Per Diem Program. The Grant and Per Diem Program 
makes per them available for up to half the cost of providing these 
services, up to a maximum $19.00 per day. Approximately 30 percent of 
the programs funded have requested less than the maximum amount for FY 
2001. The majority of the remaining 70 percent of the per them funded 
programs have submitted operating budgets that justify not exceeding 
the $19.00 rate. Currently the average per them amount paid by VA is 
$17.67. Although some programs may provide services equal to or more 
intensive than the services of state home programs, in general, this 
does not seem to be the norm.
    The law that gives VA authority to award grants and per them allows 
and encourages community-based organizations to seek funding from a 
number of local and national sources. Proposals seeking funding under 
the Grant and Per Diem Program are rated in part by the strength of 
these collaborations. Organizations that are able to secure 
collaborative funds are most often more viable and capable. State home 
programs, on the other hand, are financed by VA and state governments. 
Additional operating funds may be gained by requesting residents to pay 
rent. VA does not specifically encourage state home programs to seek an 
alternative funding base.
    VA feels that the use of alternative funding bases significantly 
helps to ensure the success of programs funded under Grant and Per Diem 
and is an important and unique distinction between community-based 
Grant and Per Diem Programs and state home domiciliaries.
    Question 8. VA questions the need for the grant program for 
homeless veterans with special needs established in Section 9 of this 
bill. Will you describe how many programs VA currently has in place to 
address the special needs of older veterans who are homeless, who have 
minor dependents, or who have terminal illnesses? Has VA done any 
analysis to evaluate the outcomes of these programs versus 
``mainstream'' programs for homeless veterans?
    Answer. Section 9 of the bill identified homeless veterans with 
special needs as those homeless veterans who: 1) are women; 2) are 50 
years of age or older; 3) are substance abusers; 4) are persons with 
post-traumatic stress disorder; 5) are terminally ill; 6) are 
chronically mentally ill; or 7) have care of minor dependents or other 
family members. On December 21, 2001, the President signed Public Law 
107-95, the Homeless Veterans Comprehensive Assistance Act of 2001. New 
Section 2061 of title 38, as established by the law, authorizes VA to 
establish a grant program for homeless veterans with special needs. The 
law identifies homeless veterans with special needs as: 1) women, 
including women who have care of minor dependents; 2) frail elderly; 3) 
terminally ill; or 4) chronically mentally ill. VA is now writing 
regulations to govern the grant program for homeless veterans with 
special needs. It is expected that the final regulations will be 
published early in FY 2003.
    Many homeless veterans fall into overlapping categories. The 
percentage of veterans who fall into overlapping categories is so large 
that all providers of services to homeless veterans must take into 
account their specific needs in order to develop effective programs. 
For example, approximately 30 percent of the homeless veteran 
population are 50 years of age or older. Similarly, approximately 70 
percent of all homeless veterans have a substance abuse problem, and 45 
percent have serious mental illnesses.
    VA's DCHV Programs, its contracted, community-based residential 
treatment under the HCHV Program, and supported housing services 
available through the Grant and Per Diem Program provide the 
residential and support services needed by older homeless veterans. Due 
to older veterans' increased need for medical care, VA medical centers 
and grant and per them funded programs for homeless veterans work 
closely together to make sure that both residential services and 
medical treatment services are coordinated and available to homeless 
veterans.
    The majority of homeless veterans who have responsibility for minor 
dependents are homeless women. Data from the National Survey of 
Homeless Assistance Providers and Clients (NSHAPC) indicates that there 
are between 2,500 and 4,500 homeless women veterans on any given day. 
Between 6,300 and 12,200 women veterans may experience homelessness 
annually. Twenty existing grant and per them funded programs have the 
capability to serve homeless women veterans, including homeless women 
veterans with children. Approximately 547 beds are or will be 
available. Within these 20 programs, eight primarily target homeless 
women veterans and have 141 beds available. In all cases, up to 25 
percent of beds in VA grant-funded programs may be used to serve non-
veterans. This means that children may stay with their veteran parents 
in grant-funded programs. VA does not pay per them for services 
provided to minor dependents or other family members. VA has also 
established 11 special outreach and case management programs for 
homeless women veterans. Residential services for homeless women 
veterans in these programs will be provided in VA domiciliaries, 
contracted residential treatment programs or grant and per them 
programs. These 11 special programs for homeless women veterans are 
part of a rigorous, long-term evaluation study. Thus far, these 
programs have seen over 1,000 homeless women veterans and have enrolled 
396 veterans in the outcome study.
    Terminally ill homeless veterans, like older homeless veterans, 
need both residential services and medical treatment. The most 
important aspects of care require strong collaboration between the 
residential service providers and the VA medical centers.
    VA has conducted a comparative analysis of the outcomes of homeless 
veterans who have received services in VA's DCHV Program, contracted 
residential treatment under the HCHV Program, and supportive housing 
services in the Grant and Per Diem Programs. The following charts show 
comparative housing and employment outcomes at discharge from these 
homeless veterans programs:

                                          Housing Outcomes at Discharge
----------------------------------------------------------------------------------------------------------------
                                                                                 Another
                                                          Apartment, Room     Institutional     Homeless/Unknown
                                                              or House           Setting
----------------------------------------------------------------------------------------------------------------
DCHV...................................................                59%                20%                21%
HCHV...................................................                41%                32%                27%
Grant/Per Diem.........................................                26%                26%                48%
----------------------------------------------------------------------------------------------------------------


                                        Employment Outcomes at Discharge
----------------------------------------------------------------------------------------------------------------
                                                          Employed or in a
                                                         Vocational Rehab/      Retired or         Unemployed
                                                          Training Program       Disabled
----------------------------------------------------------------------------------------------------------------
DCHV...................................................                54%                17%                29%
HCHV...................................................                49%                18%                33%
Grant/Per Diem.........................................                38%                18%                44%
----------------------------------------------------------------------------------------------------------------

    Question 9. VA's views also describe a ``disruptive effect'' you 
believe this would have upon VA and grant providers due to the 
competitive grant process. Can you tell me exactly what VA fears impact 
of this proposal might be?
    Answer. We believed that Section 9 of the bill would encourage 
grant and per them programs to develop additional treatment 
capabilities to address the needs of the special homeless veteran 
groups identified (elderly, terminally ill, homeless veterans with 
substance abuse disorders, serious mental illnesses, etc.). We felt 
that the next logical step would be the development of a separate 
health care system for homeless veterans, a costly and duplicative 
effort.
    VA and its community-based partners, many of whom are under 
contract with VA or have received grant and per them funding, have 
developed a full range of services for homeless veterans that include 
treatment, residential rehabilitation, and supportive housing services. 
Ongoing efforts should be focused on coordinating these services to 
assure that homeless veterans have access to appropriate residential 
services and quality health care services.
    New Section 2061 of title 38, as established by Public Law 107-95, 
now authorizes VA to make grants available to assist with the 
development of programs for homeless veterans with special needs. VA is 
currently writing regulations to govern the special needs grant 
process. It is expected that the final regulations will be published 
early in FY 2003.
    Question 10. VA has previously cited certain veterans' need for 
extensive dental care as an impediment to finding them gainful 
employment. We've tried to find a means of addressing this problem 
which has identified as a top-rated unmet need for homeless veterans by 
VA and community evaluators in VA's CHALENG reports year after year. If 
the VA opposes Section 12 of the bill, do you have an alternate 
recommendation to address this issue?
    Answer. In our testimony of July 19, we proposed, as an 
alternative, that we would expand our efforts to obtain dental care for 
homeless veterans through pro bono providers, dental schools and 
related teaching programs, and service providers receiving grants under 
VA's Homeless Providers Grant and Per Diem Program. However, we realize 
that obtaining services through these sources may be problematic. The 
private sector is experiencing a shortage of dentists and an abundance 
of patients. We might not be able to respond to our veterans' needs in 
this manner. Many private sector dentists might not be willing to take 
on these patients. Dental schools might not be able to treat these 
veterans adequately or timely, and they would charge for their 
services.
    Under a similar concept of community collaborations, VA recently 
earmarked $509,000 for 10 pilot dental initiatives utilizing innovative 
ways to provide dental care to homeless veterans enrolled in VA-
sponsored rehabilitation programs. Begun in the fall of 2000, the 
intent of this Homeless Veterans Pilot Program Initiative program was 
to seek a means to provide dental to this homeless veteran population 
at reduced costs through community collaborations. The pilot sites are 
currently providing care to veterans who have demonstrated a commitment 
to the rehabilitation process through their continued participation in 
these rehabilitation programs. Care is provided through contracts with 
community partners and does not interfere with other higher priority 
patients receiving outpatient dental care. The initiative has been a 
huge success thus far. Pilots have not ended and final reports have not 
been made, but records to date indicate that of the 731 veterans 
enrolled in the program, 324 have had their dental work completed. VA 
clinicians and homeless coordinators praise the program because they 
have seen progress made by these veterans as they seek gainful 
employment and reintegration into the community. Although complete 
comprehensive treatment was not provided, the treated veterans have 
been extremely pleased with the care they have received. The pilots 
have demonstrated innovative ways to provide dental care to this 
veteran population through community collaborations at reduced costs.
    Question 11. This bill's findings cite VA's CHALENG reports. In the 
views that VA has submitted VA appears to be questioning its own data 
citing the annual fluctuations in number as evidence that they are 
invalid. If we cannot trust VA's data, what data source should replace 
it? How should VA improve this report to Congress?
    Answer. The VA's Project CHALENG for Veterans has collected data on 
the needs of homeless veterans at the local community level since 1994. 
Collection of these data has been characterized by a careful, empirical 
process with high rates of participation by VA and community providers. 
VA did not intend to suggest that the estimates were invalid but that 
they represented local procedures that vary widely across the country, 
and that VA had updated information available that modified earlier 
estimates.
    As indicated in the National Survey of Homeless Assistance 
Providers and Clients (NSHAPC), determining exactly how many homeless 
people there are is logistically impossible and prohibitively costly. 
Precise counts are clearly desirable, yet complexities of survey 
location (shelter, streets), seasonal variation, definitions of 
homelessness, and obtaining unduplicated counts hamper such efforts. 
The CHALENG reports are estimates of homeless veterans and are not 
considered exact counts. However, CHALENG estimates of the number of 
veterans who experience an episode of homelessness over the course of a 
year--ranging from 350,000 in FY 1998 to 294,840 in FY 2001--are 
consistent with homeless veteran extrapolations from NSHAPC data, which 
are in the range of 232,000 to 394,000.
    In FY 2001, CHALENG data validation of homeless veteran estimates 
included examination of all numbers submitted with follow up phone 
calls, where needed, to verify both the accuracy of the reported 
numbers and the method for obtaining the estimated number. As a result 
of these validation efforts, VA has greater confidence in the FY 2001 
CHALENG Report estimates. No other entity has consistently gathered, 
examined, and reported estimated numbers of homeless veterans from as 
many sources, i.e., local communities, as Project CHALENG.
    Since 1994, CHALENG has effectively and systematically recorded and 
reported data from over 14,000 community agencies, VA staff, and 
homeless veterans on the needs of homeless veterans across 35 distinct 
areas encompassing housing, medical care, mental health care, and 
employment. This integrated survey and planning effort fosters wide-
ranging, joint local VA-community planning, action strategies, and 
outcomes that could not be achieved through any other mechanism.
    Question 12. I understand that 40% of all community-based 
outpatient clinics provide veterans access to mental health services. 
Is VA satisfied with that level? If not, what is VA's goal and what is 
VA's plan for achieving it?
    Answer. Since 1994 VHA has been shifting the treatment of veterans 
with mental illness to outpatient and community-based settings. At the 
same time, VHA has also increased the number of access sites so that 
patients in geographically under served areas may receive health care 
from VA. The objective is to provide services at community sites that 
are tailored to the needs of the veterans most likely to seek access.
    In August 2001, The Assistant Deputy Under Secretary for Health 
directed Networks to develop a plan to improve the consistency with 
which VHA provides mental health services in existing and proposed new 
Community Based Outpatient Clinics (CBOCs). All Networks used a 
protocol for accessing mental health needs through community-based 
outpatient clinics (CBOCs) based on demand, location, size of clinic, 
and other local factors. In evaluating the need for mental health 
services at CBOCs, the following issues were studied:
    <bullet> population-based estimates by county,
    <bullet> number of veterans needing such services,
    <bullet> availability of mental health services in nearby 
communities and the potential for partnering to treat severely mentally 
ill veterans,
    <bullet> travel distances from the CBOCs to existing VA mental 
health specialty services, and the character and severity of the 
specific mental disorders identified.
    VHA approved all VISN mental health plans in March 2002 and has 
required each VISN to identify milestones in implementing their plans 
and report progress quarterly on achieving those milestones. In 
general, VHA believes that the larger the CBOC the more crucial it is 
that meaningful access for mental heath services be provided. Networks 
were informed that Mental Health services should include the capacity 
to provide medication management and general counseling or 
psychotherapy services for our highest priority patients including 
those who are service connected for a mental disorder. Since demand for 
mental health services is generally proportionate to demand for primary 
care services, the smaller CBOCs will need proportionately less 
staffing, but should still provide convenient access to mental health 
care.
    VHA is looking at using tele-mental health to provide and support 
the delivery of mental health services. The introduction of tele-mental 
health into CBOCs offers a way to improve the access of veterans to 
mental health services in rural and remote settings. Currently, VHA has 
tele-mental health services in seven Veterans Integrated Service 
Networks (VISNs), and 20 Vet Centers offer tele-mental health as an 
outreach service. The benefits of tele-mental health are reduced 
waiting times, reduced patient travel, ability to offer expert crisis 
management advice in the primary care setting, and improved medication 
management.
    Performance measures to monitor compliance with the mental health 
capacity requirements and network plans have been incorporated into the 
FY 2002 performance requirements for VISN Directors and monitored 
quarterly.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Arlen Specter to Thomas 
                          L. Garthwaite, M.D.
    Question 1. Section 904 of the Veterans Millennium Health Care and 
Benefits Act (Public Law 106-117) directed VA to develop a plan to 
evaluate the effectiveness of programs to assist homeless veterans. 
That evaluation was to include measures showing whether veterans--for 
whom housing or employment has been secured with VA and other Federal 
agency assistance--continue to be housed or employed six months after 
receiving VA's remedial services.
    A. Has VA developed and implemented the mandated evaluation plan? 
If not, why not.
    B. If VA has developed the evaluation plan, how are assisted 
veterans doing? Does VA's evaluation indicate that they--and VA's 
homeless programs--have faired well? Do veterans continue to be housed 
or employed after 6 months? Using other evaluation criteria VA has 
developed, how have VA's programs faired?
    Answer. VA has implemented the required evaluation plan and has 
recruited approximately 500 veterans to participate thus far. Because 
we are only now recruiting the follow-up sample, no follow-up data are 
available at this time from these new evaluation efforts.
    However, ample long-term outcome data will be available from the 
study (begun in 1992) of the HUD-VA Supported Housing Program (HUDVASH) 
later this fall. Of the 2,165 veterans initially housed in the program, 
preliminary analysis shows that data were available on 2,010 of these 
veterans 6 months later. Of these, 1,903 (94 percent) were still housed 
6-months after their initial housing placement was documented. Assuming 
that all the veterans on whom follow-up data were not available were 
not housed (an extremely conservative assumption) 87 percent of 
veterans retained their housing over a six-month period after their 
initial placement. Over the long term (one year), our data show that 
only four percent of veterans in this program lose their housing each 
6-months. These results are attributable to the fact that veterans in 
HUD-VASH receive both a housing subsidy (Section 8 voucher) and a 
designated long-term case manager.
    Other data are available to address the question of how effectively 
VA's programs have operated. VA's Northeast Program Evaluation Center 
(NEPEC) has conducted long-term outcome studies involving hundreds of 
participants at 12 sites in two of VA's principal homeless assistance 
programs, the Health Care for Homeless Veterans (HCHV) Program and the 
Domiciliary Care for Homeless Veterans (DCHV) Program. Since NEPEC was 
also responsible for collecting similar long-term outcome data on the 
Department of Health and Human Services' 18-site ACCESS program, it is 
possible to compare outcomes in VA programs with those in non-VA 
programs. Descriptive outcome data show that in the domains of 
psychiatric symptoms, alcohol and drug use, employment, increased 
benefits, and long-term housing outcomes, VA's performance generally 
equals or exceeds the performance of non-VA programs.
    Question 2. Where do VA homeless programs fit in the scheme of the 
President's effort to provide faith-based organizations with more of a 
role in providing homeless services? What is VA's current involvement 
with the White House Office of Faith-Based and Community Initiatives? 
Has VA relied on faith-based organizations to provide homeless veterans 
with services in the past? If so, how would you rate the effectiveness 
among veterans?
    Answer. On January 29, 2001, President Bush signed two executive 
orders 1establishing federal offices to promote his faith-based and 
community organizations initiatives. One of the orders created an 
Office of Faith-Based and Community Initiatives in the White House to 
take the lead in enhancing current efforts and promoting the 
government's efforts to partner with faith-based and community 
organizations. His second order established a Center for Faith-Based 
and Community Initiatives in five federal agencies. That order did not 
require VA to establish a new office; however, VA, like most federal 
agencies, was required to establish a point of contact within an 
existing office. While those Departments that have a separate office 
meet monthly with the White House Office of Faith-Based and Community 
Initiatives, VA does not attend those meetings.
    On August 2, 2001, the Office of Public and Intergovernmental 
Affairs (OPIA) was assigned the oversight and coordination role for 
this function and Peter H. Dougherty, Director, Office of Homeless 
Veterans Programs, serves as our Department's point of contact. That 
office and the entire VA have a long tradition of working closely with 
faith-based and community organizations. The task force held several 
meetings in September/October 2001, and sought to compile a survey to 
establish baseline information on VA's level of involvement with and 
attitudes toward faith-based and community-based organizations.
    A Task Force was appointed and an internal survey was conducted of 
all VA field facilities. The survey showed that nearly all responses 
(95%) thought that faith-based and community-based organizations were 
providing high quality services to veterans.
    VA's Homeless Service Providers Grant and Per Diem Program has a 
significant investment in faith-based service providers. An estimated 
$3.6 million in per them payments are expected to be made to faith-
based service providers this fiscal year. More than one-third (35.8%) 
of per them only grants were awarded to faith-based organizations, more 
than one in five (21.5%) of all brick and mortar grants and nearly one-
quarter (24.1%) of all grants for transportation and outreach were 
awarded to faith-based groups.
    VA is looking to attract both high quality, competent faith-based 
and community-based organizations to insure that underserved areas and 
populations are not left without adequate services. While we 
extensively monitor each faith and community-based service provider, we 
are in the process of reviewing the rates of effectiveness based upon 
the type of organization.
    Question 3. Senator Wellstone's legislation (S. 739) would create a 
grant program to address the special needs of homeless veterans who are 
women. What has been VA's experience with female homeless veterans? Do 
you believe there is a large population of homeless veteran women? 
How--if at all--does VA address the special needs of homeless women 
veterans?
    Answer. VA's HCHV program has consistently found that about three 
percent of homeless veterans are female. This is somewhat less than the 
five percent of female veterans in the general population and indicates 
that female veterans have less risk of homelessness than male veterans. 
This relationship is also observed among non-veteran women, for whom 
the risk of homelessness is also lower than among non-veteran men.
    Analysis of data from the National Survey of Homeless Assistance 
Providers and Clients (NSHAPC) shows that in the general homeless 
population, 3.7 percent of veterans are female, yielding the following 
estimates of the numbers of homeless female veterans.

----------------------------------------------------------------------------------------------------------------
                             Month                                    All Veterans           Female Veterans
----------------------------------------------------------------------------------------------------------------
October-November:
  One day estimate............................................                   79,580                    2,467
  Annual estimate.............................................                  232,300                    6,272
February:
  One day estimate............................................                  146,510                    4,542
  Annual estimate.............................................                  394,450                   12,228
----------------------------------------------------------------------------------------------------------------

    VA has funded 20 Grant and Per Diem Programs with 547 beds that 
have indicated they will provide supported housing services to homeless 
women veterans. Eight of these Grant and Per Diem Programs primarily 
targeted homeless women veterans for services, and these programs are 
developing 141 supportive housing beds. In addition, 11 specialized 
outreach and case management programs for homeless female veterans have 
been established and are being evaluated. Thus far these programs have 
seen over 1,000 homeless female veterans and have enrolled 396 veterans 
in the outcome study.
    4. 1 would assume that--as part of its treatment regimen--VA 
assures that homeless veterans receive any pension or compensation 
benefits to which they might be entitled. Is monetary assistance 
available to homeless veterans who are not eligible for compensation 
and pension? Should it be?
    Answer. The only other monetary benefits administered by VBA to 
which homeless veterans not eligible for compensation or pension may be 
entitled to is education assistance. However, there is eligibility 
criteria associated with this program also and many homeless veterans 
may not qualify. Several States and counties offer monetary benefits to 
veterans and VBA's homeless veteran coordinators are familiar with 
these benefits and provide basic information and referrals to homeless 
veterans.
    Question 5. Senator Wellstone's bill proposes to provide cash 
benefits--in the form of VA pension--to newly discharged mental health 
patients and prisoners--to assist them, I presume, in avoiding 
homelessness. What is your assessment of this idea.
    Answer. VA did not support this provision of Section 16 of S. 739. 
That position remains unchanged. However, we understand that the SVAC 
has deleted this provision from the proposed bill.
    Question 6. Senator Wellstone's legislation would designate one 
member of each regional office to handle claims and issues involving 
homeless veterans. Doesn't VBA expedite claims adjudication for so-
called ``hardship'' cases? Are homeless veterans classified as 
``hardship'' cases for purposes of expedited claims treatment? Is there 
a problem with the length of time it takes to adjudicate the claims of 
homeless veterans?
    Answer. Directives are in place for expeditious processing of all 
claims initiated by homeless veterans (VBA Circular 20-91-9). To some 
extent, processing time for these claims could be adversely impacted 
with the current pending workload.
    Question 7. This committee had a hearing on June 14th on the topic 
of projected nurse shortages. We learned that a number of issues are on 
VA nurses' minds--for example, stagnant salaries and mandatory 
overtime. Are these problems unique to VA? Are the solutions proposed 
in S. 1188 sufficient to resolve them?
    Answer. Competitive salaries and mandatory overtime are serious 
issues for the profession of nursing across our nation. VA faces the 
same challenges as our private sector counterparts in dealing with 
these and other recruitment and retention issues for nurses. VHA 
invests significant effort to successfully maintain comparable pay in 
each locale for all nursing roles. The locality pay survey allows VHA 
to review competing salary rates and adjust rates accordingly for each 
employment market. Mandatory overtime is a result of workforce shortage 
and limited options for staffing in emergent situations. In some 
markets where healthcare facilities are experiencing severe shortages, 
the need to mandate overtime occurs more frequently.
    VA believes that the provisions contained in Public Law 107-135 are 
helping the Department address these and other challenges impacting our 
ability to recruit and retain nurses. Because the employee scholarship 
programs are now permanent, nurses can plan with confidence and work 
toward attaining baccalaureate and advanced degrees. Because the 
student loan forgiveness program is now a permanent authority and the 
VHA policy is in place, the Department has a powerful new tool to 
attract and retain new nurses. The enhancements to retirement benefits 
for nurses will help make VA the most attractive Federal employer. We 
will continue to explore strategies to strengthen VHA nurse recruitment 
and retention, including those from the Nursing Workforce Workgroup's 
report, A Call to Action, and the interim results of the VA Commission 
on Nursing.
    Question 8. The nurse-recruiting program of Abington Memorial 
Hospital in Philadelphia was the topic of a story in the Philadelphia 
Inquirer on July 19, 2001. Let me quote from the paper:
          Rebecca Phipps has a full ride to Abington Memorial 
        Hospital's Dixon School of Nursing in Willow Grove and is all 
        but guaranteed a job upon graduation with plenty of perks, 
        including child care benefits, flexible scheduling, and a 
        starting salary of about $41,000 with a sign on bonus of at 
        least $3000. It's like winning the sweepstakes, said the 32-
        year-old mother of three, a waitress in Conshohocken.
    A. Can VA compete with this? Does VA provide starting salaries of 
$41,000? Does it provide ``sign on bonuses?'' Flexible scheduling? 
Child care benefits?
    B. Should VA try to compete with this? Does S. 1188--coupled with 
programs VA already has in place--get VA to the point where it can 
compete with this?
    Answer. VA is able to offer comparable starting salaries, along 
with sign-on bonuses, to new graduates. In addition, VA offers an 
attractive benefits package and, in many locations, on-site or close-by 
childcare centers. For those employees who qualify, VA also offers 
childcare assistance according to financial need.
    VA also can offer scholarship and tuition assistance to current 
employees who pursue degrees in nursing and other critical health care 
occupations. VA also offers employees student loan repayment 
assistance--a significant recruitment tool. Where patient care needs 
permit, VA can offer flexible scheduling to accommodate individual 
preferences.
    Starting rates for nurses are determined according to their 
qualifications, and so nurses often start at rates higher than step 1. 
The average salary for Nurse 1 in VA is $59,261. The 2002 minimum 
starting rate at the Philadelphia VA Medical Center is $42,133. 
Recruitment bonuses are offered for hard-to-fill specialties like OR 
nurse.
    Thus, while VA is generally able to offer competitive recruitment 
packages, the provisions of Public Law 107-135 only enhance VA's 
ability to compete.
    Question 9. In my post-hearing questions to you following the 
Committee's hearing on June 14, 2001, I asked you about the 
collaboration between VA and nursing schools--as compared to the 
collaboration that exists between VA and the Nation's medical schools. 
In your response, you stated that ``VA's nursing affiliations are 
somewhat different than its medical school affiliations, in that VA 
nurses are not as strongly aligned in paid teaching and faculty roles 
and the preponderance of nursing affiliations are not funded.'' What 
steps is VA taking to more closely align itself with nursing schools? 
If VA nurses do not play paid teaching and faculty roles, should they? 
What authority does VA have--and what authority, if any, does it need--
to develop stronger affiliations with nursing schools?
    Answer. For more than 40 years, VA has conducted active affiliation 
agreements with multiple nursing schools. VA nurses have provided 
effective mentoring and preceptor support to students. Much like our VA 
physician affiliation arrangements, VA currently supports affiliations 
with nursing schools through adjunct faculty appointments. However, the 
vast majority of VA physicians with medical school faculty appointments 
are part time VA employees providing patient care, research and 
teaching at VA facilities. VA professional nurses that have adjunct 
faculty appointments with schools of nursing participate in didactic 
teaching and other academic activities while on authorized absence from 
VA. The nursing schools and VA both compete for experienced and highly 
qualified nurse professionals. Our goals are to increase nursing 
recruitment by hiring new graduates of colleges of nursing and 
enhancing collaborative arrangements between VA and nursing schools 
with strong academic and research programs. Using existing authority 
for strengthening our alignment with our nursing affiliates will assist 
in meeting the goal of recruiting and advancing nursing practice in VA.
    Question 10. In those same post-hearing questions, I asked you 
about going into high-schools and recruiting students who might be 
interested in nursing by offering scholarships in exchange for 
service--an idea which is similar to that done by the military services 
recruiting for ROTC. You responded that VA has authority for such 
programs. But you did not state whether VA actively uses that 
authority. Does it? Do you think such a program would be a good idea? 
If not, why not? If so, why don't you implement it since you have the 
authority to do so?
    Answer. A number of successful outreach programs are being 
implemented by VA medical centers to interest youth and teens in 
nursing or healthcare careers. Some examples of these programs include:
    <bullet> VAMC Seattle has a partnership with middle and high 
schools, parents and teachers to develop and nurture students to become 
VAMC employees. Twenty students have been trained and work part time at 
the facility. (http://www.puget-sound.med.va.gov/nurse/ click 
Partners). The facility also provides scholarships to local students.
    <bullet> VAMC Charleston, SC, has a partnership with Charleston 
County Public Schools that involves approximately 100 elementary, 
middle, and high school students in health career planning.
    <bullet> VAMC San Antonio has a partnership with Health Career High 
School through which students come to the facility for work experiences 
in a variety of clinical areas.
    <bullet> VAM&ROC Fargo, ND, is involved in ``Expanding Your 
Horizons.'' This is a program sponsored by North Dakota State 
University that encourages junior high age women to enroll in math and 
science courses while at the same time acquainting them with career 
options such as nursing and medicine. The facility also hosts a 
Volunteer Summer Youth Program and a Job Shadowing Program for local 
high school students.
    <bullet> VAMC Syracuse participates in ``New Visions'' a program in 
which local high school students in their senior year who are 
interested in health care careers spend a portion of each day at the 
facility in volunteer and shadowing experiences.
    <bullet> The VA Southern Nevada Healthcare System has ``adopted'' 
an elementary school and meets with students regarding health 
information and healthcare careers.
    <bullet> VAMC Tucson has a partnership with the Fred G. Acosta Job 
Corps Center to provide clinical instruction to students for entry-
level positions along with counseling to consider careers in nursing.
    Outreach programs are valuable ways of introducing individuals of 
all ages to nursing/healthcare careers and to VA as an employer. In 
addition, VA is requesting additional funds for FY 2004 in order to 
expand the VALOR program to foster partnerships and internships with 
nursing students, many of who choose VA as their post-graduate 
employer.
    Question 11. I have heard from veterans in Pennsylvania--
particularly in Philadelphia--that the single, national income 
threshold for determining priority status for VA health care is unfair. 
I am inclined to agree since I know it costs far more to live in, for 
example, Philadelphia than in, for example, Altoona, PA. Committee 
staff has developed draft legislation that would attempt to fix this 
problem by adjusting that threshold to take into account these cost-of-
living differences across the country. Has VA been able to examine this 
draft bill? What do you think of it? What would be the effect of moving 
veterans currently categorized as ``Priority 7'' into ``Priority Group 
5''?
    Answer. VA has reviewed the draft bill, which is based on the 
proposal of the Paralyzed Veterans of America (PVA) to use the HUD 
income eligibility levels to adjust the VA means test thresholds 
geographically. The proposal would adjust the current VA means test 
threshold upward in areas where the HUD income level is higher. For any 
location where the HUD income level is lower than the current VA 
threshold, it would stay the same. The advantages of this proposal are 
that the income levels are readily available from HUD and are updated 
annually; the income levels are calculated for 336 metropolitan areas 
and 2,409 non-metropolitan areas; and it would improve access to health 
care for those veterans who reside in high-cost-of-living areas. A 
disadvantage is that using the HUD definition would significantly 
increase the number of veterans that would be eligible for VA health 
care without making co-payments because the threshold levels would be 
raised in most locations, thus moving veterans currently categorized as 
Priority 7 to Priority 5. The estimated cost in lost revenues to VA has 
not yet been determined.
    VA is very interested in examining the use of geographically based 
income thresholds for placing nonservice-connected veterans in 
different enrollment priority groups. However, there are many poverty 
indexes established in various ways, and there are serious issues about 
what these indexes really measure. We believe further study is needed 
to determine the most appropriate method for tackling this problem. 
Therefore, at this time, we cannot support the Committee's proposal.
    Question 12. As I understand it, if the cost-of-living at a 
particular locale is high, and this proposed piece of legislation is 
enacted, some veterans who now have no priority for VA care--so-called 
``Priority 7'' patients--would be reclassified as ``Priority 5'' 
patients. Am I correct? Would this mean that these patients would be 
protected against potential ``disenrollment'' actions in the future? 
Would it also mean that they would be freed from some--or all--
copayment requirements?
    Answer. Under the Committee's proposal, some veterans currently 
classified as Priority 7 enrollees would be reclassified as Priority 5 
enrollees and would, therefore, not be required to make co-payments. 
The proposal also provides that veterans who meet the current means 
test threshold will still be eligible under the adjusted means test 
inasmuch as the current $23,688 minimum income level would be 
maintained. If this proposal were enacted, current Priority 7 veterans 
moved into Priority 5 would probably be protected from 
``disenrollment'' solely on the basis of the income threshold. However, 
the proposal does not explicitly protect against future 
``disenrollment'' actions under the authority given the Secretary to 
operate an annual system of enrollment to the extent appropriations and 
resources are made available (38 U.S.C. 1705; 1710(a)(4)).
    Question 13. Do you have any idea how many existing VA patients 
would be moved from Priority 7 to Priority 5 if this draft bill were to 
be enacted? What would be the effect of such reclassifications on the 
VA hospitals' fiscal situations? If veterans are freed from having to 
make copayments--copayments that are retained by the hospital--would 
this legislation jeopardize a hospital's funding stream? If so, how 
could we mitigate that negative consequence?
    Answer. We estimate that in FY 2000, approximately 200,000 (or 35 
percent) of the Priority 7 patients would have been moved to Priority 5 
status under the requirements of the proposal. Assuming the constancy 
of the 35 percent rate, we further estimate that approximately 230,000 
of our current Priority 7 patients would move to Priority 5 status. 
These figures, however, are based on income information obtained from 
the 1992 VA National Survey of Veterans and should be considered rough 
estimates only.
    If this legislation were enacted, VA hospitals would lose co-
payment revenues from those veterans who changed from Priority 7 to 
Priority 5. However, Networks would gain additional funding under VERA 
for these additional Priority 5 veterans, but it is difficult to 
determine if the additional funding to any particular network would 
compensate for the loss of co-payments (see also our response to 
question 14). Without knowing the exact impact on any one Network, it 
is also difficult to determine the best method to mitigate any negative 
consequences, since different approaches may be warranted to meet the 
differing needs of the individual Networks. However, in general, the 
overall effects could be mitigated through increased appropriations or 
by reducing the number of patients served and/or the services provided.
    Question 14. Am I advised correctly that--if this draft were to be 
enacted--VA hospitals would lose copayment revenues, but VA health care 
networks would gain additional revenues under VA's ``VERA'' allocation 
scheme? If that is so, why is that so? Would such added funds to the 
networks be directed to the hospitals that have lost copayment 
receipts? Or would they be allocated to all hospitals within a 
particular service network?
    Answer. If this legislation were enacted, VA hospitals would lose 
co-payment revenues from those veterans who changed from Priority 7 to 
Priority 5. Networks would gain additional funding under VERA for these 
additional Priority 5 veterans because the VERA Basic Care component 
currently provides workload and funding credit for Category A (Priority 
1-7a) veterans. However, VERA is a zero sum allocation system, and the 
increase in funding to high cost of living networks would be offset by 
a decrease in funding to low cost of living networks. This is because 
the increase in Basic Care workload would reduce the allocated amount 
available for each veteran.
    The funding for additional Priority 5 veterans would be directed to 
networks that lost co-payment receipts, but it is difficult to 
determine if the funding a network would gain under VERA would 
compensate for the loss of co-payments. Under the VHA allocation 
process, the networks would then determine how these additional funds 
would be allocated to the hospitals within their networks.

    Senator Wellstone. Thank you very much, Dr. Garthwaite. I 
think what we will try to do, because I don't want to run out 
of time--should we try to do about 7 minutes for each of us? 
Does that make sense? I am trying to figure out the best way 
of--let me try it this way. This might be the best use of time. 
I appreciate a lot of your support for the bill, and let me go 
over some of the concerns you raise and give you kind of my 
response and then have you respond to the response, if that is 
OK.
    On the question of creating this advisory committee, which 
we want to make permanent, the VA believes that this might not 
be necessary because Secretary Principi plans to establish one 
under his own authority. And just so you know my position, my 
position is that this legislation only strengthens his hands, 
and I think he is a great Secretary, but we have different 
Secretaries, so why not make it permanent. If we think there 
should be a focus, it seems to me it should be there. And I 
have no doubt about his commitment, but it seems to me we never 
know who is going to be Secretary. Therefore, we ought to make 
this consistent with a focus now on homeless issues. We ought 
to make this a part of the VA.
    On the question of veterans' receiving continuous care, the 
complex care, your position is that some of these categories 
have already been redesignated as complex care and that 
otherwise adding these new categories will cost more money and 
it will take away from other veterans programs. I am just 
summarizing what I heard.
    We certainly want to make sure that we work with you so 
that the cost of really assisting--really assisting--homeless 
veterans is appropriately estimated, but it seems to me you are 
in a way making it a zero-sum game. And if the VA needs more 
resources to do the job the right way, then the VA should get 
more resources. I don't like to see this sort of like all of a 
sudden we are going to do better by way of mental health or 
substance abuse, but then we are going to be taking away from 
other veterans. And that gets back to in part Senator 
Campbell's point about the budget. I mean, I think of the 
billion, I think most of that will be taken up in medical 
inflation. That is, I think, some of the concern that people 
have.
    So it seems to me you have given us a Hobson's choice, and 
so maybe you could respond to those first--that may be the 5 
minutes that I have left. I have about four others, but if you 
could respond to those first two questions.
    Dr. Garthwaite. Well, let me pick up on the last one first, 
if I could. For us in a way it is a bit of a zero-sum game. We 
have, you know, an overall budget and many competing demands. 
But the concern I have is that tinkering with the VERA model 
has a lot of unintended implications. The seriously chronically 
mentally ill, many of whom are homeless, are already in the 
complex category because they have already met the treatment 
guidelines or the diagnostic guidelines that put them in there. 
So a significant number of the most expensive to treat complex 
patients are already being reimbursed at the high rate.
    So I think that the combination of recognizing that fact 
and the performance measurements we are putting in for 
substance abuse and mental health will drive the system in the 
right direction to facilitate seeing more patients with this 
diagnosis and these problems.
    Senator Wellstone. Now, my understanding is that right now 
we have got about only 20 percent of the veterans who need the 
help who are actually served by what you are doing. Is that 
correct? In complex care, 20 percent of veterans who are 
struggling with a mental health issue, 20 percent of veterans, 
many of whom are out there. Is that correct?
    Dr. Garthwaite. Right. But of the total population of 
veterans being treated, we simply found mathematically in the 
VERA model it doesn't give you better distribution of funds to 
have 60 categories of illness versus a couple. It introduces a 
lot of confusion and a lot of gaming, but it doesn't 
necessarily change how the dollars are distributed to the 
networks.
    So that all you end up doing if you keep subdividing and 
have special classes of veterans is you will change behaviors 
often in ways that aren't anticipated and in our experience 
that are somewhat perverse.
    We have found it is much more effective to demand 
performance outcomes that are directly related to the care. So 
we can set performance measures--the number of homeless 
veterans contacted, for instance--as a way of driving the 
behavior to improve outreach.
    Senator Wellstone. Well, Tom, one of the things that I 
would just like to get a commitment from you on, I mean, one of 
the things that I hear from our medical centers is that they 
are not--you know, VERA Is complicated and they are not getting 
all of the financial help that they think they need to provide 
the services. Maybe we just need to sort of get a commitment 
from you that we will be able to work closely together on this.
    Dr. Garthwaite. Sure. I believe we have the exact same 
intent, and the question is how do you set up a system that 
gives you the intended results. And it is not easy. In the 
private sector, fee-for-service versus managed care, both of 
them have their weaknesses. So there is not a perfect way of 
giving out money that doesn't give you things that you may not 
really be desiring.
    I think that the combination of performance measures, which 
we are in the process of implementing in mental health, and 
continued complex funding for those most seriously mentally 
ill, which we have had in from the beginning, will drive our 
efforts, along with the grants that Pete can discuss.
    Senator Wellstone. I am going to have my other questions 
put to you, if that is OK, in writing. But since the light is 
yellow and I want to keep in the timeframe, I do want to say--
because there are about eight other questions, but here the 
real question is you are going to be leaving the VA soon, and I 
want to recognize your service for veterans and thank you for 
the good work and wish you well in your future endeavors and 
tell you that I hope that the next Under Secretary for Health, 
whoever he or she may be, will share your values and, you know, 
we will be able to work with as well. So whoever--there are a 
number of other questions that I will just submit in writing, 
but I think maybe before we run out of time, I just want to 
thank you on behalf of the committee.
    Dr. Garthwaite. I appreciate it. It has been a great honor 
and pleasure to serve in the Veterans Health Administration in 
VA, and it is the hardest job I have ever had, the last 6 years 
here in Washington, but the most rewarding. So thank you.
    Senator Wellstone. Senator Specter?
    Senator Specter. Thank you, Mr. Chairman.
    Dr. Garthwaite, the Millennium Act provided for 
authorization for Homeless Veterans Reintegration Program for 
$15 million in fiscal year 2001, $20 million in fiscal year 
2002. The funding came through the--can you hear me all right, 
Dr. Garthwaite?
    Dr. Garthwaite. Yes.
    Senator Specter. The funding came through the Labor, Health 
and Human Services, and Education Subcommittee, which I 
chaired, and in 2001 we appropriated $17,500,000. Can you tell 
this committee what was done with that money and how effective 
it was in tackling this important problem?
    Dr. Garthwaite. Can I ask Pete Dougherty to respond to 
that?
    Mr. Dougherty. Mr. Chairman, of course, that program is 
administered by the Department----
    Senator Specter. Excuse me. I am not the chairman.
    Mr. Dougherty. I am sorry----
    Senator Specter. You are not as sorry as I am. [Laughter.]
    May I ask that my time be extended due to the delay from 
that outburst? I am not asking that the room be cleared, just 
that my time be extended.
    Mr. Dougherty. Senator Specter, if I could, that program is 
administered by the Department of Labor's VETS office. I think 
our official position in the statement is we don't talk about 
that program, but I can tell you as a practical matter that 
that program works very closely with the Department of Veterans 
Affairs programs. They have a requirement for their grant 
recipients to come to the Department of Veterans Affairs and to 
make their program known to us because, obviously, getting back 
into the job market is a very important factor to be 
considered.
    Senator Specter. That brings me to my next question. 
Earlier this year, OMB Director Mitch Daniels, on one of the 
Sunday morning talk shows, pointed out that there were some 50 
programs for the homeless, as he put it, sprawling across eight 
departments. Dr. Garthwaite, might it be more sensible to take 
a look at some consolidation here before we enact any 
additional legislation? Here, we have an appropriation coming 
under the Labor Department to fund programmatic legislation 
passed by this committee. I am just wondering if we might not 
adjourn this hearing and reconvene it in the Labor Committee, 
where Senator Wellstone could be acting chairman.
    But to return to my original question, aren't we just 
chasing our tails here with so many programs in so many 
departments without really being able to answer a basic 
question as to how effectively the money is being used? Why do 
I have to go to the Labor Department instead of the Veterans 
Affairs Department to find out about homeless programs for 
veterans? Wouldn't it be a better idea be to put all of this on 
ice until we find out what is going on in all these 
uncoordinated efforts?
    Dr. Garthwaite. Well, I would suggest that there is pretty 
good evidence that more needs to be done. The question you 
raise, though--is it a coordinated effort?--is a very valid 
one. I know just in health care----
    Senator Specter. Well, how do we know that more needs to be 
done if we can't really assess what has been and is being done?
    Dr. Garthwaite. Well, we certainly believe that there are 
300,000 homeless veterans, and we know we don't touch anywhere 
near that many, maybe only as few as 50,000 in a year's time. 
That leaves a significant number of veterans homeless and not 
in contact or being addressed or at least attempted to address 
by our programs.
    Senator Specter. I recently signed a letter to the 
President requesting that the Interagency Council on 
Homelessness be invigorated. The Council is a collection of VA, 
HHS, Labor, HUD, and Department of Education officials. Are you 
personally familiar with the Interagency Council, Dr. 
Garthwaite?
    Dr. Garthwaite. I was aware that it existed. I am not aware 
of its vigor at the present moment.
    Senator Specter. I can't understand----
    Dr. Garthwaite. I say, I was aware that it existed, but I 
wasn't aware of how vigorously it was operating at the present 
time.
    Senator Specter. Well, were you aware of anything it had 
done? Never mind the degree of vigor. Anything?
    Dr. Garthwaite. I know they meet and try to coordinate 
programs, but I don't know much more than that.
    Senator Specter. Do you want to defer to Mr. Dougherty? He 
seems anxious to intervene here.
    Mr. Dougherty. Senator Specter----
    Senator Specter. Mr. Henke, aren't you going to object to 
not having speaking parts?
    Mr. Henke. No, sir. [Laughter.]
    Mr. Dougherty. Senator, the Interagency Council, to the 
best of our knowledge, hasn't met since last fall. There have 
been no meetings since last fall. I think we would strongly 
support the coordination effort that needs to occur at the 
Federal level with programs.
    Senator Specter. Well, Dr. Garthwaite, let me make this 
request to you: Would you please submit to this committee an 
evaluation as to what is being done for homeless veterans among 
these many, many departments. Services to homeless veterans are 
a primary responsibility of the Veterans Administration. It 
seems to me this committee ought to be able to come to the 
Veterans Administration and say, What is going on?
    And I would also like some authentication of your figure of 
300,000 homeless veterans. How do you know that is the figure? 
How do you know there aren't more than that? I would like to 
know how you get there. Also, I would like to know what your 
basis is for saying that only 50,000 are being taken care of. I 
would like some hard facts so we know what is going on, and I 
would like some hard facts as to what these other programs are 
doing.
    This committee has put out a request that the Interagency 
Council start to function, but I would ask that the VA take an 
active role within the executive branch in seeing to it that we 
get some action. How long do you think it would take you to 
give the committee a report on these requests?
    Dr. Garthwaite. Well, certainly on the facts of the matter, 
I think that that shouldn't take too long, within a couple 
weeks.
    Senator Specter. Fifteen days?
    Dr. Garthwaite. Yes, we can do that.
    Senator Specter. How about the balance of the request?
    Dr. Garthwaite. I think we can certainly make some attempts 
at taking a leadership role in understanding--or in trying to 
get coordination of the programs in a short period of time.
    Senator Specter. Should we get you a more powerful 
microphone, Dr. Garthwaite, or would you speak into it? I can't 
hear you.
    Dr. Garthwaite. I am sorry. What I would say is that we can 
I think relatively quickly move to reinvigorate the task force 
and get an assessment of all the departments.
    Senator Specter. Can you do that within 30 days? I don't 
want to take up any more time. The red light is on. I know 
there are many others who want to question you.
    Dr. Garthwaite. I think to get some commitment across a 
variety of departments about leadership and coordination will 
take a little longer than that, to be honest.
    Senator Specter. Forty-five days?
    Dr. Garthwaite. Probably a couple months, at least.
    Senator Specter. Give me a date.
    Dr. Garthwaite. I think it will take us a couple of months 
if we have to work across departments.
    Senator Specter. Sixty days. Thank you.
    [The information referred to follows:]

    The best recent estimate of the number of homeless veterans is 
based on the National Survey of Homeless Assistance Providers and 
Clients (NSHAPC) conducted by the Census Bureau for the Interagency 
Council on the Homeless in November and February of 1996. The study 
found that 23% of all homeless adults were veterans. Applying this 
percentage to the estimates of the number of homeless adults presented 
by the NSHAPC yields the following estimates:

------------------------------------------------------------------------
                  Month                    All Homeless      Veterans
------------------------------------------------------------------------
October-November:
  One day estimate......................         346,000          79,580
  Annual estimate.......................       1,010,000         232,300
February:
  One day estimate......................         637,000         146,510
  Annual estimate.......................       1,715,000         394,450
------------------------------------------------------------------------

    It should be noted that the data analysis for the NSHAPC Study was 
completed by the Urban Institute. Ten years prior to the NSHAPC Study, 
in 1986, the Urban Institute completed a landmark study of homelessness 
in America. Results from the earlier study provided a one-day estimate 
of approximately 250,000 homeless veterans, which was approximately 
one-third of the estimated adult homeless population at that time. 
Extrapolation from the earlier data suggested that the annual estimates 
of veterans who experienced episodes of homelessness was 2 or 3 times 
higher than the one day estimates. Therefore, the previous annual 
estimate was 500,000 to 750,000 homeless veterans.
    Comparing the results of the earlier Urban Institute Study with the 
NSHAPC Study suggests a decline in the number of homeless veterans. 
However, it should be noted that survey methodologies for the two 
studies were not identical.
    VA plans to contract with the Urban Institute for further analysis 
of the NSHAPC Study data on homeless veterans.
    Approximately 40,000 veterans receive VA treatment from specialized 
homeless prog rams each year with at least 100,000 receiving VA 
treatment services from any VA health care program each year.
                                 ______
                                 
    Please find attached a copy of the report from the Congressional 
Research Service that provides information on funding of Federal 
department and agency programs to assist homeless people including 
veterans.
                                 ______
                                 
    VA is not in a position to evaluate the activities of the various 
Federal departments and agencies in addressing the issue of 
homelessness among veterans. VA will discuss your interest in such an 
evaluation at the next meeting of the Interagency Council on the 
Homeless.

    Senator Wellstone. Let me go along with Senator Campbell. 
Although, Senator Specter, some of the answers to some of your 
questions, all of which were important, I think you are going 
to--some of the other panelists I think will speak to some of 
what is going on or not going on, where coordination is, where 
they aren't, where programs interrelate, where they don't. We 
have got some people that are down in the trenches that can 
speak to some of that, I think, and probably in an almost 
better way than the people in Washington can. We will hear from 
some other panelists on that.
    Senator Specter. I would be anxious to hear that. I am 
going to have to excuse myself. We have an Appropriations 
Committee markup, and it may even be more important to keep the 
funds rolling than to keep the words rolling.
    Senator Wellstone. Right. But given your intense interest 
in this area, I will make sure that we get everything to you.
    Senator Specter. Thank you very much.
    Senator Wellstone. Absolutely.
    Senator Campbell?
    Senator Campbell. Mr. Chairman, thank you. I am also going 
to have to leave shortly because we are having a VA markup in 
just 10 minutes. I had a couple of quick questions. But, Mr. 
Chairman, with your permission, there is someone in the 
audience I would like to introduce, if I could.
    Senator Wellstone. Absolutely.
    Senator Campbell. You know, time fades our memories about 
locations and dates and events and so on. It has been 46 years 
since World War II ended, and most Americans, I think the young 
ones, in fact, don't know much about the history of the battles 
of the South Pacific. But those of us who are a little bit 
older remember very well, from what our dads told us when we 
were youngsters and reading. I would like to acknowledge some 
people in the audience that were our wartime allies. In fact, 
some of them were imprisoned with our Americans in prison camps 
in World War II in the South Pacific, some were on the Bataan 
death march with Americans, and some of their friends, lost 
their lives in that. They are people that I have always 
considered to be great warriors in the battle for democracy. 
They are the members of the Filipino Veterans Association, who 
are all in the back. If they could stand up just for a moment? 
Would you stand up for a minute, all the folks in the back?
    [Applause.]
    Senator Campbell. I don't think, Mr. Chairman, that we have 
ever really acknowledged the price that they paid because when 
General MacArthur left, they were still there and fighting the 
resistance. When he came back, they were still there, or the 
ones who hadn't been found out and summarily imprisoned or 
killed. So I think we have a great debt of gratitude. I am sure 
they are here to hear about Senator Inouye's bill.
    Let me just ask a couple of quick questions, and I don't 
know, Mr. Chairman, maybe you can answer them rather than our 
witnesses. But in reading S. 739, which, by the way, I support 
the concept and appreciate your leadership on it, I was 
concerned about a section regarding the grant assistance pilot 
program that would give cash payments to veterans. How would we 
determine--I mean, how would we document them if they are 
homeless, and, in fact, how would we monitor where the money 
goes? Will they be victimized on the streets, or if someone 
were addicted to alcohol or drugs, would it be used for that 
instead of some productive end? And wouldn't it be better if we 
focused attention on the needs of the veterans through some 
program that dealt with their mental health, their substance 
abuse, employment services and so on rather than grants?
    Senator Wellstone. The VA itself has raised some concerns 
about Section 16, and we can certainly start with Dr. 
Garthwaite. I also will tell you that, Senator Campbell, as we 
go back to the legislation, this is an area where, while I 
don't agree with the VA on some of these issues, I think they 
are right in raising these concerns, and you are, too, and I 
think it is something we can work together on.
    We are going to have to figure out some innovative ways of 
doing this. I think we are going to also hear from some of the 
panelists on this as well. But while we have got Dr. Garthwaite 
here, why don't we--
    Dr. Garthwaite. I think our major concern was that if we 
didn't insist that part of the payment included some 
therapeutic intervention, that the reasons they are homeless in 
the first place might not be being addressed. It might be that 
it was a quick assessment and they are confident and they just 
need to get over a financial hump, in which case it might be 
relatively easy. Or it might be they need fairly long and 
intensive therapy for alcohol or drug abuse or for mental 
illness.
    And so we believe there really should be a mental health 
evaluation and then appropriate treatment in conjunction with 
this rather than just a payment, which might just continue to 
actually feed the problem as opposed to helping.
    Senator Campbell. That was my concern, too, but certainly 
this is a good vehicle to start with, and I look forward to 
helping you with it. I will have to excuse myself also for the 
markup.
    Senator Wellstone. Thank you, Senator Campbell.
    Senator Jeffords?
    Senator Jeffords. Thank you, Mr. Chairman.
    First, let me commend the Filipino veterans. The New 
England 43rd Division, which was led by my next-door neighbor, 
General Wing, was critical in the liberation of the 
Philippines, and so I just want to give my praise and thanks to 
you all. That is a great part of my memories.
    Dr. Garthwaite, in Vermont, as in most rural areas, we have 
unique challenges in meeting the needs of homeless veterans. We 
have very little public transportation. We have very little 
transitional housing. In Vermont, we have no VA shelters for 
short-term homelessness. Years ago, Secretary Brown provided 
the local facilities with the authority to contract out local 
community resources serving homeless. They could arrange to pay 
these organizations to take care of veterans on a per capita 
basis.
    My State of Vermont is having some considerable success at 
doing this now, but only at the expense of other programs in 
the VAMC's budget. In fact, they are concerned that with the 
advent of the care line system, the White River Junction 
administrator will lose his flexibility to do this. Are you 
considering any way to take care of this problem?
    Dr. Garthwaite. I understand the competition for dollars 
and the challenges that we have in getting the dollars in the 
right places and meeting all the competing health care needs, 
but I don't know that care line management should in any way 
interfere with this. In fact, some of our networks that have 
gone to mental health care line management have the most 
comprehensive and aggressive mental health outreach programs of 
any. I would probably point you to VISN 10 where they have 
really done it well. For essentially the whole State of Ohio, 
they have a comprehensive way that they identify the population 
that needs help and then design services to get to them, 
regardless of whether they live next to a medical center or 
not. Some of that is contracted with local providers and some 
of it is building programs of our own.
    So I don't see that they are inherently in conflict, but I 
think that we should make sure that, regardless of whether it 
is a care line structure or the more traditional facility-based 
organization, that the end result is that homeless veterans are 
getting the care they need, whether we provide it directly by 
VA providers or contract.
    Senator Jeffords. Our homeless veteran coordinators at the 
facility level are in most cases temporary positions. How can 
we assure that we deliver top-quality care over the long term 
if the very coordinators of such are not in permanent jobs?
    Dr. Garthwaite. I am not sure--I mean, I guess because some 
of these are done under pilot programs and grants, they are 
hired initially as temporary in most cases where they are 
meeting the legitimate need of veterans, and certainly in this 
case, a high-priority need of veterans, those in our special 
programs such as mental health. Many of those pilot programs 
get converted over to permanent as we identify the resources 
and identify the value of the program.
    If it is truly a pilot program to learn how to do and how 
to do it well and what the need is, then sometimes the people 
are hired in temporary positions because really it is temporary 
funding. But the goal is, if it is working, then to fold it 
into our day-to-day operations and make it permanent.
    Senator Jeffords. Well, thank you. I just wanted to raise 
that question.
    Dr. Garthwaite. Very good question.
    Senator Wellstone. Thank you.
    Chairman Rockefeller is here.
    Chairman Rockefeller. I am in an embarrassing position. I 
delivered a magnificent colloquy--no. Is colloquy singular or 
plural--soliloquy, that was it, last time about how members 
don't show up. And I have just shown up, and I am going to 
leave because Senator Wellstone and I worked out that it was 
important for him to chair this hearing because of his passion 
on this issue. Not that I lack that, but just that, you know, 
you get Senator Wellstone on a subject, you are going to have a 
good hearing. And so this hearing is his, as it ought to be.
    The thing that I am about to go to has to do with people 
who lose jobs to overseas places, and so they are dumped and 
they are 45, 48 years old, and they become chaff to the 
country. And the country purports to have a policy called trade 
adjustment assistance. But the policy in effect doesn't in any 
way change their lives for the better. They lose their health 
insurance. They can't possibly get trained to do anything of 
significance because we don't invest in it.
    And it strikes me, in fact, as almost a direct parallel to 
America's capacity to take people who have worked all their 
lives or who have served all their lives and served their 
country for portions of their lives or all of their lives, and 
then cast them away.
    I watched, Senator Wellstone, just by coincidence, that 
movie, ``Born on the 4th of July'' about 4 or 5 days ago. It is 
one of the great movies of American history, but I think it 
describes in essence--it ends with whoever the star is, Richard 
Gere or whoever it is--Tom Cruise, yes, and he says, ``I think 
I'm beginning to come home.'' And he is going into a 
convention. And all I could think of is: Why is that home? 
Because it may have been with a political party with which he 
felt more affiliation. I don't know that. But he didn't have a 
job. He was still very messed up, could just as easily have 
been homeless but for the fact that he had a family which chose 
not to allow that to happen. He, in effect, became homeless by 
going off to live in Mexico for what is an undesignated period 
of time, which I took to be a rather long period of time, in 
which case it was an enormous deterioration of life, no 
motivation, reinforcement, in fact, on the negative fashion 
from others who had suffered, you know, the mildest way of 
putting it would be PTSD, but who had basically been ruined, 
disillusioned, cut in half, in quarters, and returned to 
American soil.
    And I suspect that Paul Wellstone, although I know he has 
seen that movie, doesn't need to because I think we are talking 
about the same thing here. And you really raise the question 
how does that happen in America, and how does that happen after 
we in Congress have been talking about it for so many years and 
the percentage doesn't change and the situation doesn't change.
    I presume it got a little bit better during the up economic 
years, but I don't think so, maybe by a couple of percentage 
points, but that was probably about it. And then you have 
something called the Department of Veterans Affairs and, you 
know, the VA has that etched carving above its wall at its 
entrance point, and somehow these folks have managed to elude 
the systemic care or attention which other people in a more 
conventional sense and a much better sense get. And then you 
say how does that happen, and the answer is because we are 
all--many of us have not fought in wars, many of us have fought 
in wars. Many of us have experienced different kinds of lives.
    But there are always certain things that we are always able 
to count on, and so it raises the question when people are 
brought up in a way in which they can count on certain things 
in life which stabilize their life, you know, what is their 
willingness to go out and take a completely misunderstood and 
deteriorating--in self-esteem, health, and every other way--
human being who may be only part of a human being physically, 
and only part of a human being psychologically, but a full 
human being in the sense that God intended the word. And we 
can't deal with it, we don't deal with it.
    You know, Paul Wellstone and I have given, I think--and I 
am over my time, and I apologize, Senator Wellstone. But he and 
I both believe in Government, and we understand that most of 
America thinks that most of what goes wrong goes wrong in this 
city. But we don't share that point of view, and, in fact, our 
point of view is rather different, and that is that what goes 
on in this city is only about two-thirds of the speed that it 
ought to be going on. And when it comes to homeless veterans, 
when it comes to homeless people, when it comes to broken 
people, when it comes to the children of returned Persian Gulf 
War veterans who are deformed, or whether it comes to atomic 
veterans who are still waiting for things which were meant to 
have been promised, but the Government says, I am sorry, we 
don't have any more money, well, there are reasons for that, 
because we have done things to cause that to happen, to let 
there be no more money. Or we are so overwhelmed or because we 
in our party, Senator Wellstone, have boasted about the fact 
that Government is smaller in personnel, is no bigger than it 
was during the time of President Kennedy, and then we think 
that is a really great thing. Well, in the meantime, problems 
have gotten 35 times more difficult, so you are asking fewer 
people or as many people to do many more things. And, of 
course, there are always predictable losers, and this hearing 
is about the ultimately predictable loser in this, through no 
fault of theirs, that is for sure.
    If I had gone through in a real life form, what Tom Cruise 
as a warrior in that war went through, the way he went into it, 
the way he came out of it, I would be looking to one place. I 
would be looking to Government. And I don't think there is any 
other place he has any moral responsibility to look to than to 
Government. And if he served his country, it is case closed.
    Let me just say that, Senator Wellstone, and I know you 
don't disagree with anything I say.
    Senator Wellstone. No.
    Chairman Rockefeller. I just wanted to put that on the 
record.
    [The prepared statement of Senator Rockefeller follows:]

 Prepared Statement of Hon. John D. Rockefeller IV, U.S. Senator From 
                             West Virginia

    Good morning. I'm very pleased to open the hearing today 
and welcome our witnesses.
    Homelessness is a tremendous problem in this country, one 
which, unfortunately, plagues veterans more than any other 
segment of our population. I am astounded by the fact that 
roughly one-third of the homeless population in this country--
about 300,000 people--are veterans. This truly is a national 
disgrace.
    Over the last 10 or 15 years, VA has done much for homeless 
veterans and has undertaken many measures to help combat this 
problem. However, there is still more that can and should be 
done. Today's hearing will allow us all the opportunity to hear 
what VA and community-based service providers are doing 
successfully, as well as to find out what more is needed.
    Unfortunately, I have a prior commitment this afternoon. I 
am therefore turning over the gavel to my good friend, Senator 
Wellstone. He is a leader on the issue of homelessness, so I 
know we are in good hands. I will, of course, review everyone's 
testimony--on the Heather French Henry bill and on the other 
legislation listed on our agenda--in advance of the Committee's 
markup now scheduled for July 31. Thank you for your appearance 
here today.

    Senator Wellstone. I don't disagree with anything you said. 
I just couldn't say it as well. Thank you. I could build on it, 
but I don't want to.
    While you are here, Mr. Chairman, could I just summarize 
with Secretary Garthwaite and say this: My understanding from 
what you have said today in terms of where the Veterans 
Administration is, is you do not disagree with these words that 
have just been uttered. You do not disagree that this is a 
moral outrage, that we should be doing much better. You agree 
with the concept conceptually. You are in agreement with the 
bill. There are some provisions of the bill you strongly 
support. There are some provisions of the bill where you think 
we need to work together. There are a couple of provisions 
where you don't agree. Is that accurate? But overall we are 
taking the same journey, correct?
    Dr. Garthwaite. Absolutely.
    Senator Wellstone. And this isn't going to be symbolic of 
politics where we talk about it and don't do anything. You are 
in agreement we are taking the same journey and we are going to 
get something done here. Is that correct?
    Dr. Garthwaite. Absolutely. Same goal.
    Senator Wellstone. OK. I thank all of you.
    We are going to go to the next panel: Linda Boone, 
executive director of National Coalition for Homeless Veterans; 
Jimmie Lee Coulthard, president and CEO of Minnesota Assistance 
Council for Veterans; Richard Schneider, director of Veterans 
and State Affairs, Non Commissioned Officers Association of the 
United States of America, and chairman of the Veterans 
Organizations Homeless Council; and Daniel Shaughnessy, member, 
Local 495, American Federation of Government Employees, who is 
an addiction therapist.
    If you all are OK with this, we will just go in the order 
that I called you up. That means we will start with you, Linda.

    STATEMENT OF LINDA BOONE, EXECUTIVE DIRECTOR, NATIONAL 
        COALITION FOR HOMELESS VETERANS, WASHINGTON, DC

    Ms. Boone. Mr. Chairman, the National Coalition for 
Homeless Veterans is very supportive of the intent of S. 739, 
the Heather French Henry Homeless Veterans Assistance Act, as 
the companion to the House bill H.R. 936, introduced by 
Representative Lane Evans, to provide for a wide range of 
services to homeless veterans and to begin focus on issues of 
prevention.
    In our written testimony, we provide discussion points 
around contents of the bill that we have strong opinions about. 
In this oral testimony, I will focus on the priority issues we 
have within the bill.
    The VA Homeless Providers Grant and Per Diem Program 
currently is assigned funding internally within the VA as 
approximately $35 million. The grant piece provides funding for 
the bricks and mortar for new programs, and the per diem piece 
provides for a daily payment of up to 50 percent for a maximum 
of $19 per day to provide services to the veterans housed under 
the grant piece.
    NCHV supports a new flat fee formulate based on the State 
home domiciliary rate because it is a good comparison model for 
types of services provided. Additionally, we recommend a 
permanent authorization allowing existing programs to have 
access to the per diem to allow for program expansion that does 
not require the bricks and mortar piece.
    NCHV believes the Grant and Per Diem Program should be at 
$120 million funding level and a budget line item. The $120 
million would add approximately 9,000 beds with the increased 
per diem rate to a total of approximately 14,000 beds.
    NCHV also feels that there needs to be a future vision of 
how to turn these transitional beds into a mix of transitional 
and long-term, permanent supported housing. The current grant 
program has employment as an expected outcome for all the 
veterans transitioning through the program. However, many 
veterans are not able to work or live without continued 
supportive services on a daily basis. Some of these veterans 
need alternatives to independent living, and the CBO system, 
the community-based organization system, has the experience and 
the programs in place that could support the future needs of 
these veterans.
    It is very clear that it takes a network of partnerships to 
be able to provide a full range of services to homeless 
veterans. No one entity can provide this complex set of 
requirements without developing relationships with others in 
the community. Community-based non-profit organizations are 
most often the coordinator of services because they house the 
veterans during their transition. These community-based 
organizations must orchestrate a complex set of funding and 
service delivery streams with multiple agencies in which each 
one plays a key critical role.
    The veteran CBO system faces a capacity gap around managing 
this complexity in order to respond successfully to the 
distribution system for funds and then, if awarded funds, the 
resources to pay for the management and financial reporting 
system to properly service these funds.
    We urge this committee to consider getting capacity-
building services into the hands of the CBO homeless veteran 
provider group. While NCHV has been doing this, it has been 
done in a limited way without the benefit of Federal funds. We 
ask you to consider authorizing an allocation of $750,000 each 
year through 2007 to NCHV to build the capacity of the veteran 
service provider network.
    The Homeless Veterans Reintegration Program managed through 
the Department of Labor VETS is virtually the only program that 
focuses on employment of veterans who are homeless. Helping 
veterans get and keep a job can be the most essential element 
in their recovery and reintegration for those that work is a 
realistic outcome.
    HVRP programs work with veterans who have special needs and 
are shunned by other programs and services, veterans who have 
the very bottom, including those who have legal issues and 
those who are HIV-positive, those with severe PTSD and those 
with substance abuse. These veterans require more time-
consuming, specialized, intensive assessment, referrals, and 
counseling than is possible in other programs that work with 
veterans seeking employment. NCHV recommends an investment of 
$50 million per year in HVRP to assist veterans in becoming 
self-sustaining and responsible taxpaying citizens. Fifty 
million dollars is only $100 for each of the over 500,000 
veterans that is estimated are homeless during a year.
    NCHV Board believes that ending homelessness among veterans 
is not a mission impossible, but a mission possible in the next 
few years, and we look forward to your continued support.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Boone follows:]
    Prepared Statement of Linda Boone, Executive Director, National 
            Coalition for Homeless Veterans, Washington, DC
    Chairman Rockefeller and Committee members:
    The National Coalition for Homeless Veterans (NCHV) is committed to 
assisting the men and women who have served our Nation well to have 
decent shelter, adequate nutrition, and acute medical care when needed. 
NCHV is committed to doing all we can to help ensure that the 
organizations, agencies, and groups who assist veterans with these most 
fundamental human needs receive the resources adequate to provide these 
services to perform this task. Our veterans served us faithfully, often 
heroically. Each of us can do no less than to do our part to ensure 
that these men and women are treated with dignity and respect.
    NCHV believes that there is no generic and separate group of people 
who are ``homeless veterans'' as a permanent characteristic. Rather, 
NCHV takes the position that there are veterans who have problems that 
have become so acute that a veteran becomes homeless for a time. In a 
great many cases these problems and difficulties are directly traceable 
to that individual's experience in military service or his or her 
return to civilian society.
    The specific sequences of events that led to these American 
veterans being in the state of homelessness are as varied as there are 
veterans who find themselves in this condition.
    It is clear that the present way of organizing the delivery of 
vitally needed services has failed to assist the veterans who are so 
overwhelmed by their problems and difficulties that they find 
themselves homeless for at least part of the year.
    The National Coalition for Homeless Veterans (NCHV) is very 
supportive of the intent of S. 739, ``Heather French Henry Homeless 
Veterans Assistance Act'' introduced by Senator Wellstone, as the 
companion to the House bill H.R.936 introduced by Representative Lane 
Evans, to provide for a wide range of services to homeless veterans and 
to begin focus on issues of prevention.
    The following are discussion points around contents of the bill 
that we have strong opinions about. We have indicated the three 
priority issues we have within the bill.
                        chaleng data (section 2)
    First start with the data. Congress recognized the need for the VA 
to play a leadership role within communities they serve by passing 
legislation (PL102-405) requiring the VA to assess and coordinate the 
needs of homeless veterans living within the area served by the medical 
center or regional office. Since that legislation passed the VA has 
made progress towards implementing community meetings, Community 
Homelessness Assessment, Local Education and Networking Groups 
(CHALENG) for Veterans, in approximately 90% of their locations. There 
are many local CHALENG processes that are meeting the full intent of 
the law passed by Congress and are providing valuable coordination of 
services to homeless veterans. However, not all medical centers have 
implemented this law or have minimally met the intent by surveying 
providers without a controlled assessment process.
    NCHV is surprised that in the Fifth Annual Progress Report, 
published August 29, 1999 for the 1998 fiscal year, childcare came as 
the number two item of the unmet needs for homeless veterans. NCHV 
members are concerned that this conflicting data with their front line 
experience with homeless veterans distorts the entire validity of the 
CHALENG process and will misdirect the VA in their resource allocation 
for services to homeless veterans.
    NCHV wants Congress to impress upon the VA the critical need for 
the VA to take a tangible leadership role to assess and coordinate 
services in communities for homeless veterans in a consistent and 
complete manner throughout the VA.
    The Urban Institute produced a report for the Interagency Council 
On the Homeless, for the survey that was conducted in 1996 titled 
``Homelessness: Programs and the People They Serve'' released in 
December 1999 that has become the report that is used as the baseline 
in demographic data for homelessness in America. That report found 23% 
of all homeless individuals are veterans.
    In February 2001 the Urban Institute released census information on 
the homeless population that was done in conjunction with the 1996 
survey. Their conclusion is that at least 2.3 million people, or nearly 
1% of US population are likely to experience homelessness at least once 
during a year. This would equate veterans experiencing homelessness to 
be 529,000 during a year.
    Further they found that there is a high seasonal variation in 
homelessness, with 842,000 individuals (193,660 veterans) being 
homeless during an average February week and in October 444,000 
(102,120 veterans) individuals.
    This conflicts with the CHALENG data that we find suspect based on 
the inconsistent process of data gathering and reporting.
                     advisory committee (section 4)
    NCHV is very pleased that Secretary Principi has started to 
implement this piece without a Congressional mandate. We believe it is 
essential to have a formal mandated process in place that would provide 
an unfiltered and unrestricted channel of information to the VA 
Secretary concerning the issues affecting homeless veterans when future 
Secretaries are confirmed.
                         evaluation (section 6)
    Currently Northeast Program Evaluation Center (NEPEC) is the only 
source of information reporting on homeless veterans used within the 
VA. It does not collect information from organizations outside the VA 
that serve homeless veterans. So currently there is no real data that 
can quantify the continuum of care services to homeless veterans 
nationwide or even by VISN.
    (a) NCHV wants Congress intent language that states VA is to 
contract with outside group to do evaluation.
    (b) Advisory Committee or community-based organizations (CBOs) need 
to specify what information is needed and information is to be made 
public.
    Explicit information about programs such as CWT-TR, and domiciliary 
care needs to be spelled out in bill language so a comparison will be 
done between CBO and VA run programs in the study. NCHV's belief is 
that VA provided housing is much more costly than that provided by 
CBOs. We also believe that the VA should be providing needed health 
care not managing transitional housing for homeless veterans.
                            vera (section 7)
    The proposal in this bill would mandate that homeless veterans be 
designated as complex care patients and therefore the medical center 
would receive a higher allocation and an incentive to treat their 
complex needs.
    Currently in many facilities homeless veterans are seen as cash 
flow losers. The VA model provides for increased revenue by the degree 
of difficulty for providing services to veterans. By designating 
homeless veterans as complex care patients it will assure the resources 
are available to treat these veterans with higher needs.
    Part (4) of this section addresses the need for housing coupled 
with treatment. Here again NCHV would like the emphasis to be on 
housing provided by CBOs not the VA.
    NCHV clearly wants VA contracts and collaborations with CBOs but we 
also want the VA in the health care business not in CBO business.
    per diem piece of homeless providers grant and per diem program 
                              (section 8)
    This section deals only with the rate of per diem. Section 14 deals 
with total authorization/appropriation for Homeless Providers Grant & 
Per Diem Program.
    This provision removes the match requirement from the per diem 
formula and makes the payment per bed a flat fee. It also makes the fee 
the same as the state home domiciliary formula.
    NCHV supports this new formula based on the state home domiciliary 
rate because it is a good comparison model for types of services 
provided and compensation for those services. In addition removing the 
match requirement lightens the paperwork burden on the grantees and the 
VA. The current match requirement does not allow for in kind services 
to count towards the match, only hard dollars are allowed which can 
often create unnecessary hurdles for CBOs.
                    special needs grants (section 9)
    NCHV believes the $5million called for in these special grants 
should be used for CBOs not to provide incentives for the VA to treat 
homeless veterans with special needs, which is already part of their 
mandate. Here again the VA would be given authority to create housing 
programs and NCHV feels strongly that VHA should not be in the housing 
business.
    The study called for in this section NCHV feels should be done by 
outside contractor and part of the funds should be used to provide for 
long-term follow up to effectively gather results data.
                 coordination of outreach (section 10)
    This section addresses prevention of homelessness among veterans 
that has long been ignored. It we are to reach the goal of ending 
homelessness among veterans some resources need to be focused on 
prevention efforts.
    NCHV would like Congress to set this as a priority for the 
Department of Veterans Affairs.
          programmatic expansions (section 13) priority issue
    Approximately 5000 transitional housing beds will be available 
funded through the Homeless Providers Grant and Per Diem program for 
veterans of which 2,076 are currently activated. The need for increased 
funding for beds through this program has never diminished since its 
inception. There is an un-addressed need for housing that is safe, 
clean, sober and has responsible staff to ensure that it stays that 
way, and that supportive services are regularly provided as to be 
sufficient to help veterans fully recover as much independence and 
autonomy as possible.
    The Homeless Providers Grant and Per Diem Program currently is 
assigned funding internally within the VA at approximately $35 million. 
The ``grant'' piece provides funding for the ``bricks and mortar'' for 
new programs and the ``per diem'' piece provides for a daily payment of 
up to 50% for a maximum of $19 per day to provide services to the 
veterans housed under the ``grant'' piece. The grantees are required to 
obtain matching funds to the complete the 50% not funded through the 
VA.
    NCHV supports a new flat fee formula based on the state home 
domiciliary rate because it is a good comparison model for types of 
services provided and compensation for those services. In addition we 
recommend removing the match requirement that would lighten the 
paperwork burden on the grantees and the VA. The current match 
requirement does not allow for in kind services to count towards the 
match, only hard dollars are allowed which can often create unnecessary 
hurdles for CBOs. Additionally we recommend a permanent authorization 
to allow existing programs to have access to the ``per diem'' piece to 
allow for program expansion that does not require ``bricks and 
mortar''.
    NCHV believes the Homeless Providers Grant & Per Diem should be at 
$120 million funding level and a budget line item. The current level of 
funded beds is 5000 for an investment of about $35 million. If funding 
stays at the $35 million level there would be a need to cut 1000 beds 
when the new per diem increase became effective.
          $43 million needed to remain at same 5000 bed level with 
        increased per diem rate
          $50 million would add 813 beds with increased per diem rate 
        to total 5813 beds
          $100 million would add approximately 6600 beds with increased 
        per diem rate to total 11,628 beds
          $120 million would add approximately 9000 beds with increased 
        per diem rate to total 13,953 beds
    The demand for this grant program far exceeds its current funding 
level. Every year programs get turned down usually because of lack of 
funding.
    Grant applications rejected:
          2000-64
          1999-42
          1998-67
          1997-62
          1996-57
          1995-67
          1994-67
    NCHV also feels there needs to be a future vision of how to turn 
these transitional beds into a mix of transitional and long term 
permanent supported housing. The current grant program has employment 
as an expected outcome for all veterans transitioning through the 
program. However many veteran are not able to work or live without 
continued supportive services on a daily basis. Some of these veterans 
need alternatives to independent living and the CBO system has the 
experience and programs in place that could support the future needs of 
these veterans.
    NCHV is concerned that there is a tendency to provide the authority 
to the VA to create housing programs and other competitive services 
that CBOs are currently providing. We believe that the VA should 
provide the medical services and the CBOs can provide the other 
supportive services within the continuum of care for homeless veterans.
Comprehensive Homeless Services Program
    NCHV is concerned that this section of the bill once again gives 
the authority to the VA to create housing programs and other 
competitive services that CBOs are currently providing. We believe that 
the VA should provide the medical services and the CBOs can provide the 
other supportive services within the continuum of care for homeless 
veterans.
Opioid
    NCHV member organizations do not support this alternative addiction 
program. This is an extremely costly program to make available at all 
medical centers.
                    various authorities (section 14)
    (c) NCHV would like to see an alternative in the staffing 
requirement at VBA dedicated to addressing the needs of homeless 
veterans. Instead of strictly a VBA employee make it possible for VBA 
to contract with local CBOs who may have more experienced staff in 
dealing with the unique problems of homeless veterans.
       transitional assistance grants pilot program (section 16)
    This is an ill-advised proposition in NCHV member organizations' 
opinion. Giving money to veterans in transition would constitute a give 
away that all were entitled to. Even with a payee representative we 
feel there would be significant abuses.
    Additionally this program would be hard and costly to implement 
through VBA. In the FY2002 budget documents it already predicts that 
the timeline for processing claims will extend by an additional 100 
days. Adding this program to VBA will not be to any veteran's 
advantage.
    An alternative would be to provide NCHV with annual funds that 
could be disbursed to CBOs so there was a screening process that was 
quick compared to DVA.
            technical assistance (section 17) priority issue
    It is very clear that it takes a network of partnerships to be able 
to provide a full range of services to homeless veterans. No one entity 
can provide this complex set of requirements without developing 
relationships with others in the community.
    Community-based nonprofit organizations are most often the 
coordinator of services because they house the veterans during their 
transition. These community-based organizations must orchestrate a 
complex set of funding and service delivery streams with multiple 
agencies in which each one plays a key critical role.
    There are a wide variety of Federal, state and private funds that 
veteran service providers are eligible for in the course of serving 
homeless veterans. The challenge is in accessing them. Many veteran 
specific providers lose several years before being able to position 
themselves to successfully compete and receive ANY federal, state or 
local agency funds.
    The current prevailing public policy of devolution increases 
likelihood that Federal dollars are ultimately allocated through a 
ranking process subject to local viewpoints. At the local level the 
common perception is that veterans are taken care of by the VA. Some 
are, yet most are not. These perceptions can be a barrier to homeless 
veterans service providers' access to funds. It is a reality that must 
be reckoned with in order to compete successfully.
    When a local group is forced into priority recommendations that 
choose between needy men, women, and/or their children, it is a 
challenge to argue for displacing the funding for women and children in 
favor of a man (who's a veteran the ``VA is taking care of'' anyway!). 
Sometimes a homeless veteran has his family still together, and 
obviously some homeless veterans are women, but these conditions are 
the exceptions.
    Consistently at around $1 billion annually, the biggest piece of 
funding currently on the table is available from targeted HUD funds 
through the Super NOFA for Supportive Housing Programs (SHP). 
Historically only 3% of these grants are awarded to veteran specific 
programs. Three percent, when a quarter of the homeless are veterans. 
Any other help HUD grants give to veterans is purely by chance, and we 
have no information on whether the rest of the money reaches veterans.
    The distribution system for these McKinney Act funds follow a 
devolution policy that organizes priorities for allocation of formula 
share dollars at a local level within a continuum of care. The 
Continuum of Care prescribes a planning process built on a community-
by-community model. Within each community, a planning process takes 
place in which advocates and service providers describe the problem, 
access the current resources available, and decide what needs to be 
done using the ``targeted'' McKinney programs, which total $1.2 billion 
annually. Overall federal funding to assist the poor is about $215 
billion annually and is not synchronized with targeted homeless 
assistance funds. So, these funds need to be accessed differently.
    Until such time as a homeless veteran provider is able to convince 
the organizations that make up the local continuum of care that it is 
in THEIR best interest to juggle their dollars in a way to allow a 
veteran provider to the table, a veteran specific program typically 
gets ranked out of the money (if it even got ranked in the continuum at 
all). Veteran service providers report it takes several years of 
analysis, networking, program/funding design, and negotiations to be 
able to show that giving a high priority to a relatively small piece of 
HUD Supportive Housing Programs dollars for a veteran provider is in 
the community's best interest. A veteran provider can access support 
service money and a clinical care system (the Department of Veterans 
Affairs) available for veterans only. This leverages resources that can 
off-load the community care system of the veterans currently occupying 
beds and free up capacity that then becomes available for women, 
children and other special needs population. At one level, this is the 
market economy operating at its best but it is complicated, to say the 
least.
    The veteran community-based organization system faces a capacity 
gap around managing this complexity in order to respond successfully to 
the distribution system for accessing funds and then if awarded the 
resources to pay for management and financial reporting systems to 
properly service those funds.
    The point here is to underscore the complexities involved in 
successfully responding to the streams of funding available and 
necessary to combine together adequate budgets in a sufficiently broad 
geographic area to put on a reasonable array of services for homeless 
veterans. Most community-based organizations throughout the country 
struggle to respond to this system of distribution of federal funds.
                             some solutions
    In 1990, seven homeless veteran service providers established the 
National Coalition for Homeless Veterans (NCHV) to educate America's 
people about the extraordinarily high percentage of veterans among the 
homeless. These seven providers are considered to be true original 
warriors for the cause. All former military men, they were concerned 
that people did not understand the unique reasons why veterans become 
homeless and the fact that these men and women who defended America's 
freedom were being dramatically under-served in a time of personal 
crisis. In the years since its founding, NCHV's membership has grown to 
245 in 44 states and the District of Columbia.
    I urge this committee to consider finding ways to get capacity 
building services into the hands of the community-based care provider 
group attempting to serve veterans. It is squarely within the mission 
of NCHV to help formulate this capacity. While NCHV has been doing 
this, it's been done in a limited way without the benefit of any 
federal funds. I ask you to consider authorizing an allocation $750,000 
FY 2002 and each year thereafter through FY2007 to the National 
Coalition for Homeless Veterans to build capacity of the veteran 
service provider network. The goal would be to significantly increase 
access to the federal, state and private funding streams and to enhance 
the efficiency of utilization for those currently accessing these 
streams.
                 employment (section 19) priority issue
    Work is the key to helping homeless veterans rejoin American 
society. As important as quality clinical care, other supportive 
services, and transitional housing may be, the fact remains that 
helping veterans get and keep a job can be the most essential element 
in their recovery and reintegration for those that work is a realistic 
outcome.
    The Homeless Veteran Reintegration Program (HVRP) managed through 
the US Department of Labor, Veterans Employment and Training Service is 
virtually the only program that focuses on employment of veterans who 
are homeless. Since other resources that should be available to our 
member organizations to fund activities that result in gainful 
employment are not generally available, HVRP takes on an importance far 
beyond the very small dollar amounts involved.
    The Homeless Veteran Reintegration Program is a job placement 
program begun in 1989 to provide grants to community-based 
organizations that employ flexible and innovative approaches to assist 
homeless, unemployed veterans reenter the workforce. Local programs 
offer employment and job-readiness services to place these veterans 
directly into paying jobs. HVRP provides the key element often missing 
from most homeless programming--job placement.
    Through HVRP funds veterans gain access to civilian assistance, ex-
military benefits and entitlements, education and training 
opportunities, legal assistance, whatever is needed to begin the 
rebuilding process towards employment.
    HVRP programs work with veterans who have special needs and are 
shunned by other programs and services, veterans who have hit the very 
bottom, including those with long histories of substance abuse, severe 
PTSD, serious social problems, those who have legal issues, and those 
who are HIV positive. These veterans require more time consuming, 
specialized, intensive assessment, referrals, and counseling than is 
possible in other programs that work with other veterans seeking 
employment.
    This program has suffered since its inception because it is small 
and an easy target for elimination or reduced appropriations. Even DOL 
rarely asks for the full appropriation for HVRP in the budget they 
submit to OMB. Our coalition has spent the majority of its advocacy 
efforts in the past five years in keeping this program alive because it 
has been so vital in ending homelessness among veterans.
    HVRP is an extraordinarily cost efficient program, with a cost per 
placement of about $1,500 per veteran entering employment. Based on 
years of experience of our member organizations NCHV strongly believes 
that helping homeless veterans to get and keep a job is the key to 
reducing homelessness among veterans. NCHV recommends an investment of 
$50 million per year in HVRP to assists veterans in becoming self-
sustaining and responsible tax paying citizens.
    $50 million is only $100 for each of the over 500,000 veterans that 
is estimated are homeless at some point during the year.
    NCHV looks forward to working with this committee and the staff on 
solutions that will lead to the end of homelessness among veterans.
    NCHV's Board believes that ending homelessness among veterans is 
not a mission impossible but a mission possible in the next few years 
and look forward to your continued support.
    Mr. Chairman, thank you for this opportunity.

    Senator Wellstone. Thank you, Ms. Boone, for your excellent 
testimony. Excellent.
    Jimmie Lee Coulthard, welcome.

STATEMENT OF JIMMIE L. COULTHARD, PRESIDENT AND CEO, MINNESOTA 
        ASSISTANCE COUNCIL FOR VETERANS, MINNEAPOLIS, MN

    Mr. Coulthard. Thank you, Mr. Chairman.

    There is a solution. The tremendous fact for every one of 
us is that we have discovered a common solution. We have a way 
out of which we can absolutely agree, and upon which we can 
join in brotherly and harmonious action. This is the great news 
this book carries to those who suffer from alcoholism.

    That is from page 17 of the Big Book of Alcoholics 
Anonymous.
    Senate bill 729, the Heather French Henry Homeless Veterans 
Assistance Act, also is common ground and a common solution 
upon which we can agree and join in harmonious action. This 
harmonious action is to have a national goal to end 
homelessness among veterans and to achieve that goal in 10 
years.
    Thirty-plus years ago, each of has varied and opposite 
views and goals on most of the current issues of the time. The 
Vietnam war and serving in the military means something 
profound to most of us today and still has the emotions of that 
time in our hearts today. There were few voices of middle 
ground. It seemed to me you were for or against one side or the 
other. It seemed none escaped judgments from the other. Passion 
reigned in each camp. That passion is here today from both 
sides in a collective effort in support of ending a national 
shame by setting the goal of ending homelessness among veterans 
by taking certain action steps provided by the Heather French 
Henry Homeless Veterans Assistance Act.
    I have thoughts and ideas on each of these actions, and I 
will be brief in the outline.
    This goal, this bill, and action will require committed 
leadership from each of you. The saying ``Lead or get out of 
the way'' is very relevant in this situation. Secretary 
Principi, please hear and know that our last Secretary of 
Veterans Affairs did not do either, and the VA and veterans 
have paid a high price and lost ground for his inaction and 
lack of leadership.
    This bill, this goal must not become a political casualty 
from any party. There must be a willingness to come into each 
other's camp. This hearing speaks well of your hopes and 
intentions. It speaks well for those who have the courage and 
hope to extend the invitation to work together on this goal. 
Passion, courage, honor, and a willingness to do the right 
thing for others will carry us far. But it will require more.
    This national goal to end homelessness among veterans must 
be accepted by Veterans Affairs and the Veterans Affairs 
medical centers as a priority, and the care needs to be 
reimbursed as complex care. The VA is a health care provider 
and needs to keep its resources in this arena. One VA at all VA 
medical centers and VA regional offices must accept this goal 
and act as a complete partner in the community.
    HUD must stop the continuum of care discrimination against 
veterans and provide funds that are realistic. More than 3 
percent of their funds is the best they have done in the past. 
HUD is in the housing business and needs to step up to the 
plate and face the lack of concern they have around providing 
appropriate dollars for veterans experiencing homelessness. HUD 
should only be in housing.
    The Department of Labor employment programs such as the 
Homeless Veterans Reintegration Project need to be funded at 
much higher levels and in more areas. This is an excellent use 
of money directed toward employment, and this money will be 
returned in new employment taxes. Fifty million dollars is 
needed in the very near future for this effort.
    These agencies should stick to what they are best suited to 
provide and work with community providers to utilize their 
resources.
    It must be accepted by the Veteran Service Organizations 
and become more of a solution and provide leadership as well as 
money to local providers. These organizations could welcome 
these veterans into their ranks.
    The Advisory Committee on Homeless Veterans, I just cite 
one example, the great example, the Veterans Service 
Organizations could take a look at what the Disabled American 
Veterans Association has done nationally, and I know that all 
the Veteran Service Organizations could do more.
    Advocates for homeless veterans, there is no better 
organization than the National Coalition for Homeless Veterans 
and Linda Boone.
    I see my time is running out, and I just want to say that 
this evaluation, this idea of working with HUD, the Department 
of Labor, Health and Human Services, and VA, this interagency, 
they absolutely have to work together, what Senator Specter was 
talking about. It is so frustrating to have to do these grants 
on each one of these agencies' time lines when I personally 
think that it would not take much effort for them to get 
together. They are all working toward helping end homelessness 
among veterans. They could all use the same evaluation tool. 
They could all use the same outcomes. They could work together 
and really help providers such as Minnesota Assistance Council 
for Veterans do our mission. We all want to get there, but it 
sure doesn't seem like we are working in a coordinated effort 
to get there. I will stop right there.
    [The prepared statement of Mr. Coulthard follows:]
Prepared Statement of Jimmie L. Coulthard, President and CEO, Minnesota 
            Assistance Council for Veterans, Minneapolis, MN
                           Strategic Profile
          why minnesota assistance council for veterans exists
    Homelessness and its consequences are leading causes of personal 
and family suffering and community problems resulting in major health 
and social costs. We exist to directly help veterans and their families 
affected by homelessness and to serve, inform, educate and train others 
to carry our message of hope; and to set a national standard for caring 
and excellence working with veterans who are threatened by or are 
experiencing homelessness.
                           where we're going
Vision
    To be an enthusiastic proactive champion and national leader; 
creating and supporting alliances and partnerships that assists 
veterans who are threatened by or are experiencing homelessness.
                             our mission is
    To provide/coordinate preventive, transitional & permanent housing 
and supportive services for veterans who are experiencing homelessness 
or who are in danger of becoming homeless and who are motivated towards 
positive change.
                             we do this by
    Providing food and housing, coordinating employment, school and 
work hardening, in a structured program that is affordable. Our program 
environment is chemically/intoxication free, clean, and free of 
discrimination, harassment and violence.
                        we'll get there by . . .
Focusing on these organizational goals
    <bullet> To have a measurable positive impact on veterans' lives 
and our communities by providing/coordinating appropriate services and 
resources.
    <bullet> Continually improve our quality of teamwork and our 
dedication to meeting the needs of veterans by self and outside 
assessment.
    <bullet> Using innovation and collaboration to develop/coordinate 
new services that meet veteran' needs.
    <bullet> Daily attention to the stewardship of our human, financial 
and physical resources.
                           living our values
    We believe . . .
    <bullet> In promoting the respect and dignity of veterans in need 
and of our employees through caring and teamwork
    <bullet> That homelessness is a multi-dimensional circumstance 
requiring a multidisciplinary holistic approach for recovery
    <bullet> The philosophy of Alcoholic Anonymous provides the context 
for action and foundation for multi-dimensional, holistic recovery
    <bullet> In valuing our history
    <bullet> In being leaders, and requiring professional behavior and 
integrity from all staff and board members
    <bullet> Innovation, collaboration, and continuing education are 
essential in meeting these veterans needs--thus assuring our success
    <bullet> That our veteran staff, who have experienced homelessness, 
are essential to our success
                   strengthening our core competency
    Our core competency is our ability to use knowledge gained through 
experience, continuous learning, as well as, community collaborations 
and realizing the need for a multi-disciplinary, holistic approach 
working with these veterans and their families.
      remembering, ``to thine own self be true'' organizationally
    We value military service, compassion, accountability, justice, 
dignity, respect, commitment, tradition, and community. We value and 
believe people have the ability to change with quality education, 
treatment that requires self-responsibility, commitment and 
persistence. We believe in a safe, sustainable living environment. We 
believe our relationships carry an honorable debt to those who finance 
this undertaking.
    Chairman Rockefeller and Committee members; thank you for this 
opportunity.
                        ``there is a solution''
    ``The tremendous fact for every one of us is that we have 
discovered a common solution. We have a way out of which we can 
absolutely agree, and upon which we can join in brotherly and 
harmonious action. This is the great news this book carries to those 
who suffer from alcoholism.'' P.17 from the Big Book of Alcoholics 
Anonymous.

    Senate File 730, the ``Heather French Henry Homeless Veterans 
Assistance Act'' also is common ground and a common solution upon which 
we can agree and join in ``Harmonious Action''. This harmonious action 
is to have a national goal to end homelessness among veterans and to 
achieve that goal in ten years.
    30 plus years ago each of us had varied and opposite views and 
goals on most of the current issues at the time. The Vietnam War and 
serving in the military means something profound to most Americans 
today and still has the emotions of that time in our hearts today. 
There were few voices of middle ground. It seemed to me you were for or 
against one side or the other. It seemed none escaped judgment from the 
other. Passion reined in each camp then. That passion is here today 
from both sides in a collective effort in support of ending a national 
shame by setting the goal of ending homelessness among veterans by 
taking certain action steps provided by the ``Heather French Henry 
Homeless veterans Assistance Act''.
    I have thoughts and ideas on each of these actions and I'll be 
brief in this outline.
    This bill/goal and action will require committed leadership from 
each of you. The saying ``Lead or get out of the way'' is very relevant 
in this situation. Secretary Principi, please hear and know that our 
last Secretary of Veterans Affairs would not do either and the VA and 
veterans have paid a high price and lost ground for his inaction and 
lack of leadership.
    This bill, this goal must not become a political causality from any 
party. There must be a willingness to come into each other's camp. This 
hearing speaks well of your hopes and intentions. It speaks well for 
those who have the courage and hope to extend the invitation to work 
together on this goal. Passion, courage, honor and a willingness to do 
the right thing for others will carry us far. It will require more.
    <bullet> National Goal to End Homelessness Among Veterans
          1. Must be accepted by Veterans Affairs and the VA Medical 
        Centers as a priority and the care needs to reimbursed as 
        complex care. The VA is a health care provider and needs to 
        keep its resources in this arena. One VA at all VAMC/VARO must 
        accept this goal and act as complete partners in the community.
          2. Housing Urban Development (HUD) must stop the continuum of 
        care discrimination against veterans and provide funds that are 
        realistic. More than 3% is the best they have done in the past. 
        HUD is in the housing business and needs to step up to the 
        plate and face the lack of concern they have around providing 
        appropriate dollars for veterans experiencing homelessness. HUD 
        should only be in housing.
          3. The DOL the employment programs such as the Homeless 
        Veterans Reintegration Project need to be funded at much higher 
        levels and in more areas. This is an excellent use of money 
        directed towards employment and this money will be returned in 
        new employment taxes. $ 50 million is needed in the very near 
        future for this effort.
          4. These agencies should stick to what they are best suited 
        to provide and work with community providers to utilize their 
        resources.
          5. Must be accepted by the Veteran Service Organizations and 
        become more of the solution and provide leadership as well as 
        money to local providers. These organizations could welcome 
        these veterans into their ranks.
    <bullet> Advisory Committee On Homeless Veterans
          1. Veterans Service Organizations look close at the Disabled 
        American Veterans and what they are doing nationally for 
        homeless veterans. They can all do more.
          2. Advocates for homeless Veterans: There is no better 
        organization than the National Coalition for Homeless Veterans 
        when information on any scale is needed. They have the total 
        picture of what is taking place in America today on the 
        problem. They will provide accurate and currant needs 
        assessments and responses around the role of providers and 
        their needs. They are the heart and soul of the providers who 
        serve the veterans in need. They have the pulse of the nation 
        on this plight.
    <bullet> Evaluation of Homeless Programs
          1. Create an evaluation and reporting tool that satisfies all 
        agencies: VA, DOL, HUD and HHS and give this tool to all 
        providers along with training when making a grant. This way we 
        truly can measure across the full spectrum of providers and not 
        be spending so much time on varied reports that say the same 
        thing in different ways and in different time frames.
          2. The federal agencies ought to be more user friendly. There 
        should be one application process/timeline for all of these 
        agencies for VA-HUD-DOL-HHS for this goal. Each agency can have 
        their own components they need and a standard report driven 
        from required outcomes and using a standard database developed 
        for this effort.
    <bullet> Changes in Veterans Equitable Resource Allocation 
Methodology
          1. Complex Care designation for this group of veterans using 
        documented indicators of care needed and received. So many of 
        these veterans have so many varied health care needs that it 
        appears this designation of a Complex Care is correct. Keeping 
        this money only for these population's providers is a must and 
        will allow their needs to be met. The health care needs will 
        become more complex as these veterans age.
    <bullet> Programmatic Expansions
          1. Comprehensive Homeless Service Programs are a must and 
        they need to be in the community run by community 
        organizations. They must include though:
                  Vets Centers
                  VA Outreach Teams
                  VAMC
                  VARO
                  State Department of Veterans Affairs
                  County Veteran Service officers
                  State Veterans Homes
                  Private Non Profits
                  For profit Fee for Service Providers
                  HUD-DOL-HHS
                  In Minnesota CF&L Economic Security
          VISN # 13 needs to have a Comprehensive Homeless Center and 
        it is the St Cloud VAMC that seems to be the appropriate 
        setting due to the Domiciliary and other residential programs 
        for veterans experiencing homelessness. They can access dental 
        care while receiving residential treatment for CD and upon 
        completion can enter the Dom and the vocational rehabilitation 
        IT/CWT Programs. Only after these programs cannot be expanded 
        and they are operating at full capacity should other 
        duplicating services be considered at other sites.
    <bullet> Use Of Real Property (Enhanced-Use Lease) in Minnesota
          1. 218 Units of Permanent Housing on Minneapolis VA Campus
          2. 120 Units of Transitional/Permanent on St. Cloud VA Campus
          3. Go to HUD and get this funding now directly from them for 
        these two projects and other similar project in the works 
        across this nation. They are not spending anything close (3% of 
        their money) in proportion of the need for veterans who are 
        homeless.
          4. Assist with time lines for these leases.
    Three things this legislation could provide is:
          1. Complex care designation for most homeless veterans.
          2. Funding Homeless Veteran Reintegration Project at $ 50 
        Million dollars per year.
          3. HUD stepping up to the plate with adequate funding for 
        veteran specific programs.
    This will require leadership to move in this direction and stamina 
to stay the course with this legislation.
    I do think there is a solution to this problem. I do think the goal 
can be meet. I commit our organization to meet the goal for the 
veterans experiencing homelessness in Minnesota and in this nation.
    Mister Chairman thank you for this opportunity.

    Senator Wellstone. Jimmie Lee, we have a whole section of 
the bill that deals with this interagency--I was going to say 
this to Senator Specter. I will get it to him--that deals with 
insisting on, you know, that this Interagency Council on 
Homeless actually meets, that we get the cooperation and 
coordination. We have to do that. We have to do that.
    Mr. Schneider?

  STATEMENT OF RICHARD C. SCHNEIDER, DIRECTOR OF VETERANS AND 
  STATE AFFAIRS, NON COMMISSIONED OFFICERS ASSOCIATION OF THE 
UNITED STATES OF AMERICA, AND CHAIRMAN, VETERANS ORGANIZATIONS 
                HOMELESS COUNCIL, ALEXANDRIA, VA

    Mr. Schneider. Thank you very much, Mr. Chairman, and thank 
you very much for bringing to us a bill to end homelessness in 
a decade. That is really admirable.
    We need to do a couple things, and we have outlined in our 
statement--and it is for the record. I would just add that in 
my speaking today, I represent the Veterans Organizations 
Homeless Council. I also this past week, in addressing the 
issue here today, got the full endorsement of the National 
Military and Veterans Alliance, and they are all on board on 
this. And in typing this up, I missed one organization, and I 
would like to add it for the record now, the Military Order of 
World Wars.
    You know, veterans don't want their dead and their wounded 
left on any battlefield, and these organizations don't want 
them left on the streets of America, and you know that, Mr. 
Chairman. Our comments in the testimony provide insights that 
we believe are beneficial to the legislation, but I want to add 
comments that I think are most appropriate.
    One is that you put in this legislation a section entitled 
``Prevention,'' and, by God, we need to focus more on 
prevention. We need to put a tasking for the Interagency 
Council to look at prevention as part of the job. And I would 
say this: DOD needs to be a player on the Interagency Council 
because we have, as you define in this legislation, too many 
at-risk veterans coming out of the military, and they are not 
tagged, they are not identified, people don't know where they 
are going, and you don't see them until they show up in a 
shelter or they show up in a courthouse or they show up in the 
jail. And so we would like to see the Interagency Council 
become more responsive.
    I think I would probably take exception with a couple of 
the remarks that were made today. One is the Interagency 
Council hasn't met since last year, but we had a whole change 
of Government. We had a change in administration. We had 
appointments to the Cabinet, and we have literally been in the 
state of transition. It is time to remind the Interagency 
Council that they have responsibilities and commission them to 
go back to the work that they have.
    But it is bigger than the Interagency Council, and I want 
you to send this word, sir, if you would, from the Congress of 
the United States. We don't expect Cabinet officers to sit at 
the table and decide what is going on with homelessness. We 
expect the committee working underneath them to meet and to 
discuss and to make recommendations to the Interagency Council. 
And I am going to tell you, regretfully, I am not aware that 
that committee has not met since November of last year, 
approximately. That committee ought to be meeting at least 
quarterly, if not bi-monthly, and they ought to be identifying 
the things.
    You know, the mandate in the legislation says the 
Interagency Council will meet at the call of the chairman or 
when requested by the members. Well, by God, if there is a 
housing program, HUD ought to be asking for the meeting to be 
held, and it shouldn't be just once annually. And I think we 
need to re-emphasize that to them.
    I would also like to go back to part of the legislation 
where you address the CHALENG groups. One of the great things 
that VA has done at its medical centers across the world was to 
take public law that was implemented and establish a program to 
develop community partners, to end the cycle of homelessness, 
and to establish the local and regional contacts. Well, I will 
tell you what. VA did a great job in doing that, but they 
screwed up in one area, and the screw-up is identified in the 
testimony, and the screw-up is they started consolidating 
resources because streamlining is good, you don't have to have 
as many reports, you don't have to have as many people.
    You take Maryland, three hospitals, different ends of the 
State, the committee, one report, they are not identifying nor 
are they working with the organizations to develop a 
comprehensive program. We need to take this Congress and say in 
legislation that every medical center should have its own 
independent CHALENG group to work with community providers.
    We need to expand the legislation to say that the big 
outpatient clinics, such as located at Orlando, FL, has a 
CHALENG group to work with the veterans in that area. They 
cannot be treated from a group 85 miles distant. It just 
doesn't work.
    We agree with the Grant and Per Diem Program. We agree that 
the money needs to be increased. And I will tell you, when you 
talk internal money within VA, you are talking about money that 
comes through VERA and other things.
    I disagree with Tom Garthwaite today. I disagree that all 
veterans at 20 percent are the only ones that should be complex 
veterans. I will tell you, I have seen homeless veterans in 
hospitals, and as soon as he walks in the door, they want to 
get rid of him as quick as possible. And nobody has ever said, 
you know, are you a complex veteran? Hell, he wouldn't know 
what a complex veteran was.
    We need to talk with these people. We need to identify 
them, and we need to tag them, and it ought to be directed that 
they do more for these people. And by doing more for them, 
identifying them as complex, we can take the Grant and Per Diem 
Program from $35 million to $50 million or more, as Linda has 
said.
    I want to--I see the red light. I am sorry. I have got two 
barrels. I would like to march.
    I would like to share with you another comment that Under 
Secretary for Health Garthwaite made and I disagree with, and 
that was he said we have so many requests coming in for Grant 
and Per Diem money that are so badly prepared. Well, dammit, he 
is absolutely right. They are coming in. They are being turned 
down. And some are being awarded every year. But 50, on 
average, are turned down every year. And he says, well, we have 
it on the Internet and they can look on the Internet. Sir, I 
suggest that the Congress needs to have that technical 
assistance that you speak of to go out to these people who are 
failing in their grant applications because somebody didn't 
consider this dimension or that, which resulted in no points 
being awarded.
    We need to do that. We need the technical assistance. And I 
will tell you what. Nationally, I have great respect for one 
organization dealing with homeless veterans, and that is this 
organization that is represented at the table with me today, 
National Coalition for Homeless Veterans.
    I will end with just two thoughts. We have got to do more. 
It is going to cost more. We expect the leadership in the 
Senate and in the House to fight for those dollars. If we don't 
start taking this seriously, 10 years from now we are going to 
be saying, gee, we still have the problem, sorry we didn't have 
the money. Well, dammit, it is going to be a pain in the butt 
when we have our next war and people say I don't want you to go 
in the service because I don't want to see you living out here 
on the street.
    We need to uphold the truths and the values that our people 
had when they went out for this Nation. They raised their hand 
and they said that they would defend and support the 
Constitution of the United States. They came back different 
because of that war experience, and I want to tell you 
something, 5 years ago, when they started emptying out the VA 
PTSD inpatient units, when they started closing down the bloody 
bed spaces, they did a disservice to every person who served in 
combat, because it is those combat veterans out there on the 
street that need those services in mental health and others. 
And, by God, it is time we started putting the money where the 
need is and we start integrating these people back into the 
program.
    I think and I strongly believe and my member organization 
strongly believes we can end homelessness of veterans in a 
decade. We can take them off the streets. We can put them back 
to work. But we need the money. And I will agree again with 
Linda Boone when she said earlier today HVRP needs to go from 
$12 to $50 million a year. That is the program that is putting 
them back to work. I mean, hell, after you take the drink out 
of them, after you take the drug out of them, after you get 
their heads screwed on right, after you get them prepared to 
work, let's have the programs out there to ensure that they can 
work. HVRP works. And you know what, sir? They become taxpayers 
and they support this Government, this Nation. We need to take 
care of our veterans.
    If I sound like I am just a little bit passionate about 
that, I am sorry, but I am mad as hell.
    Thank you.
    [Applause.]
    Senator Wellstone. I don't know whether I am supposed to 
applaud or not, but I am. [Laughter.]
    [The prepared statement of Mr. Schneider follows:]
 Prepared Statement of Richard C. Schneider, Director of Veterans and 
  State Affairs, Non Commissioned Officers Association of the United 
   States of America, and Chairman, Veterans Organizations Homeless 
                        Council, Alexandria, VA
                              introduction
    Mr. Chairman and distinguished Members of the Subcommittee, the Non 
Commissioned Officers Association of the USA (NCOA) is most grateful 
for the opportunity to present its perspective on S. 739, The Heather 
French Henry Homeless Veterans Assistance Act. NCOA membership is 
exclusive in its representation of enlisted personnel of Active, 
Reserve, and Guard Service Components, the USCG, military retirees and 
veterans. The significant ratio of enlisted personnel to military 
officers who have served in the Armed Forces quickly translates to the 
majority of homeless veterans being formerly enlisted Soldiers, 
Sailors, Marines, Airmen, and members of the Coast Guard. NCOA has a 
deep concern on the issue of homelessness and recognizes that today's 
homeless veterans are not only former comrades-in-arms from years gone 
past but also the sons and daughters of America that answered the 
clarion call to duty.
    Today's homeless veterans just a few short years ago were those 
disciplined warriors that this Nation hailed as the best educated, 
motivated and trained military force in the world.
    NCOA is a member organization of the Veterans Organization Homeless 
Council (VOHC) and as the association's representative, I also hold the 
position of Chairman, VOHC. The testimony presented today is further 
supported by the member organizations of the VOHC listed below:
          American Veterans of WWII, Korea and Vietnam
          The American Legion
          Blinded Veterans Association
          Disabled American Veterans
          Jewish War Veterans of the USA, Inc.
          Marine Corps League
          Military Order of the Purple Heart of the USA, Inc.
          Non Commissioned Officers Association of the USA
          Paralyzed Veterans of America
          Veterans of Foreign Wars
          Vietnam Veterans of America, Inc.
    Likewise, the member organizations of the National Military and 
Veterans Alliance (NMVA) through this statement strongly support Senate 
739. The member organizations of the NMVA include:
          Air Force Sergeants Association
          America Retirees Association
          American Military Retirees Association
          American Military Society
          American WWII Orphans Network
          Catholic War Veterans
          Class Act Group
          Gold Star Wives of America
          Korean War Veterans Association
          Legion of Valor
          Military Order of the Purple Heart
          National Association for
          Uniformed Services
          National Gulf War Resource Center
          Naval Enlisted Reserve Association
          Naval Reserve Association
          Non Commissioned Officers Association
          The Retired Enlisted Association
          Society of Medical Consultants
          Society of Military Widows
          Tragedy Assistance Program for Survivors
          Uniformed Services Disabled Retirees
          Veterans of Foreign Wars
          Vietnam Veterans of America
          Women in Search of Equity
                               background
    Mr. Chairman, and members of the Veterans Committee, let me begin 
with the statement that the proposed S. 739 Heather French Henry 
Homeless Veterans Assistance Act has the potential to significantly 
reduce the homelessness of former members of the United States Armed 
Forces. I would point out that the organizations endorsing the Senate 
legislation are also supportive of H.R. 936, the companion House Bill 
introduced by Representative Lane Evans. This Statement quickly 
summarized would state that to end veteran homelessness requires a 
dedicated decade to provide the continuum of care services that would 
move the veteran from the street to employment. That summary statement 
would also place greater emphasis in the area of prevention programs to 
of homeless. We must stop the flow of veterans to the streets of 
America.
                            recommendations
1. CHALENG Data (Section 2 (a)(2) and (7))
    Congress was correct in the need for the Department of Veterans 
Affairs (VA) to have a leadership role to assess and coordinate the 
needs of homeless veterans served by local Medical Centers and Regional 
Offices. Great progress has been made through the Community 
Homelessness Assessment, Local Education Networking Groups (CHALENG) 
for veterans.
    VA has taken CHALENG seriously but significant holes exist in the 
program. VA in its streamlining process has garnered efficiencies 
through the consolidation of effort to the detriment of CHALENG. 
Considered a consolidated management process such as a single CHALENG 
group that represents Baltimore MC, Ft. Howard MC, and Perry Point MC 
in Maryland. Three distinctly different settings blended together with 
a resultant ``vanilla'' program that at best served the needs of the 
institution. The issue of assessing LOCAL needs, developing effective 
community partners, and implementing local programs was in our judgment 
unquestionably lost in the consolidated process. The data from that 
CHALENG report also becomes questionable and suspect when compared to 
other reports such as that issued by the Urban Institute on the 
homeless veteran population.
    1. The effectiveness of designing a plan at one facility (removed 
by distance) from other state VA facilities excludes community partners 
from being integrated into a real partnership, questions the statewide 
assessments made, and undermines the validity of programs established 
for the state. Ending veteran homelessness must be an aggressive 
cooperative local effort with united teams serving needs in their local 
population.
            Recommendations:
    (a) That Congress direct that every VA Medical Center and Regional 
Office establish a LOCAL CHALENG program that complies with the 
mandated actions required by P.L. 102-405.
    (b) That Congress mandate a CHALENG program be established at all 
large Community Outpatient Clinics such as that complex located in 
Orlando, Florida. In this instance, Orlando is supported by the Tampa 
VAMC some 86 miles or 1\1/2\ hours distant. A CHALENG report should be 
developed at and by representatives of the Orlando Community Outpatient 
Clinic. That action would solidify a large base of community providers, 
have the potential to involve a significant number of veterans who 
utilize the medical clinic, and provide an effective CHALENG community 
partnership. These same parameters exist at other locations where large 
outpatient clinics are established.
    (c) That Congress direct all facilities to submit a local CHALENG 
report, without any area consolidation, developed in concert with 
community partners and that these reports be used to:
          1. Develop a local comprehensive care plan,
          2. Identify met and unmet needs
          3. Compare and Match data with HUD generated Continuum of 
        Care efforts
          4. Identify the Number of Homeless Veterans in the local area 
        for which concerted programming can be achieved.
2. ADVISORY COMMITTEE (Section 4)
    Strongly concur that a VA Advisory Committee on Homeless Veterans 
be appointed by the Secretary. Pleased to note that the incumbent 
Secretary of Veterans Affairs has already begun to implement this 
recommendation.
            Recommendation:
    Although implementation of the Advisory Committee requirement has 
begun recommend nonetheless that the formal requirement for the 
committee be codified in law.
3. MEETINGS OF INTERAGENCY COUNCIL ON THE HOMELESS (Section 5)
    Strongly support the recommendation that the ``Cabinet Level'' 
Council meet at the call of its Chairperson or a majority of its 
members, but not less often than annually.
    However, below the ``Cabinet Level'' Council is the Interagency 
``Staff working group'' comprised of directed agency representatives 
that coordinate and review programs, policies, and make recommendations 
to their respective Agency Council Members. This is the action level 
working group and interestingly has no mandate for frequency of 
meetings. They meet at the call of their Chairman. The last such 
meeting of the action officers is believed to have been in the November 
2000 time frame.
            Recommendation:
    That the Chairman, Interagency Council on the Homeless require 
quarterly meetings of the Interagency Working Group with copies of 
meeting documentation provided to all Council Members. This requirement 
would ensure the viability of both the Council and working group.
4. EVALUATION OF HOMELESS PROGRAMS (Section 6)
    There is need for Evaluation of Homeless Programs to ensure the 
effective use of resources. Currently, the Northeast Program Evaluation 
Center collects VA information and provides the only known source data 
on homeless veterans for VA leadership. Clearly, an evaluation of 
homeless veterans must consider that data related to the continuum of 
care services provided to homeless veterans.
    It is the collective opinion of the Veterans Organization Homeless 
Council that an advisory group comprised of VA staff, CBO, Community 
based providers, representative of the Secretary's Homeless Advisory 
Council, and a contract vendor design an evaluation tool(s) for the 
national homeless veteran program.
    The Veterans Organization Homeless Council (VOHC) recommends that 
quality standards be established for homeless veterans' programs. A 
greater emphasis on program outcomes is necessary to assure that 
veterans' grant programs operated by the Departments of Veterans' 
Affairs, Labor, and Housing and Urban Development are efficient and 
effective.
    Effective ``best practices'' program model(s) should be created and 
considered for replication as deemed appropriate for veterans' homeless 
assistance programs. A ``revolving door'' program model will neither 
critically address the homeless veterans' problem or end veteran 
homelessness.
    VOHC representatives have considered a number of program thoughts 
that would seek through evaluation to increase the efficiency of 
homeless programs and add incentives to further stimulate effective 
program models. The following thoughts resulted from one member 
organization's brainstorming session:
          Determine what constitutes a successful program model and 
        what services need to be provided to homeless veterans,
          Develop an industry ``standard of excellence'',
          Develop a concurrent program review, i.e., who currently 
        meets established standards and develop a paradigm to meet such 
        standards,
          Convert current grant program to a contract program.
          Reward programs meeting the established industry standards,
          Data collection (demographic analysis of homeless veteran 
        population),
          Allow programs not meeting industry standards a reasonable 
        period to adjust programs and services,
          Encourage existing local grant programs to consolidate 
        energy, efforts and resources,
          Encourage a greater degree of coordination and cooperation 
        among Federal agencies responsible for homeless veterans' 
        assistance programs,
          Define initiatives that place a greater emphasis on the 
        prevention of homelessness.
5. CHANGES IN VETERANS EQUITABLE RESOURCE ALLOCATION METHODOLOGY 
        (Section 7)
            Recommendation: Implement VERA recommendation NOW.
    There is no doubt that many homeless veterans have significant 
substance abuse, dual substance abuse issues, mental health, and post 
traumatic stress disorders. Further, that these mental and substance 
abuse problems directly relate to a veteran's current or future 
homeless status.
    The reduction in Veterans Health Administration's resident veteran 
substance abuse, mental health and PTSD programs has saved the United 
States Government significant dollars when shifted from an inpatient to 
an outpatient process. Regrettably, the cost savings did little for 
America's veterans.
    It is VOHC's opinion that the real expense has been borne first by 
America's veterans whose lives slipped from mildly productive to 
veteran homelessness and secondly by their families, both spouses and 
children, whose lives and life styles were further sacrificed in the 
cost savings bargain.
            Recommendation:
    That Congress request a study to determine the value of inpatient 
mental health, substance abuse and PTSD residential treatment programs 
as a ``prevention alternative'' program to help stop the migration of 
veterans from becoming victims of their illnesses and deteriorating 
into the vicious cycle of homelessness. Resident programs offered a 
controlled environment that works efficiently for veterans.
6. COORDINATION OF OUTREACH SERVICES FOR VETERANS AT RISK OF 
        HOMELESSNESS (Section 10)
    The essence of prevention programs to stop veteran homelessness is 
the identification of at risk veterans coupled with intervention 
techniques and program resources that can effectively help the veteran.
            Recommendation:
    The Department of Defense must be a part of the transition team 
with the Department of Veterans Affairs in a prevention program for 
``at risk'' military personnel separating from their service component. 
Included in the ``at risk'' category are personnel separated for the 
convenience of the Government; on a fast track for qualitative reasons 
(administratively separated under honorable conditions); disability 
severance actions; or other circumstances that will have an immediate 
impact on their transition from service, continued health care, or 
opportunity to secure gainful employment.
7. PROGRAMMATIC EXPANSIONS (Section 13)
    The Homeless Providers Grant and Per Diem program is internally 
funded at $35 Million and provides transitional housing beds for 
homeless veterans in a safe and controlled environment.
    Grant and Per Diem are two separate elements of the program with 
grants providing the facility in new housing programs. The Per Diem 
program allows a daily payment of up to 50 percent for a maximum $19.00 
per day to provide services to veterans housed in ``Grant'' provided 
facilities. Grantees must provide matching funds for the 50 percent not 
funded through the Department of Veterans Affairs.
    The requirement for homeless housing and support services continues 
to grow every year. The current fiscal resource of $35 Million for the 
Grant and Per Diem Program provides approximately 5,000 beds, which 
will decrease by fiscal necessity to 4,000 beds when the new per them 
increase is implemented. A budget increase to $43 Million would sustain 
the annual 5,000 bed increase or status quo but not meet the program 
requirement for housing and services to end veteran homelessness in a 
decade.
    The lack of funding in the Grant and Per Diem Program has resulted 
in the disapproval of 426 grant applications in the past seven years. 
Approximately 60 valid applications of reasonable merit were denied 
each year because funds were not available. The ability to move 
veterans off the streets is obviously limited by the bed and services 
available to accommodate their journey to employment and independence.
            Recommendation(s):
    The Homeless providers Grant and Per Diem Program needs to be a 
separate budget line item funded at $120 Million to add approximately 
9,000 beds and with the increased per them rate to total nearly 14,000 
beds.
    Currently, the Grant and Per Diem program requires the community-
based provider to use both elements. Recommend that established housing 
programs have access to the Per Diem element for program expansion that 
does not require facility enhancement or expansion.
    That Community Based Providers be authorized a new flat fee formula 
based on the state home domiciliary rate. That authorization for this 
rate would eliminate the 50 percent per them match requirement.
    Failing the above Per Diem Match recommendation allow the community 
based provider to match the VA 50 percent per them authorization with 
consideration of ``in kind services or a workload credit.''
8. EXTENSION OF HOMELESS VETERANS REINTEGRATION PROGRAM (HVRP) (Section 
        19)
    Gainful employment is the key to ending homelessness. HVRP managed 
through the United States Department of Labor, Veterans Employment 
Training Services is the most significant program nationally focusing 
on the employment of homeless veterans. Local HVRP initiatives offer 
employment and job-readiness services that place veterans into paying 
jobs. Job placement into opportunities above minimum wage provides the 
income and motivation necessary to break the cycle of homelessness.
            Recommendation(s):
          (1) That Congress invest $50 Million per year in the Homeless 
        Veteran Reintegration Program that in turn will move homeless 
        veterans to self-sufficient tax-paying citizens.
          (2) HVRP has unlimited potential to provide gainful 
        employment opportunities for ``at risk'' veterans across 
        America and should be developed as a preventative initiative to 
        stop homelessness.
9. ASSISTANCE FOR GRANT APPLICATIONS (Section 17)
    Strongly endorse the recommendation in S-719 that the Secretary of 
Veteran: Affairs carry out a program of technical assistance through 
grants to nonprofit base( community groups to provide community based 
providers to assist them in grant application processes relating to 
homeless veterans.
            Recommendation:
    That Technical Assistance Grants be made to established nonprofit 
organization: recognized nationally for their program efforts in direct 
support of homeless veterans.
                               conclusion
    Mr. Chairman and members of the Senate Veterans Committee I again 
thank you for you leadership and caring for America's veterans.
    I would be remiss if I did not further extend to you the 
appreciation and respect of the Non Commissioned Officers Association, 
The Veterans Organization Homeless Council, and the National Military 
and Veterans Alliance for naming S. 739 as the Heather French Henry 
Homeless Veterans Assistance Act. Heather French Henry, as the reigning 
Miss America 2000, choose homeless veterans as her platform and for the 
thirteen months of her reign proceeded to create a national awareness 
of homeless veterans. Ms Henry's motivation and action on behalf of 
these American Veterans were noble. You commend the right person, 
Heather French Henry as America's Homeless Veteran Advocate by naming 
this United States Senate Legislative Act in honor of her service to 
America.
    We are confident that you will continue to press this legislative 
agenda until it is enacted. Your leadership to secure this legislation 
must also be coupled with the tenacity to secure the needed fiscal 
appropriation to make the stated national goal to end homelessness 
among veterans a reality.
    Your efforts are appreciated.
    Thank you.

    Senator Wellstone. I--well, I am just trying to--let me 
thank you for your testimony, Mr. Schneider. And before going 
to Mr. Shaughnessy, who I think has a very powerful perspective 
to present, just two quick things--I can say it in 30 seconds--
occur to me. One is I do think that with your conclusion about 
being mad as hell, the indignation, I do think that, you know, 
we are going to continue to bump up against, oh, if we do this, 
we don't have the money to do that, we don't have the money. 
And then, of course, the question is: Well, what about the cost 
of the people that are homeless, you know, who served the 
country? And I really think we are going to have to really turn 
up the heat. We are going to have to put a lot of pressure on. 
You know, you said it here. I think we are going to have to do 
a lot of organizing in the veterans community, and I hope we 
can get the support to get this done.
    The other thing I wanted to say to you, Mr. Schneider, is 
that I suspect--you know, not knowing you well but just 
listening to what you said and almost more the way you said it, 
we may very well come from different backgrounds, and I want to 
tell you that for me I would have to say--and, again, I guess I 
could thank Jimmie Lee, among others, but you would be at the 
top, Jimmie Lee. I was in the war against the Vietnam war, for 
example. I mean, I adamantly opposed the war. When I came here 
to the Senate, I knew hardly anything about veterans. I knew so 
little. And I just couldn't believe, just through our office 
from calls and people we began to try to help, you know, that--
I just couldn't--I felt like I was a fairly well educated 
citizen, but I just did not have any understanding of the 
number of veterans who fell between the cracks, who weren't 
getting any help at all. I had no understanding of it at all. 
No understanding of it at all.
    And I would say--and, you know, you can't say this unless 
you mean it sincerely. I would say of the work that I have done 
as a Senator, or tried to do--I hope to the best of my 
ability--the most rewarding, the work that I am most emotional 
about has been with the veterans. And you were the one who 
captured it in what you said, so I just wanted to say that to 
you.
    Mr. Shaughnessy?

 STATEMENT OF DANIEL SHAUGHNESSY, MEMBER, LOCAL 495, AMERICAN 
  FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO, AND ADDICTION 
THERAPIST, TUCSON VA MEDICAL CENTER, SOUTHERN ARIZONA VA HEALTH 
                    CARE SYSTEM, TUCSON, AZ

    Mr. Shaughnessy. Thank you. Senator Wellstone, my name is 
Danny Shaughnessy, and I am a 60-percent service-connected 
disabled veteran of the United States Marine Corps. I served in 
Beirut in 1982 and 1983, and I have a master's degree in social 
work. I work as an addiction therapist at the Tucson VA. I am a 
steward of Local 495 of the American Federation of Government 
Employees.
    I was a homeless veteran and alcoholic. I lived on the 
streets of Southern California and Tucson, Arizona, for a 
little over 9 months.
    S. 739 will help get homeless veterans the care and the 
treatment that they need, and AFGE supports the passage of this 
legislation.
    In the Marines, I was a functional drunk. I was a hard-
drinking, hard-fighting, and hard-charging Marine. After I was 
discharged from the service in 1986, I worked but my drinking 
got in the way. During this time, I lost my apartment, my 
family, and everything I owned. I became one of those people on 
the streets that children are taught not to look at.
    During the time I lived in a shelter, my self-esteem was 
lower than the curbs I stumbled across. I began to think this 
is not how my family brought me up to be. As a 25-year-old 
homeless veteran, I began to wonder if my life was over.
    I turned to the VA is 1987, and I had to wait nearly 2 
weeks for an inpatient substance abuse bed to open up. I was 
placed in a homeless shelter and waited and waited.
    We need more inpatient detoxification beds or detox beds 
for treating homeless veterans. A few years ago, our facility 
had six acute medical detox beds. Now we have three. Detox is 
the first stage in substance abuse treatment. These beds are 
essential. For many veterans, delirium tremens, commonly known 
as DTs, can cause a heart attack or even worse.
    Last week, I served as the intake coordinator for our 
substance abuse treatment program. Nineteen homeless veterans 
called for those three detox beds that we have. What do we do 
with the extra homeless veterans?
    We stuck them in pretreatment purgatory. Pretreatment is 
not state-of-the-art care. We only do it because our beds have 
been cut.
    Since I wrote this testimony, the number of homeless 
veterans in pretreatment were up to 13. They are living in the 
shelters, on the streets, and in the desert until a detox or 
treatment bed opens up.
    Some 60 percent will drop off the pretreatment list. Many 
will relapse and many will die.
    I hate what happens to veterans because we don't have a 
treatment bed or a detox bed. Some 10 to 15 veterans have died 
waiting for a detox bed in the summer heat of Arizona since I 
have been doing this.
    Beds for intensive substance abuse treatment are also vital 
to help homeless veterans begin a new life. At our VA, we have 
used an effective, intensive residential treatment program--we 
used to have, excuse me. Homeless veterans receive 28 days of 
around-the-clock support, intensive treatment, and the medical 
care needed. This treatment saved my life.
    Two months ago, all 20 of our hospital's substance abuse 
beds were eliminated. The VA management has made this space 
into being an outpatient care team. We have not opened up any 
new rehab beds in our hospital. Instead, the VA contracted for 
10 beds in the community. Homeless veterans are being 
warehoused at this contract facility. The loss of inpatient 
substance abuse treatment programs is devastating.
    Senator Wellstone, your bill will help rebuild and expand 
the homeless programs that helped others and me. I am, however, 
concerned that the VA may still try to treat substance abuse on 
an outpatient basis. I have seen inpatient services shrink to 
the point that the sheer numbers of homeless veterans that need 
a bed overwhelm the direct care staff because we do not have 
beds available for these veterans.
    I cannot emphasize enough how the lack of substance 
treatment beds is affecting our ability to end homelessness. In 
the military, I was taught we don't leave our wounded behind. 
Homeless veterans who are mentally ill and addicted to drugs 
and alcohol are still wounded. It is immoral for us to leave 
them behind and deny them the inpatient care that they deserve.
    Thank you for the opportunity to speak.
    [The prepared statement of Mr. Shaughnessy follows:]
 Prepared Statement of Daniel Shaughnessy, Member, Local 495, American 
 Federation of Government Employees, AFL-CIO, and Addiction Therapist, 
   Tucson VA Medical Center, Southern Arizona VA Health Care System, 
                               Tucson, AZ
    Chairman Rockefeller, Ranking Member Specter and Senator Wellstone: 
my name is Daniel Shaughnessy. I am a 60 percent service-connected 
disabled veteran of the United States Marine Corps. I served in Beirut 
in 1982-83. I have a Masters in Social Work and work as an Addiction 
Therapist at the Tucson Arizona Veterans' Affairs Medical Center 
(VAMC). I am proud to be a member of Local 495 of the American 
Federation of Government Employees, AFL-CIO.
    I also was a homeless veteran with an alcohol addiction who lived 
on the streets in Southern California and Tucson, Arizona for nine 
months.
    Thank you for the opportunity to testify today about S. 739, the 
Heather French Henry Homeless Veterans Assistance Act. This legislation 
will help get homeless veterans the care and treatment they need by 
pushing VA to expand and improve vital programs. AFGE supports passage 
of this legislation. My struggles as a homeless veteran, successful 
treatment at the Tucson VAMC and years of experience as a social worker 
specializing in substance abuse treatment for homeless veterans suggest 
some key ways in which this important bill can be even stronger.
    When I was honorably discharged from the Corps in 1986 I, like so 
many homeless veterans, did not take a traditional path from the 
service to school and then to work. I had a much more difficult route 
to follow--addiction and homelessness. When I was in the Corps I was a 
functional drunk. My addiction did not prevent me from serving; I was a 
hard-drinking, hard-fighting and hard-charging Marine. I was even able 
to work for a few months after I was discharged from the service, but 
my drinking got in the way and I quit my job before I was fired. During 
this time, I lost my apartment and everything. I was drinking, was very 
angry, and my family was afraid of me. I began to live on the streets. 
I became one of ``those people'' that children are taught not to look 
at.
    I hid from my problems and society by drinking. My addiction was 
not a conscious decision. During the time I lived in a shelter I worked 
as a day laborer. With the small amount of money I made I could buy 
alcohol but never get ahead. My self-esteem was lower than the curbs 
that I stumbled across. I began to think, ``This is not how my family 
brought me up.'' This realization came while I was sitting on a 
lifeguard tower on an empty beach at midnight. As a 25-year-old 
homeless veteran I began to wonder if my life was over.
    I struggled with my addiction for another two months until I walked 
through the gate of the Tucson VAMC Center in 1987. The first person 
that I met was Sandy Eggleston, a social worker in the homeless 
program. She assessed the situation and referred me to the VA's 
substance abuse treatment program. I had to wait nearly two weeks until 
an inpatient bed opened up. During this time I was placed in a homeless 
shelter and waited and waited. After day labor I would go back to the 
VA to check in with Sandy and that helped me stay sober. Sandy is now 
our union's Local President.
    The lack of inpatient detoxification or ``detox'' beds is a major 
barrier to treating homeless veterans. In Tucson, roughly 75 percent of 
veterans in our substance abuse program are homeless.
    A few years ago our facility had six acute medical detoxification 
beds. Now we have three. Now veterans who want to become sober must 
wait twice as long. Detox is the first stage in substance abuse 
treatment. These beds are essential for veterans coming off severe 
alcohol addiction or who are already medically compromised patients. 
For many veterans, delirium tremens, commonly referred to as DTs, can 
be severe enough to cause a heart attack. Detoxification beds are 
needed to prevent renal failure and other medical complications during 
the detox phase of treatment.
    Last week, I served as the intake coordinator for our substance 
abuse program. I received calls from 19 homeless veterans who wanted to 
get in those three detox beds. The lack of in-patient detox beds is 
widespread across the country.
    Our staff has devised a creative but woefully inadequate way to 
deal with the limited number of beds for detox. We register veterans 
for ``pretreatment.'' In effect, we are telling veterans to go back to 
the shelter but come back every day for an hour of care until a bed 
opens up. ``Pretreatment'' is not state-of-the-art care; we only do it 
because our beds have been cut. Currently my facility has 11 homeless 
veterans who want to get sober in ``pretreatment.'' They are living in 
shelters, on the streets and in the desert until a bed opens up to 
provide them with detox or treatment.
    On average, some 60 percent will drop off the ``pretreatment'' list 
because they are tired of waiting. Many will go back to drugs or 
alcohol, some will try to go elsewhere for treatment, and some will die 
of drug and alcohol related incidents.
    One of the saddest things for me since I made the commitment to 
help fellow veterans is watching homeless veterans die from the disease 
of addiction and our failure to provide them with inpatient treatment. 
Some 10 to 15 veterans have died waiting for a detox bed in the summer 
heat of the Arizona desert. One veteran who was waiting for a bed was 
the 112th homeless veteran I had known who died from substance abuse. 
This veteran touched my life in such a deep way that I stopped counting 
the deaths of veterans who are waiting for a detox bed or treatment.
    When our facility was planning to eliminate all detox beds for 
cocaine and heroin addicts, a compromise, although unsatisfactory, was 
reached. We now have six specialized beds on the locked psychiatric 
unit. Most detox beds are not on locked wards and I believe that this 
creates an unnecessary deterrent for homeless veterans to seek 
treatment.
    Post-detox inpatient beds for intensive substance abuse treatment 
in VA facilities are essential to ensuring that homeless veterans begin 
real recovery.
    After detoxification, the next stage in substance abuse treatment 
at our facility is the partial residential rehabilitation treatment 
program (PRRTP). In layman's terms this is like a halfway house but it 
is in the VA's medical facility. This program is a subacute care unit 
where homeless veterans receive 28 days of round-the-clock support, 
intensive treatment, and needed medical care. Addiction research shows 
that better outcomes are achieved with longer intensive treatment after 
detox. This part of the treatment was pivotal for me.
    Two months ago all 20 of our facility's residential rehabilitation 
beds were eliminated. The beds, which had been used to provide 
inpatient care for recovering homeless veterans, are being pushed aside 
to make room for a new primary care team. Instead of opening up new 
residential rehabilitation beds in our facility, the VA has contracted 
for ten beds in the community. Homeless veterans are just housed at the 
facility overnight and eat their meals there on the weekends; during 
the week they eat at our facility.
    Since our facility used to have 20 beds and has only contracted for 
ten I believe we have failed to maintain our capacity to treat homeless 
veterans with addictions. Moreover, as an addiction therapist, I 
believe that shunting homeless veterans back and forth between the 
medical center for treatment and these contracted beds is not as 
therapeutic as when the veterans receive treatment in a residential 
program in the hospital. The loss of an inpatient intensive substance 
abuse program is significant. Tragically, it is common throughout the 
country.
    In order for homeless veterans to reenter society they must have 
supportive residential programs.
    S. 739 will help rebuild and expand the homeless programs that 
helped others and me. It requires VA to develop new domiciliary 
programs in the ten largest metropolitan service areas without existing 
programs. AFGE supports this effort. Homeless veterans who have been 
through DVA's substance abuse treatment programs need further intensive 
treatment and rehabilitation in a residential setting.
    The Tucson VAMC does not have a domiciliary. When I went through 
treatment the VA contracted with a halfway house from me to stay in for 
60 days. Four years ago, because of flat-line budgets, our facility cut 
the length of stay to 31 days.
    In addition to opening new domiciliary care facilities I urge that 
the legislation require VA to evaluate the length of stay and outcomes 
achieved in both VA operated facilities and VA contracted residential 
transition facilities.
                            lessons learned
    The support that I received during inpatient detox, intensive 
rehabilitation and transitional residential care allowed me to stay 
sober. However, many homeless veterans I began treatment with and have 
subsequently treated as a social worker are unable to cope with the 
long waiting periods to get into detox and treatment. In fact, the wait 
to get into treatment is anywhere from 2 weeks to 1 month at our 
hospital at this time.
    The changes to the funding formula for VA facilities proposed in 
this legislation are key to providing medical directors and their 
supervisors with greater incentives to care for homeless veterans. S. 
739 requires that VA expand its mental illness programs; this is a 
vital step toward ending homelessness. I am, however, concerned that VA 
may still try to treat substance abuse on an outpatient basis.
    I was able to have my treatment in a VA in-patient program and was 
able to take advantage of VA's halfway house contracts, and regularly 
attended the VA sponsored aftercare program. Through the assistance of 
VA staff I was able to be in a position to seek compensation for 
service connected disabilities that occurred while I was in the 
Marines. After receiving my service connection rating I was eligible 
for the VA's vocational rehabilitation program and completed a 
baccalaureate and master's degree in social work. While completing my 
baccalaureate I started a nonprofit organization for homeless veterans. 
The focus of the program was to help homeless veterans with mental 
illness and substance abuse problems.
    The loss of VA in-patient services for homeless veterans that have 
psychiatric and substance abuse problems was one of the main reasons 
that I took the job at the VA and left the program I started. I truly 
believe that I made a difference in many veterans' lives while working 
in the community setting but it was time to make a difference from 
inside the VA. I have seen inpatient services shrink to the point that 
the sheer numbers of homeless veterans that need a bed overwhelms the 
staff because we do not have treatment beds available for these 
veterans. I cannot emphasize enough how the lack of substance abuse 
treatment beds is affecting our ability to end homelessness.
    In the military I was taught that we don't leave our wounded 
behind. Homeless veterans who are mentally ill and addicted to drugs 
and alcohol still carry the wounds of war with them. It is wrong of us 
to leave them behind and deny them inpatient care.
    Thank you for the opportunity to testify.

    Senator Wellstone. Thank you. That is very, very powerful.
    I might just go with this just because we finished with 
you, Mr. Shaughnessy. I might just respond briefly to what you 
said.
    Part of the issue is whether or not the substance abuse is 
designated as a part of what we are calling complex care. Is 
that correct? And right now it is not?
    Mr. Shaughnessy. Well, it is on a sunset--it is not the 
sunset criteria concerning complex care. Basically what it is, 
sir, you have to reinvest that care every year. They have to 
have a certain amount of bed days every single year to get that 
complex care money every year.
    Senator Wellstone. But the report you are giving, I mean, 
people don't even get to the point--Jimmie Lee, the discussions 
I have had with him, he has talked about where is the housing, 
right? We don't have the housing. But people don't even get to 
that point or even to the point of being able to, you know, get 
the skills development and get back out in the labor market and 
work until they first are able to deal with addiction, correct? 
And, of course, what you are saying, it is not there, both in 
terms--we don't have the delivery of the services.
    Mr. Shaughnessy. It is gone.
    Senator Wellstone. What?
    Mr. Shaughnessy. For all intents and purposes, it is gone, 
you know, and it is leaving all over the country.
    Senator Wellstone. By the way, just as an aside, I hope you 
don't think--I want to focus on this hearing. One of the pieces 
of legislation that I believe we are going to pass--we are 
going to mark it up in committee probably next week now or the 
following week--deals with mental health services, which 
basically says it has to be treated in all insurance plans the 
same way as any physical illness. I would have liked to have 
had substance abuse in that bill, but we are going to work on 
doing that as well. I just think it is crazy that we--you know, 
in other words, what I am saying, with these health plans what 
happens is they say diabetes, heart condition, all the rest, 
you know, this is the coverage. Then when it comes to, you 
know, somebody who is struggling in the way you were so honest 
to talk about yourself, it is like detox two or three times a 
year, 2 days at a time, that is it, no more coverage, period--
which is crazy. I mean, it is actually just blatant 
discrimination, and, of course, the consequences are so harsh.
    Let me start out with Ms. Boone. I want to ask questions of 
each of you, if I can. You testified that there is an 
unaddressed--I am going to quote--``need for housing that is 
safe, clean, sober, and has responsible staff,'' and that your 
organization strongly supports the flat fee--I want to get this 
on the record--formula for the Homeless Providers Grant and Per 
Diem Program based on the State home domiciliary rate.
    VA supports simplifying the program but believes that the 
homeless grant providers should be only 85 percent of the State 
home rate.
    Again, for the record, your view of this recommendation?
    Ms. Boone. Well, we see it as that the type of care that 
our community-based organizations are providing through the 
Grant and Per Diem Program mirror what the State domiciliary 
homes are doing, so that should be a fair rate. And right now 
the rate is like $22 a day. So that is what--we support that.
    Senator Wellstone. And without it, you just don't get the 
resources to do the job?
    Ms. Boone. Right. I mean, the Grant and Per Diem Program is 
a critical, critical piece in a community that wants to serve 
homeless veterans. That is sort of like the seed money, and 
then they are able to go out and get other grants, usually HUD 
grants or State grants, and combining those is really able to 
serve--put together a real comprehensive, you know, care plan 
for veterans in a community. So the VA Grant and Per Diem 
Program, we just can't emphasize enough how critical it is that 
that money is available for some of those startup groups 
because they can't--most of the homeless veteran groups that 
have been established in the last 5 to 10 years can't compete 
with the organizations that have been around for 100 years for 
the HUD continuum of care money as entryway. So this VA Grant 
and Per Diem is very, very critical and they need that.
    Senator Wellstone. Mr. Schneider talked about this, as I 
remember. I think he was the one--this whole issue of technical 
assistance.
    Mr. Schneider. Right.
    Senator Wellstone. Either one of you, actually. The VA 
testified that Section 17 of the bill, which is the assistance 
for grant applications, is unnecessary and there is already 
extensive information available for private providers to access 
the Federal assistance. What is, for any of you, I guess, for 
any of you, what is your perspective on the adequacy of VA's 
current offerings in terms of assistance and capacity building 
for the private providers?
    Mr. Coulthard. I guess I would like to respond to that, 
Senator Wellstone. Right now we have got an application in, and 
I read the application, the guy that put it together for us, 
and I am embarrassed by it myself. And if it gets funded, it 
will be funded because they know the need is there and we are 
probably good providers. The application is terrible. I was 
embarrassed by it.
    But one of the things that happens to us with all these 
applications is that HUD has a time line, followed by the 78-
page document. The VA has a time line. Theirs is not much 
smaller. Each one of these agencies has different time lines, 
wanting to know the same type of information, and to get--it is 
there if you have the capacity to find it on the Internet, if 
you know how to do that kind of thing, if you know how to write 
grants, then it is probably there.
    Our HVRP grant that we did, I never found our technical 
performance goals until we got our second grant. I couldn't 
find it anywhere. I asked for it. I did all kinds of things. It 
was probably there all along. I was just asking the wrong 
people, and the people I did ask weren't providing it to us. 
Once we had it, we put it in place.
    But I do think that there are all kinds of providers that 
are submitting poor applications that are good providers and 
they are getting turned down, just like was said, because they 
couldn't hit the mark with their application. And yet they are 
providing--that is kind of the harsh thing about it. Most of 
these providers, I think, are trying to provide services 
without the dollars. All they are trying to do is get some 
dollars so they can become a little bit better, and you are 
really kind of penalized unless you can write a good grant. And 
I think that we all want to write good grants. We just need 
somebody that we really know we can turn to, like the National 
Coalition, and get that information today and say this is how 
you do it and get that kind of training.
    I am kind of shocked that they don't really combine all 
their grants. I mean, it is the same veterans that we are all 
trying to look at, but they don't combine their grant process. 
They don't combine the reporting systems. They could all have 
their own section, you know, the VA, Department of Labor, HUD. 
They could all have it. They could all approve it and give us 
one application and then just give us the software to report 
back to them. Give us the training on it that would go right 
with the grant.
    Ms. Boone. It is my understanding that the VA does not have 
authority to provide technical assistance. They don't have the 
authorization to do that. That is what I have been told. So 
some provision is needed to be able to authorize them to be 
able to do that.
    Senator Wellstone. It is in the bill. That is in the bill, 
and we talked about that.
    Ms. Boone. That is right. Exactly.
    Senator Wellstone. I want to keep that in there.
    Ms. Boone. And HUD, who has the most of the homeless money 
and the housing money and supportive services money chose not 
to provide technical assistance specifically for homeless 
veteran providers. We applied a couple of different years. They 
recently gave a grant to a provider that has nothing to do with 
homelessness among veterans, knows nothing about veterans, but 
they gave them a grant to provide technical assistance to 
homeless veteran providers. And they have been struggling 
because they were paying them actually to learn about homeless 
veterans so they can turn around and do some technical 
assistance. So we oppose that process.
    Homeless veteran providers, most of them that are serving 
100 percent homeless veterans have been established in just the 
last few years. The National Coalition for Homeless Veterans 
has been in business since 1990, and some of the providers 
started before that. But the majority of providers that serve 
specifically homeless veterans have become established after 
1990. They don't have this expertise or the staff to compete 
with the organizations like Salvation Army, Volunteers of 
America, Goodwill, who have been around for a hundred years and 
have the staff and the experience and the community 
connections. So it is really critical that this nucleus group 
that is serving homeless veterans learn how to do that better 
in terms of providing their information.
    The other issue is because advocates and Congress have been 
very good to veterans, increasing the two pots of money that 
homeless veteran providers can access, more groups that 
veterans are not their primary clientele have been coming to 
the table and submitting grants and getting that money and 
taking away from other providers that their clientele is 100 
percent veterans. Is that good or bad? Well, it depends on the 
community, you know, and if veterans are getting served.
    But what is happening is that the veteran providers that 
went in business to serve homeless veterans are losing out 
because they can't be competitive, and that is the issue.
    Senator Wellstone. Dick, you had commented on it, too, 
earlier.
    Mr. Schneider. Yes. I see it as both. I have spoken in the 
same venue, but what I see is the lack of education and 
fundraising and grant writing that exists in a community-based 
organization that is providing homeless care. You have people 
that are working 18 hours a day taking care of homeless 
veterans, taking care of the business of the client. They don't 
have the time and the energy to put together a 78-page document 
to come in for a grant. And when grant applications come in and 
are discredited because they are not complete, they didn't 
score high enough, it is really the absence of understanding, 
of knowing how to do it. And our recommendation is get an 
organization that is recognized in homelessness, wherever that 
organization is, as long as it is a national type organization, 
get that organization and allow them to give the technical 
assistance. Look at grant applications that have been denied 
and help those organizations develop the opportunity to 
complete a grant that would be acceptable.
    Senator Wellstone. Let me ask, because we are going to run 
out of time in about 5 minutes, a question that starts with 
Jimmie Lee, but I would actually like each of you to respond to 
it.
    We have talked about some of the features in the 
legislation, and we have talked about the money issue, which I 
think we are going to come up against that because I am 
convinced that--I have said it to Secretary Principi. I said, 
you know, as good a heart as you have and as committed as you 
are, the worst thing that could happen is if you have a budget 
that is so inadequate that people say, well, God, you know, we 
came out here and we believed in them, and nothing really 
happened, because I am telling you, of that $1 billion, I think 
$900 million is medical inflation. And then we don't even get 
to the whole issue of substance abuse of homeless veterans. We 
don't get to the issue of Millennium, of aging veterans, of 
home-based care. We don't get to the issue of hepatitis C, and 
we don't get to any of that.
    But above and beyond that, the question that I wanted to 
ask you, Jimmie Lee, and the rest of you is: Do you think that 
there is any kind of culture change that needs to be made at 
the VA or, for that matter, the Federal Government when it 
comes to addressing veterans' homelessness? Because you are 
down in the trenches.
    Mr. Coulthard. No, I don't. But I can only speak about the 
VA that I work in, the VISN I work in. Most of the people have 
bent over backward to really help us do what we are doing. But 
yet I agree with what I hear down there with Danny. I do not 
agree with what has happened in our VISN with care for chemical 
dependency treatment. I don't believe that it needs to be 
inpatient, but I do know that it needs to be residential. And 
so there is that disagreement that I see that is happening 
inside of it. Ron and Pete and everybody that I know around 
here have really bent over backward to try to help us become 
successful.
    But I think that, you know, I go back to my statement about 
Secretary Principi, lead us out of this, because the last 
Secretary, Togo West, didn't ask for the adequate budget when 
he was even given the opportunity. And I think you brought 
forward a request for more money for the VA that they weren't 
even asking for. And that just boggles my mind that they aren't 
asking for the full measure and fighting for it and asking for 
the dollars that they need for this.
    Senator Wellstone. Well, each of you, it occurs to me, it 
could be that question, or really I just would like of the 
three of you, if we are going to--if you could respond to that 
question, or it could be just if we want this to be more than--
I mean, the one thing I just don't want this to be is symbolic 
politics, have a hearing, 10 years we are going to end it, and 
then, you know, 10 years from now--what do you think we need to 
do to really just get the country to focus on this, get the 
Congress to focus on this? You all are such advocates. This is 
your passion. It is your indignation. What is your best 
recommendation you can give me as to what we need to do?
    Ms. Boone. From our opinion, the Interagency Council is a 
good place to start. But that has to come from the President. 
The passion has to come from the top, and this country has to 
really set a goal.
    Years ago, we set a Federal plan to implement--you know, to 
end homelessness within 10 years. Parts of that plan have never 
been implemented. So I think that, you know, as a Nation as a 
whole, we need to get refocused. Is this an acceptable living 
condition for our citizens? And if it is not, then we need to 
have a passion to do that.
    For veterans, I think that there are good people at the VA 
that are doing great things, and I think that the rest of the 
country thinks that the VA takes care of all veterans for all 
things. And so there is that, you know, sloughing off, we will 
just send them to the VA.
    The VA is not delivering consistent service at all VA 
hospitals or regional offices for benefits. There is not 
consistent--you have pockets of good things happening, and then 
you have some that are really inadequate. And I think that the 
VA needs to be more consistent and step up to that.
    But the Secretary of the VA needs to make sure that 
everyone knows, the other Cabinet members know, that homeless 
veterans are everybody's responsibility from all those Cabinet 
levels, and that needs to start with the President and down to 
the Interagency.
    Mr. Shaughnessy. Senator Wellstone, in 1987, after I got 
sober, I went down to the library and learned how to run a non-
profit agency, and I started one for homeless veterans. And 
actually it is still running real strong today, actually. And I 
knew that I made a difference from outside the VA system. So 
that is when I took the job inside the VA to see if I could 
make a difference from the inside, the way that people think 
about homeless veterans.
    Instead of people thinking about them as being basically a 
pain the butt to deal with because they don't smell very nice 
or they don't look very nice or their dental care is awful, I 
thought that make a difference inside and educating people 
inside about what homelessness is all about, that it would make 
a difference.
    I personally haven't seen a tremendous difference in that 
since I have been working in the VA about the past 5 years. 
However, people are starting to become more cognizant of the 
problem itself in there. I think that people don't want to look 
at it because it is an ugly thing to look at for a lot of 
people. It is easier to overlook the homeless people and to 
step over them, especially the substance-abusing one, than it 
is to deal with them because it takes effort to deal with them. 
And I think that is what it is. It is a little bit a lack of 
effort, maybe, and a lack of wanting to deal with the problem 
because it is a hell of a problem to tackle.
    Senator Wellstone. I have got to believe--and I want to let 
Dick have the last word. I have got to believe, Dan, that when 
someone is struggling with substance abuse and they come in and 
there is a long wait, that has got to be lethal. You know, that 
is the moment when that person is going to come in, and then 
there is this long wait and they don't get the care, and then 
they are gone. Is that not true?
    Mr. Shaughnessy. Over 60 percent of the people basically on 
our waiting list drop off. That is 60 percent--because when 
they come in, they are ready right then. That is the point that 
it is to get them, when they are ready. And, you know, 
sometimes we have to put people--the people that are lucky 
enough to get into detox, sometimes they have to go back and 
wait in a shelter until a bed opens up in the intensive 
treatment program, and that is not good continuity of care. And 
once you get them in the door, that is the best time to keep 
them because then you can do a full range of services. And that 
is when you start building people's self-esteem and they can 
get better.
    The VA has great programs. I mean, I used the vocational 
rehabilitation program for my bachelor's degree and my master's 
degree. That is an unbelievable program that not a lot of 
people know about. But we haven't seen a veterans benefits 
officer at our VA in probably 8 years. So basically what 
happens is who helps the vets is I am doing a lot of the work 
that I don't, you know, know as well as other people. However, 
I do try to send them to the DAV and the VFW and the American 
Legion and the Military Order of Purple Heart, Paralyzed 
Veterans of America. They all do a great job at trying to get 
these people disability payments that they rightly deserve for 
being wounded in the service or whatever.
    I had a gentleman come in the other day that was 100-
percent service-connected for post-traumatic stress disorder. 
He was a Marine combat veteran in Vietnam, did two tours. We 
had to send him back to the street because we don't do heroin 
detoxes. So it is a difficult thing.
    So attitudes have to change. Are they going to? I don't 
know. Sometimes I am a little bit doubtful. But, fortunately, 
seeing how passionate you are about this actually gives me a 
little more hope.
    Thank you.
    Senator Wellstone. Thank you.
    I would like you to finish up for us.
    Mr. Schneider. Thank you very much, sir. I am just 
overwhelmed by my colleague, I really am. In listening to what 
has been said, I remember a gentleman last year that stood up 
and put his hand up in the air and said, ``Help is on the 
way.'' ``Help is on the way.'' He made that commitment to the 
armed forces. He made that commitment to the veterans. And I 
believe that the help that is necessary for homeless veterans 
and motivation, the national motivation needs to come from the 
top. It needs to come from Pennsylvania Avenue.
    I think we have awfully dedicated people within VA. I think 
we have people who are going the extra mile. But they are 
limited by dollars, and they are also limited by policies that 
have taken beds and inpatient care units out of hospitals that 
are making those six out of ten leave the VA and walk away. 
And, you know, there are probably some people that are saying, 
gee, they didn't come back, they really didn't want to be 
cured. They never knew the motivation or the attitude that you 
have got to get them when they are ready. And they rejected 
them when they were ready, and they left. And they may have 
died on the streets or they may have left and died elsewhere. 
But they were ready and they came and they had their hand out, 
and they were told to come back at a more convenient time, we 
are not ready to do that today.
    I think it comes down from the top. It comes down to 
motivating the Interagency Council, the Cabinet officers. It 
comes down to the dollars and to the appropriations that will 
be made.
    You know, we never would have put anybody on the moon if we 
didn't fund the program. We will not end homelessness unless we 
take the dollars, put them into the programs, and begin the 
migration of people from the streets into the shelters, through 
the care that is needed, to employment readiness, and then 
employment. Employment takes a person off the street, and it is 
not flipping hamburgers. Employment with credible jobs takes 
them off the streets.
    Senator Wellstone. Sure. Absolutely.
    Mr. Schneider. Mr. Wellstone, I would just like to end with 
this comment. Thank you for your leadership and, to end with, 
thank you also that when you started today you said you named 
this for Heather French. Heather French, Miss America 2000, 
created more public awareness and the national attention on 
homelessness than anybody in the past 10 years. You have named 
your legislation, as it was named in the House, for an 
individual who deserves singularly the honor of being the 
veterans' advocate, and I applaud you for it.
    Thank you.
    Senator Wellstone. Well, I would like to thank--I want to 
get back to the panelists. I want to say to the Filipino 
veterans who have been sitting through this long hearing that 
we thank you for coming. Congressman Filner, who is a great 
advocate for you, has certainly been in touch with me, and I 
would be remiss if I didn't mention his advocacy. I want you to 
know he has really spoken very strongly for you, and I 
appreciate your being here.
    I would like to thank other Senators who were here. They 
had other committee--you know, it has been my honor to get to 
chair this, but they all are very committed to this area, and 
they had other markups to go to and other committee hearings. 
But I feel like I got--I am so glad I got to hear from you. 
Thank you. What you said was very powerful, and I believe it 
will make a difference. I believe that.
    Thank you so much. Thank you, everyone.
    The hearing is adjourned.
    [Applause.]
    [Whereupon, at 3 p.m., the committee was adjourned.]
                            A P P E N D I X

                              ----------                              

  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii
    Mr. Chairman, thank you for holding today's hearing which focuses 
on how we can better address the needs of our nation's homeless 
veterans. I would like to welcome Veterans Affairs Under Secretary for 
Health Dr. Thomas Garthwaite and his colleagues from the Department. I 
would also like to welcome the representatives of organizations which 
assist homeless veterans.
    As we all know, veterans comprise about one-third of the adult 
homeless population in the United States on any day. These veterans 
typically face multiple challenges in their daily lives, including 
mental and physical disorders, substance abuse problems, and limited 
work and social skills.
    Homelessness among veterans is a complex issue which presents many 
questions as to how our government can be more effective in assisting 
homeless veterans to realize their full potential. I believe that 
today's hearing will help to identify ways to improve the effectiveness 
of existing programs and activities.
    Today's agenda also includes health legislation pending before the 
Committee. In particular, I am pleased that the agenda includes S. 
1042, the Filipino Veterans' Benefits Improvements Act of 2001. 
Introduced by Senator Inouye, the bill would improve benefits for 
Filipino veterans of World War II who served in the United States Armed 
Forces. I am a cosponsor of S. 1042 since it recognizes the 
contributions of Filipino World War II veterans and corrects an 
injustice by providing them with the veterans' benefits they deserve.
    I welcome the opportunity to receive oral testimony from today's 
witnesses on the veterans homeless legislation and review the written 
testimony on health legislation pending before the Committee.
    Mr. Chairman, I look forward to working with you and the other 
members of the Committee on legislation to address the needs of our 
nation's veterans.
    Thank you.
                                 ______
                                 
 Prepared Statement of Hon. Tim Hutchinson, U.S. Senator From Arkansas
    Mr. Chairman, Senator Specter, I would like to express my 
appreciation for including S.Res. 61 as part of this important hearing. 
Last March I introduced this legislation that would express the sense 
of the Senate that the Department of Veterans Affairs should recognize 
board certifications from the American Association of Physician 
Specialists for purpose of special pay by the Veterans Health 
Administration. This legislation is aimed to at ensuring that our 
veterans receive the best health care available.
    Since 1997, the AAPS has worked with the Congress and the VA, 
providing all documents requested by the Under Secretary for Health, in 
an effort to have their board credentials recognized. However, the VA 
thus far has not been responsive to these efforts.
    I believe that it is critical that our veterans have access to the 
highest quality health care. Because the Veterans Health Administration 
only recognizes the certifications of two organizations for special 
pay, it discourages many fine physicians from working with the VA. My 
legislation would signal the Senate's belief that are veterans should 
receive the highest quality health care from our nation's finest 
doctors.
    In addition, I would like to include for the record a statement 
from the AAPS. I look forward to hearing the comments of the 
administration, and hope that in the near future that S.Res. 61 can be 
approved by this Committee.
                                 ______
                                 
 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator From Hawaii
    Mr. Chairman and Members of the Committee:
    I introduced the Filipino Veterans' Benefits Improvement Act of 
2001 to provide our country the opportunity to right a wrong committed 
decades ago by providing Philippine-born veterans of World War II who 
served in the United States Armed Forces their hard-earned, due 
compensation.
    The Philippines became a United States possession in 1898, when it 
was ceded from Spain following the Spanish-American War. In 1934, the 
Congress enacted the Philippine Independence Act (Public Law 73-127), 
which provided a 10-year time frame for the independence of the 
Philippines. Between 1934 and final independence in 1946, the United 
States retained certain powers over the Philippines, including the 
right to call all military forces organized by the newly-formed 
Commonwealth government into the service of the United States Armed 
Forces.
    On July 26, 1941, President Roosevelt issued an Executive Order 
calling members of the Philippine Commonwealth Army into the service of 
the United States Armed Forces of the Far East. Under this order, 
Filipinos were entitled to full veterans' benefits. More than 100,000 
Filipinos volunteered for the Philippine Commonwealth Army and fought 
alongside the United States Armed Forces.
    Shortly after Japan's surrender, Congress enacted the Armed Forces 
Voluntary Recruitment Act of 1945 for the purpose of sending American 
troops to occupy enemy lands, and to oversee military installations at 
various overseas locations. A provision included in the Recruitment Act 
called for the enlistment of Philippine citizens to constitute a new 
body of scouts. The New Scouts were authorized to receive pay and 
allowances for services performed throughout the Western Pacific. 
Although hostilities had ceased, wartime service of the New Philippine 
Scouts continued as a matter of law until the end of 1946.
    Despite all of their sacrifices, on February 18, 1946, Congress 
betrayed these veterans by enacting the Rescission Act of 1946 and 
declaring the service performed by the Philippine Commonwealth Army 
veterans as not ``active service,'' thus denying many benefits to which 
these veterans were entitled.
    On May 27, 1946, the Congress enacted the Second Supplemental 
Surplus Appropriation Rescission Act, which included a provision to 
limit veterans' benefits to Filipinos. This provision duplicated the 
language that had eliminated veterans' benefits under the First 
Rescission Act, and placed similar restrictions on veterans of the New 
Philippine Scouts. Thus, the Filipino veterans that fought in the 
service of the United States during World War II have been precluded 
from receiving most veterans' benefits that had been available to them 
before 1946, and that are available to all other veterans of our armed 
forces regardless of race, national origin, or citizenship status.
    The Congress tried to rectify the wrong committed against the 
Filipino veterans of World War II by amending the Nationality Act of 
1940 to grant the veterans the privilege of becoming United States 
citizens for having served in the United States Armed Forces of the Far 
East.
    The law expired at the end of 1946, but not before the United 
States had withdrawn its sole naturalization examiner from the 
Philippines for a nine-month period. This effectively denied Filipino 
veterans the opportunity to become citizens during this nine-month 
window. Forty-five years later, under the Immigration Act of 1990, 
certain Filipino veterans who had served during World War II became 
eligible for United States citizenship. Between November, 1990, and 
February, 1995, approximately 24,000 veterans took advantage of this 
opportunity and became United States citizens.
    Although progress had been made, we must, as a nation, correct 
fully the injustice caused by the Rescission Acts by providing equal 
treatment for the service and sacrifice made by these brave men. The 
Filipino Veterans' Benefits Improvement Act of 2001 works to compensate 
the veterans by providing a number of needed benefits: Dependency and 
Indemnity Compensation to surviving widows of service-connected 
veterans living in the United States that were mistakenly excluded from 
benefits provided under the Fiscal Year 2001 Veterans Affairs, Housing 
and Urban Development, and Independent Agencies Appropriations Bill; a 
payment increase to New Scouts and survivors residing in the United 
States from 50 percent to the full dollar amount for service-connected 
disability compensation; authorization of non-service connected 
disability pensions for veterans residing in the United States in the 
same manner as United States veterans; authorization of non-service 
connected disability pensions for veterans residing in the Philippines, 
but at a rate of $100 per month, which matches the amount of the 
veterans' pension received by them from the Philippine government; 
access to veterans hospitals for non-service connected disabled 
veterans in the same manner as United States veterans; and $500,000 per 
year to the Outpatient Clinic in Manila.
    Heroes should never be forgotten or ignored, so let us not turn our 
backs on those who sacrificed so much. Many of the Filipinos who fought 
so hard for our nation have been honored with American citizenship, but 
let us now work to repay all of these brave men for their sacrifices by 
providing them the veterans' benefits they have earned.
                                 ______
                                 
Prepared Statement of Bob Filner, a Representative in Congress From the 
                          State of California
    I appreciate the opportunity to present written testimony to the 
Senate Committee on Veterans Affairs in support of S. 1042, legislation 
to restore long overdue benefits to Filipino World War II veterans. 
Congressman Benjamin Gilman and I have introduced similar legislation 
in the House of Representatives.
    Over fifty years ago, the brave Filipino soldiers of World War II, 
drafted into our Armed Forces by President Franklin D. Roosevelt, 
exhibiting great courage in the epic battles of Bataan and Corregidor 
were unceremoniously deprived of all veterans benefits due to them by 
Congress in the Rescissions Act of 1946.
    Particularly unfortunate was the language of this Rescissions Act 
which said that service in the Philippine forces was not to be 
considered active military service for the purposes of veterans 
benefits. This language took away the honor and respect due these 
veterans who served under the direct command of General Douglas 
MacArthur. It shocked the thousands of Filipinos who, along with the 
Americans with whom they fought side-by-side, suffered brutality during 
the Bataan Death March and as prisoners of war.
    President Harry S. Truman, when he signed the bill that included 
various other appropriations matters, as well as the rescission of 
Filipino veterans benefits, stated that a great injustice was being 
done. ``Filipino Army veterans are nationals of the United States. They 
fought with gallantry and courage under the most difficult conditions 
during the recent conflict. Their officers were commissioned by us. 
Their official organization, the Army of the Philippine Commonwealth, 
was taken into the Armed Forces of the United States by Executive Order 
of President Roosevelt. That order has never been revoked or amended. I 
consider it a moral obligation of the United States to look after the 
welfare of the Filipino Army veteran.'' That was President Truman in 
1946. That moral obligation remains with us today.
    For more than fifty years, a wrong has existed that must be 
righted. I urge you to think of morality, of dignity, of honor. There 
is scarcely a Filipino family today, in either the United States or in 
the Philippines, that does not include a World War II veteran or a son 
or daughter of a veteran. Fifty years of injustice burn in the 
veterans' hearts. Now in their 70s and 80s, their last wish is the 
restoration of the honor and dignity due them.
    It is time that our nation adequately recognize their contributions 
to the successful outcome of World War II, recognize the injustice 
visited upon them, and act to correct this injustice. To those who ask 
if we can afford to redeem this debt, I answer: ``We can't afford not 
to.'' The historical record remains blotted until we recognize these 
veterans.
    I urge you to work with your colleagues, both in the Senate and in 
the House of Representatives, to pass legislation that demonstrates our 
deep respect for the Filipino Veterans of World War II.
                                 ______
                                 
Prepared Statement of Benjamin A. Gilman, a Representative in Congress 
                       From the State of New York
    Mr Chairman, I want to thank you and the members of the Senate 
Committee on Veterans Affairs for holding this hearing this morning and 
agreeing to have a panel to discuss the issue of benefits for Filipino 
veterans of World War II. I would also like to express my gratitude to 
you for inviting me to testify on this panel.
    As many of you may know, I have long been an advocate of Filipino 
veterans in the Congress. For the past several Congresses, I have 
introduced legislation to amend title 38, of the US Code, in order to 
provide that persons considered to be members of the Philippine 
Commonwealth Army veterans and members of the special Philippine 
Scouts--by reason of service with the armed forces during World War 
II--should be eligible for full veterans benefits.
    On July 26, 1941, President Roosevelt issued a military order, 
pursuant to the Philippines Independence Act of 1934, calling members 
of the Philippine Commonwealth Army into the service of the United 
States forces of the far east, under the command of Lt. General Douglas 
MacArthur.
    For almost four years, over one hundred thousand Filipinos, of the 
Philippine Commonwealth Army fought alongside the allies to reclaim the 
Philippine Islands from Japan. Regrettably, in return, Congress enacted 
the Rescission Act of 1946. This measure limited veterans eligibility 
for service-connected disabilities and death compensation and also 
denied the members of the Philippine Commonwealth Army the honor of 
being recognized as veterans of the United States armed forces.
    A second group, the special Philippine Scouts called ``New Scouts'' 
who enlisted in the U.S. armed forces after October 6, 1945, primarily 
to perform occupation duty in the Pacific, were similarly excluded from 
benefits.
    These members of the Philippine Commonwealth Army and the special 
Philippine Scouts served just as courageously as their American 
counterparts during the Pacific war. Their contributions helped to 
disrupt the initial Japanese offensive's timetable in 1942, at a point 
when the Japanese were expanding unchecked through the western Pacific.
    This delay in the Japanese plans helped to buy valuable time for 
the scattered allied forces to regroup, reorganize and prepare for 
checking the Japanese advance in the battles of the Coral Sea and 
Midway. Many have forgotten how dark those days before the victory at 
Midway really were.
    These actions also earned the Filipino solders the wrath of their 
Japanese captors. As a result, many of them joined their American 
counterparts in the Bataan death march, and suffered inhumane treatment 
which redefined the limits of human depravity.
    During the next two years, Filipino Scout units, operating from 
mobile isolated bases in the rural interior of the Philippine Islands, 
conducted an ongoing campaign of guerilla warfare, tying down precious 
Japanese resources and manpower.
    In 1944, Filipino forces provided valuable assistance in the 
liberation of the Philippine Islands which in turn became an important 
base for taking the war to the Japanese homeland. Without the 
assistance of Filipino units and guerrilla forces, the liberation of 
the Philippine Islands would have taken much longer and been far 
costlier than it actually was.
    In a letter to Congress dated May 16, 1946, President Harry S. 
Truman wrote: ``The Philippine Army veterans are nationals of the 
United States and will continue in that status after July 4, 1946. They 
fought under the American flag and under the direction of our military 
leaders. They fought with gallantry and courage under the most 
difficult conditions during the recent conflict. They were commissioned 
by us, their official organization, the army of its Philippine 
Commonwealth was taken into the armed forces of the United States on 
July 26, 1941. That order has never been revoked and amended. I 
consider it a moral obligation of the United States to look after the 
welfare of the Filipino veterans.''
    I believe it is time to correct this injustice and to provide the 
members of the Philippine Commonwealth Army and the special Philippine 
Scouts with the benefits and the services that they valiantly earned 
during their service in World War II.
    Mr. Chairman, I realize that the current fiscal climate may 
preclude the awarding of full benefits. The Filipino Government is 
cognizant of this as well. However, it is my hope that this hearing, 
and any future one that we may hold in the House, will allow us to 
reach some type of workable solution which provides the recognition and 
compensation that these veterans so valiantly earned.
                                 ______
                                 
      Prepared Statement of the American Association of Physician 
                           Specialists, Inc.
    The American Association of Physician Specialists, Inc. (AAPS) is a 
national organization, which represents thousands of physicians in many 
specialties and types of practices throughout the United States and is 
registered to do business in the State of Georgia as a not-for-profit 
corporation. The AAPS was organized in 1950 and incorporated in 1952 to 
provide a clinically recognized mechanism for specialty certification 
of physicians with advanced training. Unlike other medical 
associations, the AAPS accepts both osteopathic (DO) and allopathic 
(MD) physicians as full members.
    AAPS coordinates the administrative and testing activities of 
twelve autonomous yet affiliated Boards of Certification providing 
physician specialty certification/re-certification and serves as the 
administrative home for these boards. The twelve autonomous Boards of 
Certification focus on activities related to clinical excellence 
through certification and re-certification.
    Boards of Certification recognized by the AAPS, although 
independent bodies, must meet rigorous standards for specialty 
certification established by the Association's Certification Standards 
Committee and approved by the House of Delegates of AAPS. Each board 
has its own by-laws and separate eligibility requirements for 
certification.
    The AAPS-affiliated Boards of Certification are delineated into the 
following twelve medical specialty areas:
<bullet> Anesthesiology
<bullet> Dermatology
<bullet> Emergency Medicine
<bullet> Family Practice
<bullet> Geriatric Medicine
<bullet> Internal Medicine
<bullet> Neurology/Psychiatry
<bullet> Obstetrics and Gynecology
<bullet> Orthopedic Surgery
<bullet> Plastic & Reconstructive Surgery
<bullet> Radiology/Radiation Oncology
<bullet> Surgery
    AAPS is extremely cognizant of the importance of maintaining the 
highest level of standards possible for all exams, an ongoing process 
that must constantly be evaluated and reevaluated. For that reason AAPS 
contracts with an independent testing/psychometric firm that assists 
the organization in technical aspects of examination objectives.
    Once a physician becomes certified by an AAPS-affiliated Board of 
Certification, re-certification is a mandatory requirement. Diplomates 
must complete the re-certification process every ten (10) years to 
maintain their certification. Beginning in 2002, those certified must 
re-certify every eight (8) years in order to maintain the 
certification. These boards of certification offer both written and 
oral examinations in January and July in Atlanta, Georgia.
    In 1997, the VHA issued a directive that no non-American Board of 
Medical Specialties (ABMS) certified physician could be hired. They 
added the Bureau of Osteopathic Specialists in 1998. The AAPS had 
protested this directive since it was published, and, in January of 
2001, the VA General Counsel advised the VA to rescind the directive 
because it was illegally published, as the Under Secretary for Health 
at the VA rather than the Secretary signed it. Only the Secretary has 
the power to issue such directives. Now that AAPS physicians are, once 
again, employable at VA hospitals, AAPS is asking that they be 
recognized for certification pay. In the VA system and in the military, 
if a physician is board certified, he/she receives more pay for the 
certification if the certification is recognized.
    Since 1998, AAPS has communicated and met with representatives of 
the Department of Veterans' Affairs on several occasions. When requests 
for information have been forthcoming from the Department, AAPS has 
provided the requested materials in a timely fashion, including a 750-
plus page Role Delineation Study/Practice Analysis with supporting 
documentation. AAPS has demonstrated the equivalency of its eligibility 
requirements for certification with those of the American Board of 
Medical Specialties (ABMS) and the Bureau of Osteopathic Specialists 
(BOS) of the American Osteopathic Association (AOA) through a side-by-
side Comparative Analysis.
    As recently as June 2001, representatives of the AAPS met with the 
Chief of Staff to Secretary Principi and, subsequently, provided 
additional information on the accreditation of AAPS to present 
continuing medical education by the Accreditation Council for 
Continuing Medical Education (ACCME), an organization with rigorous 
standards and requirements. The ACCME is comprised of the American 
Board of Medical Specialties, the American Hospital Association, the 
American Medical Association, the Association for Hospital Medical 
Education, the Council of Medical Specialty Societies, the Federation 
of State Medical Boards and the Association of American Medical 
Colleges.
    At this juncture, it is AAPS' sincere hope and desire to continue 
to work with the Department of Veterans' Affairs, via an open and 
substantive dialogue, in order to ensure the best possible quality of 
care for our nation's veterans population. AAPS feels very strongly 
that S. Res. 61 is the right step in this direction so far as 
certification credentials, quality of care, specialty pay, and the 
creation of a level playing field.
                                 ______
                                 
   Prepared Statement of Eric Lachica, Executive Director, American 
                    Coalition for Filipino Veterans
    Good afternoon, Mr. Chairman and members of the Veterans Affairs 
Committee.
    My name is Eric Lachica, the executive director of the American 
Coalition for Filipino Veterans. Our nonprofit organization advocates 
for the interests of Filipino American veterans of World War II and is 
based in Washington, D.C.
    Our national coalition has more than 4,000 members and leaders 
representing more than 200 affiliated community-based organizations. 
During the past five years, we have campaigned for full recognition, 
justice and equal treatment of 12,000 of our elderly Filipino American 
veterans who reside in America. Furthermore, we have worked towards 
obtaining equitable benefits for Filipino veterans who reside in the 
Philippines who loyally served under the U.S. flag.
    I am also a son of an 80-year-old Filipino American veteran who was 
honorably discharged in 1946 from the U.S. Armed Forces in the Far 
East. My father now lives in Temple City, California.
    Mr. Chairman, with your permission, I would like to briefly 
introduce to the Committee, the president of our coalition, Mr. Patrick 
Ganio Sr., a veteran who fought in the battles of Bataan and 
Corregidor. He is a recipient of a Purple Heart, and a former teacher 
who now lives in the District. He is joined today by two dozen 
Washington area veterans of our coalition. Mr. Ganio's statement to the 
committee is attached.
     In addition, I would like to mention the hardy veteran leaders who 
drove 300 miles to be here today. They are from the American Legion 
Douglas MacArthur Post in New York City and from the American Legion 
Alejo Santos Post in Philadelphia-Cherry Hill area.
    Our out-of-state members are being hosted by the local Veterans of 
Foreign Wars MacArthur Post in Fort Washington, Maryland and by the 
community organizations affiliated with the National Federation of 
Filipino American Associations, also known as ``NaFFAA.''
                          partial recognition
    Mr. Chairman, these veterans with us today all fought for freedom 
and democracy as U.S. soldiers half a century ago. Today, they are 
still fighting for full recognition as American veterans.
    In the 105th and 106th congress, we and our allies won several 
partial victories beginning with the July 1996 House-Senate Concurrent 
Resolutions (HCR 191-SCR 64) that ``honored and recognized the 
contributions'' of Filipino WWII veterans.
    Then, in 1997, we had a historic Senate VA Committee hearing on our 
``Equity bill,'' S. 623 that was introduced by our unwavering champion 
in the Senate, the Honorable Daniel Inouye, and co-sponsor Senator 
Daniel Akaka, a member of this committee.
     In 1998, the House VA committee conducted a 4-hour-long hearing 
solely devoted to Filipino veterans' benefits and ``The Filipino 
Veterans Equity Act,'' H. R. 836. Our campaign then achieved 208 
cosponsors--ten votes shy of the majority in the House.
    In 1999, we won the ``Special Veterans Benefits'' under Public Law 
106-169, Title VIII that allowed lonely and poor Filipino American 
veterans to take 75 percent of their monthly Supplemental Security 
Income (now about $397) upon relocating to the Philippines. The 
humanitarian law permitted them to rejoin their families and to live in 
dignity.
    As of today in the Philippines, more than 2,000 veterans are 
receiving the special benefit from the Social Security Administration 
and thus saving the U.S. taxpayers 25 percent in SSI payments or about 
$3 Million per year--in addition to Medicaid savings.
    Last year with your committee's support, we won service-connected 
compensation at the full-dollar rate under P.L. 106-377 for our 950 
U.S.-based Filipino veterans with war related injuries. Moreover, the 
VA burial benefits of P.L. 106-419 made our non-service-connected 
veterans eligible for a burial in national cemeteries and for a funeral 
expense allowance of $300, a headstone, a U.S. flag and a Presidential 
Memorial Certificate.
    Our equity campaign has progressed this far because of the step-by-
step strategy and coalition-building approach of our leaders in major 
cities. The political support from our key allies in the American 
Legion, V.F.W., Vietnam Veterans of America, Asian American advocacy 
groups, and Filipino American community organizations was crucial.
                           equitable benefits
    With this background, we are here this afternoon to urge your 
committee to support the bipartisan and equitable bill, the ``Filipino 
Veterans Benefits Improvement Act,'' S. 1402 that was introduced last 
month on Flag Day by Senator Inouye after consultations with Rep. 
Benjamin Gilman (R-NY) and Rep. Bob Filner (D-CA).
    Mr. Chairman, S. 1042 primarily seeks to provide eligibility for VA 
health care and permanent disability pension benefits to Filipino 
American veterans of World War II.
    Your staff requested me to limit my testimony today to the VA 
medical care component of S. 1042 and I will do so. However, on behalf 
of our members' interest, I will later submit additional testimony 
within the ten-day submission period for the disability pension 
benefit.
    The historical facts and legislation that I cite are contained in 
the Department of Veterans Affairs research and options paper prepared 
for President Clinton. It was released to the public on January 9, 2001 
and was entitled, ``A Study of Services and Benefits for Filipino 
Veterans,'' hereinafter referred to ``USDVA Study.'' The July 22, 1998 
transcript of the ``Benefits for Filipino Veterans'' hearing issued by 
the House Committee on Veterans' Affairs is another reference, 
hereinafter referred to ``1998 Hearing.''
    Based on the findings of the USDVA Study and the 1998 Hearing, 
there are seven compelling reasons why your VA committee should support 
S. 1042.
    FIRST, Filipino veterans were U.S. nationals when they were 
``called into service'' by President Roosevelt in his military order of 
July 26, 1941. Under the G.I. Bill of Rights, ``VA officials considered 
that Filipino military service met the statutory definition of U.S. 
veteran until Congress passed Public Law 79-301 and 79-391 in 1946,'' 
the USDVA Study stated.
    SECOND, Succeeding Administrations and Congresses have wrestled 
over the past five decades to remedy the dilemma faced by Filipino 
veterans. President Truman stated his objections to the so-called 
``Rescission Acts'' of 1946:
          ``The Philippine Army veterans are nationals of the United 
        States and will continue in that status until July 4, 1946. 
        They fought under the American flag and under the direction of 
        our military leaders. They fought with gallantry and courage 
        under the most difficult conditions . . . They were 
        commissioned by us. Their official organization, the army of 
        the Philippine Commonwealth was taken into the Armed Forces of 
        the United States on July 26, 1941. That order has never been 
        revoked nor amended. I consider it a moral obligation of the 
        United States to look after the welfare of the Filipino 
        veterans.''
    THIRD, Under the Immigration and Naturalization Act of 1990, an 
estimated 28,000 elderly Filipino veterans became naturalized American 
citizens and 13,849 are U.S. residents by virtue of their loyal and 
well-documented military service in the U.S. Army Sen. Inouye recently 
said, ``Many of the Filipinos who have fought so hard for us have been 
honored with American citizenship, but let us now work to repay all of 
these brave men for their sacrifices by providing them the full 
veteran' benefits.''
    FOURTH, There is a congressional precedent to solve this dilemma: 
``Public Law 94-491 enacted in October 1976 . . . extended VA health 
care benefits to veterans of World War I or II who served in the Armed 
Forces of either Czechoslovakia or Poland. . . . in armed conflict 
against enemies of the United States and [who] have been U.S. citizens 
for 10 years or more'' (USDVA Study, p. 2). Why not include) the 
Filipino American veterans?
    FIFTH, The USDVA Study estimated that providing VA health care to 
the U.S. population of non-service-connected Filipino veterans and New 
Scouts would cost $12.1 Million in discretionary spending (under Option 
G, p.28). On the issue of ``budget offsets,'' if S. 1042 were made into 
law, Filipino American veterans would have to choose between their 
Medicaid doctors and the VA clinic's. To the American taxpayers, the 
ultimate cost will still remain the same.
    SIXTH, Providing VA health care to an estimated 8,000 Filipino 
American veterans and to 33,000 Filipino WWII veterans who reside in 
the Philippines for their service and non-service-connected 
disabilities at the Manila Outpatient Clinic with an annual budget of 
$500,000 may be sufficient to begin with. This assistance would foster 
better U.S relations with the Republic of the Philippines, a strategic 
ally.
    In May 2000, Mr. Ganio and I visited the Manila USDVA Outpatient 
Clinic and met with the Medical Director and the Clinic Coordinator. We 
were surprised to learn that they could see 15 more patients per day 
above their 45 daily average without increasing their medical staffing 
level and overhead costs. We then asked why our Filipino Americans 
veterans who reside in or visit the Philippines could not be seen on 
space-available and non-priority basis. We were told it was because of 
VA policies based on laws that excluded these veterans.
    As an added option, the VA Committee should consider the USDVA 
Study Option K that would restore the grant-in-aid program to assist 
the Philippine government in meeting the health care needs of Filipino 
veterans with the same annual funding discontinued in 1996.
    SEVENTH, According to a recent VA policy interpretation of P.L. 
106-419 on burial expense assistance, non-service-connected veterans of 
the Philippine Commonwealth Army and Recognized Guerillas who are U.S. 
permanent residents would now be treated like any other American 
veteran if they died in the U.S. This means a poor and disabled 
Filipino American veteran would now be recognized as a U.S. veteran 
after his death. He later could be buried in a VA national cemetery. 
However, while he lives, he is denied enrollment as a patient at VA 
hospital--a dishonorable situation indeed.
                            full recognition
    Mr. Chairman, S. 1042 will correct this inequity. What this bill 
would do is to simply permit our 12,899 Filipino American veterans who 
reside in the U.S. to get a ``VA Universal Access ID Card'' and enroll 
in VA facilities in the U.S. and in the Philippines.
    Indeed in California, Hawaii, Washington, New York and other 
states, our veterans feel the shame of being treated as second-class 
citizens when they are turned away at their VA centers. When in fact, 
their military service should have earned them the full honor in 
carrying the red, white and blue VA card and the chance to qualify for 
a permanent disability pension.
    Mr. Chairman and members of the committee. On behalf of my father 
who was turned away years ago at the VA hospital in Los Angeles and our 
members who have truly been patient, I urge you to pass S. 1042. Our 
veterans deserve full recognition. Equity now.
                                 ______
                                 
   Prepared Statement of Patrick G. Ganio, Sr., National President, 
                American Coalition for Filipino Veterans
    Mr. Chairman: My name is Patrick G. Ganio, Sr., a WWII veteran 
survivor of Bataan and Corregidor, a former POW, and the National 
President of the American Coalition for Filipino Veterans based in 
Washington, DC. It is my distinct honor and a privilege to address the 
honorable members of this Committee on the subject of healthcare to 
Filipino WWII Veterans both for service connected and non-service 
connected disability condition. For this, I wish to thank the 
distinguished members of the committee and the Honorable Chairman.
    There is no denying of the fact how history and events have brought 
the United States and the Philippines together. As American nationals, 
the organized military forces of the Commonwealth of the Philippines 
were called and ordered by President Roosevelt to serve in the United 
State Army Forces in the Far East under General Douglas MacArthur in 
the period of the second world war. Our Filipino and American forces 
fought and laid their lives together in defense of our freedom and 
democracy. The great war made no distinction between Americans and 
Filipinos.
    When victory was won and the war was over, their distinction turned 
out distinct in the administration of veterans benefits under the 
Veterans Affairs Benefit Program, a glaring disparity of right, 
privileges, and compensation benefits created by the passage of the 
Supplemental Surplus Appropriations Rescission Acts of 1946 codified as 
Sec. 107, Title 38 of the US Code. Since then our issue on our veterans 
benefits claim is raised on discrimination and unfair treatment. We 
have fought in defense of this government and country we love so well 
in the last war but it is ironic that we continued fighting for justice 
and equity from the same government and country we defended.
    At this point in time in over 55 years today before this honorable 
committee after the passage of the Rescission Acts, I consider it one 
last chance for us and one last look we seek from this Committee, this 
Congress, and this Administration into the validity of our search for 
justice from this government and country we fought and defended to 
enact the appropriate corrective legislation to correct the inequity 
done to us in seeking for full veterans benefits equal with other class 
of American veterans under the same situation.
    It is a fact that as US nationals owing allegiance to the United 
States, we served. We fought and laid our lives in defense of the 
American flag as called and ordered by President Roosevelt for federal 
service in the Armed Forces of the United States during the period of 
war. The order of the President was a constitutional contract for 
Federal service in the armed forces of the United States in the great 
war where tens of thousands of lives were lost, an undisputable fact 
that validates our military service.
    But not withstanding the constitutional validity of the President's 
Military Order, the 79th Congress deliberately passed the Supplemental 
Surplus Appropriations Acts of 1946 to expressly deem our military 
service as not active service in the US Military or Naval Forces of the 
United States. We were singly excepted from all other class of 
servicemen for purposes of right, privilege, or benefits under the laws 
of the United States. The legislative history of the Rescission Acts is 
rent with the intent to disqualify Filipinos from the full benefits of 
the GI Bill of Rights by reason of their large number that required a 
Federal obligation of $3-B compensation benefits on the basis of equal 
footing with all other American veterans.
    Over 55 years since the passage of the Rescission Acts to date we 
have raised the issue of unfair treatment and injustice to our claim 
for veterans benefits we validly deserve for the service we rendered in 
the defense of this government and this country we love so well. Where 
the intent of Congress in passing the Servicemen's Readjustment Act 
better known as the GI Bill of Rights on June 22, 1944 providing for a 
range of compensation benefits to all men and women bravely and 
courageously fighting under the American flag without regard to race, 
color, or nationality, Congress reversed itself in squarely 
discriminating against Filipinos from their right to full veterans 
benefits.
    Mr. Chairman, in spite of our long pursuit for fair treatment of 
which this honorable committee, this Congress, and this Administration 
are aware of the legal technicalities brought down on us to bear the 
painful struggle for justice from the same government and country we 
fought for, I am profoundly grateful to the opportunity given me to 
make our last ditch to be heard. I wish to acknowledge the support to 
our cause you have consistently given us, and, the support of all our 
allies in this Congress, the Administration, and from our Community.
    And in the long road we tread to justice, I would like to 
acknowledge the small victories we won for the benefits of our 
veterans. Equally and gratefully as well, I would like to recognize the 
consistent support of all who understand our issues and plight and from 
whose support we found strength and encouragement in our continuing 
struggle. Whatever we have won from the Immigration Reform Act of 1990; 
the Special Veterans Benefits of PL 106-169 under the Social Security 
Program; the Burial Benefits under PL 106-417; and the DIC and Service 
Connected Compensation Benefits under PL 106-377 as VA-HUD Federal 
Budget Appropriations Act of 2001; all of these, we know, are moves to 
resolve our claims issue closer to full ``equity.''
    The American Coalition for Filipino Veterans of over 4000 members 
across the country including Hawaii, strongly urge the Honorable 
Chairman and members of this Committee to support and endorse into law 
Senator Inouye's Senate Bill, S 1042 providing for the much needed 
healthcare and an equitable pension benefits to Filipino Veterans 
living in the Philippines with access to the VA Healthcare facilities 
here and in the Philippines. Our veterans are on the fast track of 
aging and time for them is of the essence. I earnestly appeal to this 
Honorable Committee to approve this bill as one more step closer to the 
fulfillment of America's obligation and commitment to justice to 
Filipino veterans.
    Thank you.
                                 ______
                                 
   Prepared Statement of Jacqueline Garrick, ACSW, CSW, CTS, Deputy 
  Director, Health Care, National Veterans Affairs and Rehabilitation 
                    Commission, The American Legion
    Mr. Chairman and Members of the Committee:
    The American Legion appreciates the opportunity to comment on these 
key issues that face the nation's veterans. Homelessness, nursing 
shortages, services, priority access to care, and quality assurance 
deserves special attention. The bills and draft legislation under 
consideration have been reviewed by The American Legion and we offer 
the following comments and recommendations.
      s. 739 provisions to improve programs for homeless veterans
    The American Legion recommends that a quality standard be 
established for homeless veterans' programs. A greater emphasis on 
program outcomes is necessary to assure that the veterans' grant 
programs operated by the Departments of Veterans Affairs (VA), Labor 
(DoL), and Housing and Urban Development (HUD) are efficient and 
effective. Over the past ten years, in spite of millions of dollars 
being spent on homeless veterans' programs, the homeless veterans' 
population has increased by approximately 75,000 veterans. To get ahead 
of the current problem, 10,000 additional transitional housing beds are 
required. The proposed Heather French Homeless Assistance Act will 
primarily address needed medical services, but will not address the 
larger systemic issue of program results and the necessary expansion of 
VA beds.
    An effective ``best practices'' program model must be created and 
replicated across the country and be appropriate to veterans' homeless 
assistance programs. Using the current ``revolving door'' program model 
will never critically address the homeless veterans' problem.
    Some ideas generated to create an effective program model include:
    1. Determine what constitutes a successful program model and what 
services need to be provided to homeless veterans,
    2. Develop an industry ``standard of excellence'',
    3. Develop a concurrent program review, i.e., who currently meets 
established standards and develop a paradigm to meet such standards,
    4. Convert current grant program to a contract program,
    5. Reward programs meeting the established industry standards,
    6. Data collection (demographic analysis of homeless veteran 
population),
    7. Allow programs not meeting industry standards a reasonable 
period to adjust programs and services,
    8. Encourage existing grant programs to consolidate energy, efforts 
and resources,
    9. Encourage a greater degree of coordination and cooperation among 
Federal agencies responsible for homeless veterans' assistance 
programs, and
    10. Place a greater emphasis on the prevention of homelessness.
  draft legislation to improve recruitment and retention of va nurses
    The American Legion appreciates the opportunity to provide the 
Committee comments on the critical issue of the nursing shortage and 
its potential effect on VA health care. Clearly, sufficient and high 
quality nursing care is one of the most important and necessary 
components of VA's healthcare delivery system. It is the backbone of 
direct patient care. Quality nursing care is synonymous with quality 
patient care. One aspect of ensuring quality nursing care is ensuring 
that there is sufficient coverage for the range (amount) and complexity 
of veteran care. This is essential if VA is to meet its obligations and 
keep the promise of quality medical care for veterans.
    Articles in nursing publications state the nurse shortage is 
evident by rising nursing vacancy rates. It has resulted in closed 
beds, canceled non-urgent surgeries, and the diversion of patients from 
emergency rooms. It is caused by, among other things, the diminishing 
supply of new talent entering the profession coupled with a growing 
demand for health care services. Surveys and studies report an alarming 
picture for the future of nursing. The preliminary results of the 
latest National Sample Survey of Registered Nurses showed a 5.4 percent 
increase in the total RN population, but it was the lowest increase in 
the previous national surveys, which date back to 1977.\1\ The latest 
numbers from the American Association of Colleges of Nursing indicate 
that enrollments in five year baccalaureate nursing schools dropped 
16.6 percent during the past five years. Furthermore, the supply of 
nurses, reported as insufficient, will slow even further. In addition, 
the registered nurse (RN) workforce is getting older and as those RNs 
retire, the supply of working RNs is projected to be 20 percent below 
requirements.\2\ Thus, this is not just a cyclical nursing shortage, 
but a significant issue that will impact the delivery of health care 
for some time.
---------------------------------------------------------------------------
    \1\ The Registered Nurse Population. National Sample Survey of 
Registered Nurses--March 200. Preliminary Findings--February 2001. 
NurseWeek www.nurseweek.com/nursingshortage/rnsurvey.asp
    \2\ Critical Condition by Mary Elizabeth Hopkins. NurseWeek. March 
12, 2001.
---------------------------------------------------------------------------
    Overall, VA nurse staffing was relatively stable in 2000. The 
turnover rate was 9.5 percent, while the percentage of new nurses 
brought on board was 9 percent. VA's turnover rate of 9.5 percent 
compared very favorably to the US turnover rate of 15 percent. 
Nevertheless, VA is still experiencing nursing shortages. This often 
involves positions with special qualifications that vary by region. 
However, The American Legion also has seen several long term care 
programs, for example, the nursing homes in Tuskeegee, AL; Augusta, GA; 
and Amarillo, TX, that are not at capacity due to nursing coverage. 
Furthermore, the Legion has seen voids, such as 40 RN vacancies in 
Richmond, VA, such significant vacancies at VAMC Albuquerque that the 
medical center's ability to meet its mission has been compromised. 
Inpatient beds have been closed since May 2000, and elective surgeries 
delayed because the facility must limit its operations to ensure 
quality care and maintain a safe patient environment. Referral 
facilities have looked elsewhere because the VAMC can not accommodate 
their workload. Actions have been taken. The facility has advertised 
widely. Salary surveys have been conducted and salaries increased on 
several occasions. Recruiting bonuses have been established. Yet 
despite these efforts, a significant number of vacancies exist with no 
apparent light at the end of the tunnel. There are simply not enough 
nurses in the geographic area to fill the void, and the situation has 
been compounded by a reduction in the number of slots at the 
university's nursing school. The facility has stemmed the net loss of 
personnel, but it has not substantially increased the number of nurses 
on board to offset the previous losses.
    The American Legion commends Congress for its action in passing PL 
106-419, which revitalized VA salaries in a number of disciplines 
including nursing. While VA must remain competitive in its benefits 
package, salaries are only one component of the equation of retention 
and recruitment. A study by the Center for Health Economics and Policy 
at the University of Texas Health Science Center in San Antonio Texas 
identified three key factors that affect the retention of nurses. They 
were: work environment practices that may contribute to stress and 
burnout, the aging of the RN workforce combined with the shrinking 
applicant pool for nursing schools, and the availability of other 
career choices that making nursing less attractive. Other factors cited 
most frequently for leaving nursing included lack of time with 
patients, concern with personal safety in the healthcare setting, 
better hours outside of nursing, and relocating. Of note, 63 percent of 
those surveyed said that RN staffing is inadequate and that current 
working conditions jeopardize their ability to deliver safe patient 
care.\3\
---------------------------------------------------------------------------
    \3\ Veterans Health System Journal, March 2001. Article about the 
report, In Their Own Words: Career Fulfillment of Texas RNs.
---------------------------------------------------------------------------
    Other surveys and studies reinforce and expound these themes and 
factors. A 5-country study revealed that nurses in countries with 
different health systems reported similar problems in their work 
environment. Less than half of the nurses surveyed said that the 
administration listens and responds to their concerns. Less than 38 
percent said that there is enough staff to get the job done. Nurses 
also commented that staffing shortages force many RNs to perform non-
nursing duties.
    Health care institutions are struggling with and searching for 
solutions. ``Experts'' say that improving the work place and polishing 
the image of nursing are among the steps that must be taken. Within 
VHA, the National Association of Government Employees (NAGE) has been 
on record in Congressional testimony saying that VA must embrace 
staffing practices that are favorable to employee and family needs, 
such as hiring staff for permanent tours instead of rotating shifts and 
providing for alternative work schedules.
          NAGE noted that rewards and recognition for employees in the 
        field is ``non-existent''.
          NAGE further advocate that VA must increase its educational 
        resources to allow VA nurses to pursue BSN or masters degrees.
    Currently, VA has two Task Forces looking at the issues affecting 
nurse recruitment and retention.
    It is clear that nursing faces significant challenges imposed by an 
aging workforce, the increasing medical care demands of an aging 
population and a declining interest in the profession prompted by more 
preferable career alternatives and a perceived lack of appreciation and 
respect for the profession.
    VA has talent among its clinical staff that can help address the 
issues of teachers for nursing programs. VA must draw upon its models 
of collaborative efforts to maximize this effort.
    VA is a leader in the fields of the electronic medical record and 
patient safety initiatives. VA must ensure that such efforts are widely 
recognized because this will enhance VA's ability to attract those 
looking to be part of the cutting edge of nursing practice. VA must 
also continue to explore ways to enhance the work environment.
    Nurse morale is deeply affected by the amount of non-nursing 
functions imposed on nurses. VA must ensure that there is sufficient 
clinical and ancillary support to maximally use the nursing skills of 
nurse providers.
    VA needs the ability to aggregate data that will clearly define its 
position, relative to its nurse coverage. This would include the number 
of vacant positions and the associated consequence of those vacancies--
bed closures, delayed delivery of care.
    VA Chiefs of Nurses have said that the most effective recruitment 
tool is to capture student nurses while they are in training or as they 
graduate. In the private sector states have considered legislation 
providing starting bonuses, and private sector facilities have 
established programs for new nurses that involve preceptorships, 
mentoring and financial incentives to stay. The VA must not only stay 
abreast of these initiatives, but VA must be placed in a position to 
excel in these initiatives. Ironically, the VA can not be the leader in 
the pay scale. We expect the best, but we do not allow the system to be 
the best, at least in salary.
    The American Legion is appreciative of the many contributions of 
nurses, in particular, VA nursing personnel. Every effort must be made 
to recognize, reward and maximize these contributions to Americans 
veterans because [nurses and] veterans deserve nothing less.
s. 1160 authorize va to provide certain hearing impaired veterans, sci, 
                  and blind veterans with service dogs
    The American Legion is aware of the vital services these animals 
offer in assisting disabled veterans. The companionship and aide 
service dogs offer is well documented in the private sector. This level 
of care goes a long way to improve the quality of life for the 
disability community overall and veterans should be no different. VA 
should make every effort to assess and provide veterans requesting 
service dogs with that option.
   draft legislation to change means test for enrollment in priority 
                             groups 5 or 7
    The means test has been a widely discussed and long debated issue 
since its inception. The American Legion recognizes its necessity in 
determining care for those who are not service-connected disabled and 
are not indigent. However, The American Legion believes that 
determining eligibility based on an economic criterion can be skewed 
depending upon where in the country a veteran lives. There is no doubt 
that the cost of living in some cities is higher than in others and 
that there are variances from rural, to suburban and to urban 
neighborhoods. The American Legion fully supports VA developing a 
geographically adjusted means test according to the United States 
Bureau of Labor cost-of-living index by state as of January 1 of the 
preceding year, but not to reduce the threshold below the currently 
established limit.
  s. 1042 va shall provide hospital and nursing home care to filipino 
     veterans and for treatment at the manila va outpatient clinic
    The American Legion has long recognized the invaluable service to 
this nation provided by the Philippine Scouts who are still residing in 
the Republic of the Philippines. The American Legion supports S. 1042 
to allow Filipino veterans to have equal access to VA health care and 
benefits.
s. 61 recognition of board certifications from the american association 
                       of physicians specialists
    The American Legion is aware of the standards for certification 
from the American Association of Physician Specialists and recognizes 
this certification to be of equivalent value to the certification from 
the American Board of Osteopathic.
    Mr. Chairman, The American Legion, as always is grateful for your 
leadership on these key issues and appreciates the opportunity to 
provide this statement and remains available to answer any questions.
                                 ______
                                 
       Prepared Statement of the American Psychiatric Association
    The American Psychiatric Association (APA) is a national medical 
specialty society, founded in 1844, whose over 40,000 psychiatric 
physician members specialize in the diagnosis and treatment of mental 
and emotional illness and substance use disorders. As a major medical 
association, the care and treatment of our nation's veterans is a 
significant concern of ours. We feel compelled to be advocates for 
these heroes that stood in the forefront to protect our freedoms and 
way of life. It is our turn to look after their needs.
    An estimated 250,000 veterans, or roughly one-third of the adult 
homeless population, are veterans. Many of these veterans served in 
Vietnam. In fact, the number of homeless Vietnam era veterans is 
greater than the number of service persons who died during the Vietnam 
War. About 45% of these homeless veterans suffer from mental illness 
and slightly more than 70% suffer from alcohol or drug abuse problems. 
The VA offers an array of programs to help homeless veterans live as 
self-sufficiently and as independently as possible and provides the 
largest integrated network of homeless treatment and assistance 
services in the country.
                    homeless veterans mental illness
    With the large number of homeless veterans, it follows that these 
veterans typically suffer the same mental illnesses as found in the 
general homeless populations. These illnesses include schizophrenia, 
schizo-affective disorder, bipolar disorder, and major depression. All 
these illnesses differ in their causes, course, and treatment. 
Frequently, those in need of protection and services the most are the 
chronically mentally ill individuals who suffer from the cognitive and 
social deficits of their illnesses. As a result of their illnesses, 
these individuals are left to fend for themselves in the community. As 
noted in a federal task force report, their symptoms may differ 
dramatically. Symptoms may range from exhaustion and severe depression 
to displaying delusional or suspicious behavior. They may be withdrawn 
from any human contact or become possibly hostile and dangerously 
aggressive. Symptoms that, by officials not trained to diagnose mental 
illnesses, may be interpreted to be criminal in nature.
    These symptoms often occur because homeless individuals are not 
receiving the necessary psychotropic medications or have resisted 
treatment. Or, there may have been a breakdown within the familial and 
social network, the mental health and criminal justice systems, or 
societal polices ranging from housing availability to legal definitions 
of dangerousness to self.
                                housing
    Most individuals with severe mental illnesses can live in their 
communities with the appropriate supportive housing options. However, 
all too often, the suggested solution is temporary shelter residencies. 
Although temporary shelters may be necessary as an emergency resource, 
they do not offer solutions to a mentally ill person's problem. 
Temporary shelters even offered as solutions for the mentally ill 
implies that society has accepted the notion that mentally ill 
individuals should be permitted to refuse treatment and live on the 
streets.
    However, based on both clinical observation and research data, the 
reality is quite the opposite. Life on the streets is generally 
characterized by dysphoria and extreme deprivation. Studies suggest 
that the mentally ill often reject the housing opportunities presented 
to them because of expectations placed upon them to enter into 
unrealistic or inappropriate treatments or placements.
    The lack of low cost housing is one example for the high number of 
homeless mentally ill. Single-room-occupancy hotels have sharply 
declined over the years and for the most part are no longer an option 
for the homeless mentally ill. Without this housing option and with no 
other suggested options to fill the void, mentally ill individuals are 
left with few choices.
    The APA Task Force on Homelessness advocates the following:
    <bullet> The care, treatment, and rehabilitation of chronically 
mentally ill individuals must be made the highest priority in public 
mental health and receive the first priority for public funding;
    <bullet> Comprehensive and coordinated community-based mental 
health systems to engage homeless mentally ill individuals and help 
them to accept treatment and suitable living arrangements, while 
serving this mentally ill population immediately;
    <bullet> A full complement of research efforts to identify 
subgroups of the homeless mentally ill population, assess their service 
needs, study alternative clinical interventions, and evaluate those 
outcomes;
    <bullet> Professionals serving the mentally ill must be provided to 
the appropriate training to assess both functional strengths and 
dangerous degrees of disability;
    <bullet> Residential and treatment standards for homeless mentally 
ill individuals should measure up fully to the standards of care needed 
for severely disabled individuals and that they should be capable of 
being monitored; and
    <bullet> The provision of housing opportunities, the provision of 
psychotropic medications, and the provision of structure, in varying 
amounts, are each important and interrelated matters in serving the 
homeless mentally ill.
            president bush's veterans health care task force
    APA commends the President for convening a Veterans Health Care 
Task Force composed of officials and clinicians from the Department of 
Veterans' Affairs (VA) and Department of Defense (DOD), leaders of 
veterans and military service organizations, and leaders in health care 
quality to make recommendations for improvements in the VA. The VA will 
focus its attention on treating disabled and low-income veterans. The 
APA hopes the task force will address the workplace shortages of 
psychiatrists and psychiatric nurses in looking at quality of care. The 
APA also believes the task force should look at quality of care issues 
in formularies.
                advisory committee on homeless veterans
    The APA supports the language in Heather French Henry Homeless 
Veterans Assistance Act (S. 739) that calls for the establishment of an 
Advisory committee on Homeless Veterans.
                    access to mental health services
    The APA applauds the language in S. 739 that provides veterans 
access to mental health services that are on par to primary care. The 
APA supports the Secretary of Veterans Affairs efforts to develop 
standards that ensure mental health services are available to veterans 
similar to the manner in which primary care is available to veterans 
who require services by ensuring that each primary care health care 
facility of the Department has a mental health treatment capacity.
     treatment trials in integrated mental health services delivery
    The APA supports the language in S. 739 that allows the Secretary 
of Veterans Affairs to carry out two treatment trials in integrated 
mental health services delivery.
                          va homeless programs
Mental Illness Research, Education and Clinical Centers
    An important VA program, Mental Illness Research, Education and 
Clinical Centers (MIRECCs), began in October 1997 with establishment of 
three new Centers. These Centers bring together research, education and 
clinical care to provide advanced scientific knowledge on evaluation 
and treatment of mental illness. MIRECCs demonstrate that coordinating 
research and training of healthcare personnel in an environment that 
provides care and values the synergism of bringing all three elements 
together results in improved models of clinical services for 
individuals suffering from mental illness. Further, they generate new 
knowledge about the causes and treatments of mental disorders.
    MIRECCs were designed to deal with mental health problems that 
impact America's veterans. These include schizophrenia, post-traumatic 
stress disorders (PTSD), and dementia. In addition, MIRECCs focus on 
complex disorders including serious psychiatric issues complicated by 
homelessness, substance abuse and alcoholism. The funding of additional 
MIRECCs, which would provide research for these complex medical 
disorders, is vital.
    Alcohol and other substance use disorders continue to be a major 
national healthcare problem. Numerous studies show that rates of 
alcohol and other substance abuse are high among veterans within VA 
healthcare system. To its credit, VHA made significant progress during 
the past three years in screening all primary care patients for alcohol 
misuse. Which has resulted in identifying additional patients in need 
of specialized treatment services.
    The APA recommends the VHA should increase funding for Mental 
Illness Research Education and Clinical Care Centers (MIRECCs). Two new 
MIRECCS should be funded in FY 2002. Congress should incrementally 
augment funding for seriously mentally ill veterans by $100 million 
each year from FY 2002 through FY 2004.
    VHA should reinvest savings from closing inpatient mental health 
programs to develop an outpatient continuum of care that includes case 
management, psychosocial rehabilitation, housing alternatives, and 
other support services for severely and chronically mentally ill 
veterans.
    Again, we thank the Committee for the opportunity to deliver this 
statement on homelessness programs in the VA. Please do not hesitate to 
call on the APA as a resource, should there be any way in which we 
might be able to assist in working with you to provide the best health 
care possible to the veteran community.
                                 ______
                                 
   Prepared Statement of David A. Pendleton, Minority Floor Leader, 
                    Hawai'i House of Representatives
    My name is David A. Pendleton. I am a state elected official of 
Filipino ancestry, and I am writing in strong support of Filipino 
veterans of World War II. More specifically, I urge the U.S. Senate 
Committee on Veterans' Affairs to take steps to assure equity for 
Filipino veterans by passing Senate Bill 1042, the ``Filipino Veterans 
Benefit Improvement Act of 2001,'' introduced by Senator Daniel Inouye.
    Distinguished members of this Committee, my interest in Filipino 
veterans' issues derives partly from the fact that my late Filipino 
grandfather served in the United States Navy, He was enthusiastically 
patriotic. He was proud to be an American, proud of the fact that he 
was a citizen of a Nation committed to high ideals--liberty, justice, 
and equality before the law. I never mastered the details of World War 
II military history, but I grasped the themes, the major events, and 
acquired a sense of the times from my grandfather's account. His 
position--as I now reflect upon what he said--regarding the treatment 
of Philippine veterans was that some misunderstandings occurred, some 
unfairness took place, and some representations were made which were 
not lived up to.
    Philippine veterans fought for the United States in the Pacific 
Theater during World War II. During that time, various U.S. officials 
assured these Filipinos, who risked their lives for America, that their 
service would result in equal military benefits. Unfortunately, 
whatever hopes these Filipino veterans had about equal treatment were 
dashed by the Federal Rescission Act of 1946.
    The Rescission Act was preceded by President Franklin D. 
Roosevelt's Executive Order of 1941 and continued in Public Law 89-640, 
which passed the U.S. Congress in 1966. The policy had the effect of 
taking into consideration the currency exchange rate when paying 
benefits. The U.S. has veterans in many countries, but only when it 
comes to veterans in the Philippines does it take into account currency 
exchange rates.
    This is but one example of the apparent lack of equity with respect 
to our Filipino veterans.
    During World War II, many non-American soldiers were involved in 
this great conflict, fighting against the powers of conquest, namely, 
Japan and Nazi Germany. Among the military forces which opposed 
Japanese and German expansionism were allied troops from other 
countries. These troops, not unlike the Filipino veterans, fought in 
conjunction with American forces against a common enemy, They were 
subsequently afforded the right to naturalization. Beginning in 1943, 
naturalization officers were dispatched to foreign countries where they 
accepted applications for naturalization, performed naturalization 
ceremonies, and swore into American citizenship thousands of veterans 
from other countries.
    In contrast, the great majority of Filipino soldiers who had fought 
under the command of American officers were not afforded similar 
liberal naturalization policies. In fact, the United States withdrew 
its naturalization officer from the Philippines for nine months and 
then permitted the law to lapse in 1946, resulting in severely limiting 
the number of Filipino veterans able to exercise their rights in a 
timely fashion.
    Members of the committee, it is clear that Filipinos who fought for 
the United States during WWII, have been discriminated against and that 
promises made to them have not been kept.
    Accordingly, I urge Congress to pass S. 1042, This bill would make 
veterans of the Philippine Commonwealth Army, recognized guerillas, and 
New Philippine Scouts eligible to receive medical benefits and monthly 
disability pensions from the U.S. Department of Veterans Affairs.
    Permit me to close by reminding us all of the purpose and goal of 
the Department of Veterans Affairs: ``to care for him who shall have 
borne the battle. . . .'' The United States Congress has an opportunity 
to effectuate genuine equity for Filipino veterans. Let us today begin 
the arduous but necessary task of crafting legislation, which will lead 
to equity for Filipino veterans, Let us care for those who have borne 
the battle.
    Thank you for this opportunity to submit testimony on this issue.
                                 ______
                                 
        Prepared Statement of the Paralyzed Veterans of America
    Chairman Rockefeller, Ranking Member Specter, members of the 
Committee, the Paralyzed Veterans of America (PVA) is pleased to 
present our views for the record regarding health-related legislation 
pending before the Committee.
 s. 739, the ``heather french henry homeless veterans assistance act.''
    PVA supports S. 739, the ``Heather French Henry Homeless Veterans 
Assistance Act'' introduced by Senator Wellstone. There continues to be 
a problem with homelessness among our Nation's veterans. The 
Independent Budget, which is co-authored by PVA, has estimated that 
more than 275,000 veterans are homeless on any given night. 
Furthermore, more than half a million veterans experience a period of 
homelessness throughout the course of a year.
    Additional estimates show that one out of every three homeless 
males who is sleeping in a doorway, alley, or box in our cities and 
rural communities has put on a uniform and served this Nation. The 
Department of Veterans Affairs (VA) reports that most homeless veterans 
are male; only two percent are female. More than 67 percent of these 
homeless veterans served in the Armed forces for at least three years.
    Another major problem that the VA faces is that of homeless 
veterans with mental illness and substance abuse disorders. The VA 
estimates that about 45 percent of homeless veterans suffer from mental 
illness, and 50 percent have substance abuse problems. One of the most 
common illnesses among these individuals is Post-Traumatic Stress 
Disorder (PTSD). In the past five years, spending on the VA's mental 
health programs has declined by nearly 10 percent. We recently 
testified before the House Veterans' Affairs Subcommittee on Benefits 
that the decline in the VA's mental health capacity has increased the 
number of veterans with no place to go; thus, the rate of homelessness 
among veterans with mental illness continues to increase.
    Support from various government agencies including the VA, the 
Department of Labor, and the Department of Housing and Urban 
Development is essential in overcoming the problems our homeless 
veterans face. The Homeless Veterans Reintegration Program (HVRP) of 
the Department of Labor has been the leading program for the employment 
of homeless veterans. Within the VA, physical and mental health care is 
vital to gain and hold employment. Mental health and substance abuse 
programs are key to preparing many homeless veterans for the workforce. 
PVA requests that each VA medical center report its current capacity in 
order to provide the VA with an idea of the direction we must go to 
improve.
    PVA supports the establishment of the Advisory Committee on 
Homeless Veterans within the VA. The interaction between the agencies 
represented on the committee should allow for multiple solutions to be 
developed and implemented. A critical task of this advisory committee 
is identifying barriers under existing laws and policies to effective 
coordination by the VA with other Federal agencies and with State and 
local agencies addressing homeless populations. Once the difficulties 
between the federal agencies are overcome, then a unified, focused 
effort can be made among these agencies to turn these problems around.
    PVA also recognizes the need to assist homeless veterans with 
special needs. We must not let our women veterans, veterans over 50 
years of age, veterans who have to care for minor dependents or other 
family members, or veterans who suffer from substance abuse, PTSD, 
terminal illness, or chronic mental illness be left behind.
    The grant program for medical centers that would allow these 
centers to support those veterans with special needs is a vital part of 
meeting the national goal of overcoming homelessness among veterans 
within a decade.
    An important way to accomplish the national goal for overcoming 
veterans' homelessness is the implementation of outreach programs. It 
is no secret that non-homeless veterans filing claims face many 
difficulties because they are not fully aware of the benefits and 
services they are entitled to. That being said, if these individuals do 
not have easy access to everything they need to know, then you can only 
imagine how difficult it is for homeless veterans who have no link to 
information. Our homeless veterans need to know what benefits they are 
entitled as well as what local VA facilities they have access to. We 
urge the VA to focus on outreach if it intends to be successful in 
overcoming the plight of homelessness.
    PVA believes that S. 739 represents a comprehensive approach to 
dealing with the problem of homelessness among our veterans, and we 
urge its serious consideration, and passage.
  s. 1188, the ``department of veterans affairs nurse recruitment and 
                  retention enhancement act of 2001.''
    PVA supports S. 1188, the ``Department of Veterans Affairs Nurse 
Recruitment and Retention Enhancement Act of 2001.'' There is no single 
cause of the looming nursing crisis, and there is no simple solution. 
By requiring the VA to produce a policy on staffing standards and 
report on the use of overtime by the nursing staff, by providing 
Saturday premium pay and improving existing scholarship and debt 
reduction programs by providing additional flexibility to recipients 
this measure is a forward-looking attempt to begin solving this crisis. 
PVA asks the Committee to pay special attention to the retention and 
recruitment of specialized services nurses. PVA members rely upon the 
professionalism of these nurses who man the VA's Spinal Cord Injury 
Centers.
                                s. 1160
    PVA enthusiastically supports S. 1160, a bill that would provide 
the VA with the authority to provide service dogs to disabled veterans. 
We urge the Committee to make these dogs available to all veterans who 
need them.
    The Journal of the American Medical Association (JAMA) published a 
study in 1996 that assessed the value of service dogs for people with 
ambulatory disabilities. This study found ``reports of paid and unpaid 
assistance demonstrated dramatic economic benefits of service dogs.'' 
After one year, the study found a decrease of 68 percent in paid 
assistance hours and a 64 percent decrease in unpaid assistance hours.
    The JAMA study also detailed the many tasks that service dogs can 
perform, such as ``open and close doors, turn switches on and off, pull 
a person up from a sitting position or lying down position, assist a 
person in and out of baths and pools, help pull on clothing, procure 
and pick up objects, pull wheelchairs, and drag a person to safety in 
case of fire or other emergency.''
    PVA greatly appreciates the efforts of Chairman Rockefeller and his 
staff in introducing this measure. PVA would recommend that a couple of 
changes be made to the underlying legislation. First, we recommend that 
guide dogs and service dogs be made available to all veterans who need 
them, those with and without service-connected injuries. With health 
care eligibility reform we moved to a uniform benefits package it is 
essential that we do not take a step backwards by limiting this much-
needed service. Second, we would recommend expanding the criteria for 
which veterans are eligible beyond those veterans with spinal cord 
injury or dysfunction, or hearing impairments. Veterans with traumatic 
brain injuries, seizure disorders, amputations and other physical or 
mental disabilities may also be able to realize significant quality of 
life and economic improvements through having a service dog. We would 
recommend that Sec. 1714 (b) of title 38, United States Code, be 
amended to read as follows:
          (b)(1) The Secretary may provide guide dogs trained for the 
        aid of the blind, and may also provide mechanical or electronic 
        equipment for aiding veterans in overcoming the disability of 
        blindness.
          (2) The Secretary may provide service dogs trained for the 
        aid of persons with disabilities to veterans with spinal cord 
        injury or dysfunction or any chronic physical or mental 
        impairment that substantially limits mobility, hearing, or 
        activities of daily living to assist in overcoming these 
        disabilities.
          (3) In providing a guide dog or service dog under this 
        subsection, the Secretary may pay travel and incidental 
        expenses (under the terms and conditions set forth in section 
        111 of this title) of the veteran to and from the veteran's 
        home and incurred in becoming adjusted to the guide dog or 
        service dog.''.
    For over half-a-century, PVA has fought for the integration of 
people with disabilities into the economic and social life of our 
Nation. Providing service dogs to veterans who need them would be a 
major step forward in the ultimate realization of this goal. As one 
participant, who has a spinal cord injury, stated in the JAMA study, 
``with my [dog], I feel safe and capable, and I am no longer afraid of 
the future. Everyone needs someone to care for, and we care for each 
other with dignity.''
               draft legislation to change the means test
    PVA supports changing the means test used by the VA to determine 
whether veterans will be placed in enrollment priority Category 5 or 7 
as set forth in 38 U.S.C. Sec. 1722. Under current law, VA sets only 
one means test threshold for all non-service connected disabled 
veterans seeking access to care regardless of their ability to defray 
the cost of their health care due to differences in cost-of-living from 
one locality to the next in the United States.
    As the attached white paper discusses, we have identified an 
established formula implemented by the Department of Housing and Urban 
Development (HUD) to set income limits for eligibility for low income 
housing benefits. The HUD formula makes adjustments in means test 
eligibility based on the cost-of-living experience in most every 
locality in the United States. As with the current VA system it also 
adjusts for the number of dependents in the applicant household.
    It is important to note that this proposal would not change the 
existing means test thresholds under current law (currently $23,688 for 
a veteran with no dependents and $28,430 for a veteran with one 
dependent) even if the HUD formula for a certain locality fell below 
the existing VA means test threshold. In other words, veterans 
currently eligible for Category 5 status because they meet the VA 
income standards would remain in that Category. Many veterans in high 
cost-of-living localities, however, could benefit from the higher 
income standard established by the HUD formula and be eligible for 
Category 5 because of their increased inability to defray co-payments.
    We have identified income limits for certain localities selected 
from the HUD formula and matched them with VA data showing income 
experience for Category 7 in the same localities. The tables at the end 
of the white paper indicate how many veterans in each locality, 
selected at random, currently in VA Category 7 could move up to 
Category 5 using the HUD formula.
    This is vital legislation if we are to care for our veterans, and 
will enable us to more closely follow the congressional intent 
underlying the provision of care to those veterans unable to meet the 
ever-spiraling cost of health care
 s. 1042, the ``filipino veterans' benefits improvements act of 2001.''
    As the Independent Budget states, ``[w]e are mindful of the brave 
and historic contributions made by Filipino veterans during World War 
II as members of the United States armed forces. Their actions as part 
of the allied forces are legendary. Measured in these terms, we believe 
Filipino veterans of World War II should be granted access to the VA 
health care system. These brave soldiers answered our Nation's call to 
duty and now it is our duty to honor our commitment to them.''
    PVA has long fought to right the grievous injustice of our 
government's actions after World War II. In the Independent Budget we 
advocated appropriating an additional $30 million to expand health care 
access for Filipino veterans. We look forward to the Committee's 
studied deliberation of S. 1042 as we seek how best to meet these 
valiant veterans' health care needs in a manner that honors their 
remarkable service.
    This concludes PVA's testimony for the record concerning health-
related legislation before this Committee. We will be happy to respond 
to any questions or requests that arise from this hearing.
 Attachment--Proposal to Adjust Veterans Health Care Eligibility Means 
   Test to More Accurately Reflect Locality Cost of Living Variations
    The Paralyzed Veterans of America (PVA) is requesting legislation 
to change the means test used by the Department of Veterans Affairs 
(VA) to determine whether veterans will be placed in enrollment 
priority Category 5 or 7 as set forth in 38 U.S.C. Sec. 1722. Category 
placement is important because veterans enrolled in lower categories 
(i.e., 6 and 7) whose incomes are above current means test levels are 
required to make co-payments for much of their care. In the 
``discretionary'' Category 7, they could also be at greater risk of 
disenrollment should the VA budget require it in the future.
                             justification
    In creating Category 5, Congress demonstrated its desire to provide 
health care to veterans who are unable to defray the cost of care. For 
this reason, Category 5 veterans do not pay co-payments for health care 
received. Category 7 veterans do pay co-payments. In addition, VA 
hospitals receive reimbursement for providing care to Category 5 
veterans. Hospitals do not get reimbursed for Category 7 veterans.
    Currently, the VA uses a national means test income threshold of 
$23,688 for a veteran with no dependents and $28,430 for a veteran with 
one dependent. This universal threshold applies regardless of the 
geographic cost-of-living differences. A universal income threshold 
does not adequately address many individual veterans' inability to 
``defray the cost of care'' as required by 38 U.S.C. Sec. 1722.
                      relevant statutory authority
    38 U.S.C. Sec. 1722 establishes the criteria by which a veteran is 
determined to be unable to defray necessary expenses and establishes 
the income thresholds to be used in making this determination.
    38 U.S.C. Sec. 1705 establishes the VA's patient enrollment system. 
Sec. 1705 (a) establishes the seven categories with which the VA 
prioritizes the provision of care. Sec. 1705 (a) (5) establishes the 
fifth priority category as ``veterans not covered by paragraphs (1) 
through (4) who are unable to defray the expenses of necessary care as 
determined under Sec. 1722 (a) of this title''. Sec. 1705 (a) (7) 
establishes priority category seven as veterans described in Sec. 1710 
(a) (3) of this title.
    38 U.S.C. Sec. 1710 (a) (3) authorizes the VA to treat veterans in 
priority categories 6 and 7 on a ``funds permitting'' basis and at the 
Secretary's discretion.
    42 U.S.C. Sec. 1437a (b) (2) defines the term ``low income 
families'' as `` families whose incomes do not exceed 80 per centime of 
the median income for the area, as determined by the Secretary (of 
housing and urban development) with adjustments for smaller and larger 
families.''
                                proposal
    The most direct way to address this problem is to adjust the 
national means test by locality to more accurately reflect the 
differences in geographic cost-of-living. This locality-adjusted means 
test would help veterans who have incomes slightly higher than the 
existing threshold who have previously been designated as Category 7. 
They would now fall below a newly-adjusted means test threshold for 
their area and be classified Category 5. The individual VA Healthcare 
networks, otherwise known as VISNs (Veterans Integrated Service 
Networks), would no longer be able to collect co-payments for the care 
provided to these veterans but would begin to receive reimbursement for 
their care.
                          proposed methodology
    We have identified the HUD Low Income Index as established through 
Section 3 of the U.S. Housing Act of 1937, as amended in 1998, as a 
viable index. The HUD index defines ``low income'' for families with 
incomes that do not exceed 80 percent of the median family income for 
the area in which they reside. The areas are broken down into a variety 
of categories including Metropolitan Statistical Areas (MSAs), Primary 
Metropolitan Statistical Areas (PMSAs) and counties. This index has 
defined both geographic areas and cost of living within these areas and 
should be relatively easy for the VA to implement.
    Using the low-income methodology would mean that all veterans 
residing in a defined locality would have a means test threshold that 
was adjusted to reflect the cost-of-living determined by the HUD 
formula for that particular defined area. This new threshold is more 
indicative of the veteran's ability to defray the cost of care. 
Furthermore, to insure that no veterans are bumped from Category 5 into 
Category 7 when these new thresholds are implemented, we propose to 
maintain the existing $24,000 threshold, regardless of the number of 
dependents, nationwide as the lowest figure for any means test 
variations even if the HUD formula determines that the low-income rate 
for a particular area is actually under $24,000. In other words, for 
any location where the low-income index indicates that the new 
threshold should actually be lower than $24,000, the means test figure 
will stay at $24,000, regardless of the number of dependents in the 
veterans' household. This provision guarantees that no VISN will lose 
any Category 5 veterans and only stand to gain category 5's from 
implementation of this new means test system.
    The following explanation of HUD's methodology for determining the 
median income and subsequent income amounts is taken from HUD's own 
briefing book:
hud methodology for estimating fy 2000 median family incomes (economic 
    and market analysis division, office of economic affairs, pd&r)
    FY 2000 HUD estimates of median family income are based on 1990 
Census data estimates updated with a combination of local Bureau of 
Labor Statistics (BLS) data and Census Divisional data. Separate median 
family income estimates (MFIs) are calculated for all Metropolitan 
Statistical Areas (MSAs), Primary Metropolitan Statistical Areas 
(PMSAs), and non-metropolitan counties.
    The income adjustment factors used to update the 1990 Census-based 
estimates of MFIs are developed in several steps. Average wage data 
from the Bureau of Labor Statistics (BLS) were available for 1989 
through the end of 1997 at a county level, and were aggregated to the 
metropolitan area level for multi-county metropolitan areas. Census 
Divisional level median family and household income estimates were 
available from the Current Population Report (CPR) March 1990-99 
surveys, which measure incomes from mid-1989 through mid-1998. These 
data were then used to update mid-1989 income estimates from the 1990 
Census to the middle of 1998. The mid-1998 estimates were trended 
forward to mid-FY 2000 using a factor based on past P-60 Series trends. 
The step-by-step normal procedures as well as the exception procedures 
used are as follows:
    1. Estimate mid-1989 local median family incomes using 1990 Census 
data. (Current HUD Section 8 Fair Market Rent (FMR) program definitions 
are used to define metropolitan areas, which are normally the same as 
Office of Management and Budget metropolitan area definitions.)
    2. Calculate the BLS wage change factors for each Census Division 
for the 1989-97 period as follows:
    Census Division BLS Wages (1997)
    Census Division BLS Employees (1997) = 8-year BLS wage increase 
factor for Census Division
    Census Division BLS Wages (1989)
    Census Division BLS Employees (1989)
    3. Calculate the change in median family and household incomes for 
the nine Census Divisions for the 1989-1998 period using Census P-60 
series data, as follows:
    Census Division P-60 MFI (1998) = 9-year increase factor for Census
    Census Division P-60 MFI (1989) Division P-60 Median Family Income
    4. Compare the BLS and P-60 series Census Divisional factors 
calculated in steps 2 and 3 to provide a means of adjusting local BLS 
wage factor changes so that they aggregate to the same change factor as 
P-60 changes in family incomes plus contain an added year of CPS 
trending.
    9-year increase factor for
    Census Division P-60 MFI = Ratio of Census Division P-60
    8-year increase factor for MFI to ratio of Census
    Census Division BLS Wages Division BLS wage changes
    5. Calculate the 1989-98 increase factors for the individual 
metropolitan areas and nonmetropolitan counties by applying the Census 
Divisional index factors from step 4 to local BLS data.
    Local BLS Wages (1997)
    Local BLS Employees (1997) Ratio of Census 9-year income
    * Division P-60 = adjustment
    MFI to Census factor for
    Local BLS Wages (1989) Division BLS wages MSA or County
    Local BLS Employees (1989) = 1989 to mid-1998 MFI Adj. factor
    6. Convert 1989-98 step 5 change factor to a 1989-2000 change 
factor by applying an annual trending figure of 4.0 percent to update 
the mid-1998 estimate to mid-1999, and applying a 3.0 percent factor 
(3/4 of 4.0 percent) to the mid-1999 to April 1, 2000 period. (Use of a 
trending factor is necessary because of lags in Bureau of Labor 
Statistics and P-60 Series data availability; the 4.0 percent factor is 
based on national income change patterns in recent years.)
    (Step 5 adj. factor) * 1.04 * 1.03 = 1989 to mid-FY 2000 adjustment 
factor
    7. Calculate median family incomes for FY 2000 by multiplying the 
step 1 Census estimate of median family income by the income adjustment 
factor derived in Step 6.
    1990 Census Median Family Income * Step 6 factor = FY 2000 MFI EST.
    8. For American Housing Survey areas, compare the MFI estimates 
from step 7 with median family income estimates based on post-1989 
American Housing Survey (AHS) estimates of median family income updated 
to 2000. Past analysis shows that there is 95 percent likelihood that 
the true local median family income is within 6 percent of the AHS-
based estimate. For areas where an AHS-based estimate differs by more 
than 6 percent from the Census-based estimate, local MFI estimates are 
increased or decreased so that they are within 6 percent of the AHS-
based estimate.
    9. Compare the 2000 MFI estimate with the 1999 MFI estimate. If the 
1999 estimate is higher set the 2000 estimate at the 1999 level. (This 
policy is applied except when estimates are revised with decennial 
Census data, and serves to minimize disruption in program activities 
due to temporary decreases in income estimates.)
    In addition to the above procedures, constraints are placed on 
annual changes in the Census Divisional and BLS change factors based on 
past experience. These guidelines constrain increases for a small 
number of areas with unusually high increases.
    va's ability to collect copayments and third party reimbursement
    Applying a regional adjustment to the means test would not affect 
VA's ability to charge third party health insurers for the cost of care 
provided to a veteran because VA's authority to collect insurance 
payments is not tied to the means test. However, the means test is used 
by VA to determine a veteran's obligation to pay co-payments for their 
care and adjusting the means test would therefore affect VA's ability 
to collect co-payments.
    The means test used by the Department of Veterans Affairs is set 
forth at 38 U.S.C. Sec. 1722. While this statutory provision sets forth 
the amount of the annual means test threshold, and prescribes the 
methodology for calculating whether a veteran's income exceeds this 
threshold, it does not state the purpose of the means test. Rather, the 
means test set forth in Sec. 1722 is referred to in two distinct 
statutes that govern eligibility for care and the obligation to pay a 
co-payment.
    The means test threshold set forth in Sec. 1722 is expressly 
referred to by the statutory provision governing VA's managed care 
system of enrollment. See 38 U.S.C. Sec. 1705(a)(5). Under VA's 
enrollment system, veterans are placed in one of seven priority 
categories based on consideration of such factors as income, level of 
disability, and percentage of service-connection. See 38 U.S.C. 
Sec. 1705. Each year, VA is required to enroll only those categories of 
veterans that can be treated within appropriated funding. See 38 U.S.C. 
Sec. Sec. 1705, 1710(a)(4). Veterans with income under the means test 
threshold are placed in priority category 5, ensuring that those 
veterans determined to be unable to defray the cost of their care will 
not be among the first cut from care when appropriations are 
insufficient to provide care to all veterans. Regionally adjusting the 
means test will therefore elevate some veterans from priority category 
6 and 7 to priority category 5.
    The means test threshold set forth in Sec. 1722 is also referred to 
in the statutory provisions governing the determination of a veteran's 
obligation to pay a co-payment. See 38 U.S.C. Sec. 1710(a)(2)(G). Under 
this statutory provision, veterans with income under the annual means 
test threshold receive cost free care, while those with income over the 
means test must pay co-payments for inpatient and outpatient care. See 
38 U.S.C. Sec. Sec. 1710(a)(3), 1710(f). Veterans with income over the 
means test must pay an inpatient hospital co-payment of $768 per 90 
days of care, plus a per diem charge of $10 per day. See 38 U.S.C. 
Sec. 1710(f). Veterans with income over the means test must also pay an 
outpatient co-payment of $50.80 per visit. See 38 U.S.C. Sec. 1710(g). 
Regionally adjusting the means test will therefore exempt some veterans 
from these co-payment obligations if the means test is adjusted upward 
in their region to an amount in excess of their current income.
    The authority for VA to bill a veteran's private health insurer is 
set forth in 38 U.S.C. Sec. 1729. This statute neither references the 
provisions of Sec. 1722 nor utilizes the means test threshold to 
determine whether a veteran's private health insurer may be billed for 
the cost of care provided. Rather, Sec. 1729 broadly grants VA the 
authority to bill the private health insurer of any nonservice-
connected veteran, regardless of priority category placement or income 
level, for the full cost of care provided at a VA facility. See 38 
U.S.C. Sec. 1729(a)(2)(D)(ii). VA is even permitted to bill third party 
health insurers for the full cost of treatment provided for the 
nonservice-connected disabilities of veterans with service-connected 
disabilities. See 38 U.S.C. Sec. 1729(a)(2)(E). Since VA's authority to 
recover the cost of care from private health insurers is not related to 
the means test threshold set forth in Sec. 1722, regionally adjusting 
the means test threshold will have no impact on insurance billing.
                estimates of number of veterans affected
    The following chart estimates the number of veterans in certain 
MSAs that would be moved form category 7 into category 5 through this 
proposal. These numbers are based on data obtained form the VA. The 
MSAs listed in the chart were chosen at random.
    Please note, that while we are proposing that the bottom threshold 
be established at $24,000, regardless of the number of dependents per 
family.

----------------------------------------------------------------------------------------------------------------
                                                                1 person     2 person     3 person     4 person
                             MSA                                 family       family       family       family
----------------------------------------------------------------------------------------------------------------
Abilene (TX)................................................            0            0            0            4
Albany-Schenectady-Troy (NY)................................          275          319          514          422
Albuquerque (NM)............................................          120          150          300          315
Allentown-Bethlehem-Easton (PA).............................           32           49           92           82
Altoona (PA)................................................            0            0            0            0
Anchorage (AK)..............................................          190          237          216          167
Ann Arbor (MI)..............................................           97          100           77           52
Anniston (AL)...............................................            0            0            0            0
Appleton-Oshkosh-Neenah (WI)................................           15           27           41           30
Atlanta (GA)................................................         1123         1060          867          647
Baltimore (MD)..............................................         1245         1133          970          709
Bangor (ME).................................................            0            0            0            5
Baton Rouge (LA)............................................            9            6            9           31
Bellingham (WA).............................................            3            1           10           10
Bergen-Passaic (NJ).........................................          685          634          500          358
Billings (MT)...............................................            7           12           23           25
Biloxi-Gulfport-Pascagoula (MS).............................            0            0            0           21
Bismarck (ND)...............................................            2            6            9           25
Bloomington (IN)............................................            2            5           10            9
Boise City (ID).............................................           40           88          129          139
Boston-Worcester-Lawrence-Lowell-Brockton (MA-NH)...........         1540         1568         1366         1003
Boulder-Longmont (CO).......................................           21           21           18           13
Burlington (VT).............................................           23           38           37           33
Casper (WY).................................................            2            5           12           16
Cedar Rapids (IA)...........................................            4           14            9           23
Charleston (WV).............................................            2            0           21           24
Charlotte-Gastonia-Rock Hill (NC-SC)........................          245          351          350          259
Charlottesville (VA)........................................            4            3            1            1
Chattanooga (TN-GA).........................................           10           40           47           51
Chicago (IL)................................................         3622         3504         2792         1876
Cleveland-Lorain-Elyria (OH)................................         1043         1074          957          396
Corvallis (OR)..............................................            6            5            7            6
Dover (DE)..................................................            6           20           29           38
Enid (OK)...................................................            0            0            0            0
Fayetteville (NC)...........................................            0            0            0           18
Fort Lauderdale (FL)........................................          322          384          417          303
Hartford (CT)...............................................          694          672          574          270
Honolulu (HI)...............................................          104          108           91           63
Las Vegas (NV-AZ)...........................................          542          770          866          709
Lawrence (KS)...............................................           13            7            7           10
Lexington (KY)..............................................           98          173          216          221
Lincoln (NE)................................................           22           37           62           52
Little Rock-North Little Rock (AR)..........................           74          170          264          275
Los Angeles-Long Beach (CA).................................         1006         1146          823         1064
Minneapolis-St. Paul (MN-WI)................................          652          653          522          386
New York (NY)...............................................         2995         2844         3059         2093
Phoenix-Mesa (AZ)...........................................          422          559          722          602
Providence-Warwick-Pawtucket (RI)...........................           78          157          217          211
Provo-Orem (UT).............................................            5            9           14           27
Rapid City (SD).............................................            7            5           22           38
St Louis (MO-IL)............................................          198          309          434          486
----------------------------------------------------------------------------------------------------------------

                               conclusion
    Implementation of the HUD low-income rates to augment VA's single 
means test standard and methodology will create a system that 
realistically and equitably reflects cost-of-living variations from one 
locality to the next, reflecting a veteran's ability to defray the cost 
of his health care as per Congress' original intent. Leaving the 
existing threshold as a base level guards against harm for any veteran 
currently meeting existing means test criteria. While VA's health care 
networks will lose the ability to collect co-payments from veterans 
formerly enrolled in category 7 who would now be bumped into category 
5, under the original statutory intent governing the eligibility 
category placement, where the ability to defray the cost of care is the 
determining factor in placement in either category 5 or 7, these 
veterans should never have been required to pay co-payments in the 
first place. Furthermore, we believe that each VA health care system 
will be able to recoup the loss of the moneys collected as co-payments 
by ``drawing down'' reimbursement from VA central office for these new 
category 5 patients.

                                   - 

</pre></body></html>
